<html>
<title> - LEGISLATIVE HEARING ON H.R. 2355, H.R. 2996, H.R. 4299, H.R. 5735, H.R. 5880, H.R. 5881 AND H.R. 2720</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





LEGISLATIVE HEARING ON H.R. 2355, H.R. 2996, H.R. 4299, H.R. 5735, H.R. 
                     5880, H.R. 5881 AND H.R. 2720

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON DISABILITY ASSISTANCE
                          AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, JUNE 6, 2012

                               __________

                           Serial No. 112-66

                               __________

       Printed for the use of the Committee on Veterans' Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-592                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               JERRY McNERNEY, California, 
ANN MARIE BUERKLE, New York          Ranking
MARLIN A. STUTZMAN, Indiana          JOHN BARROW, Georgia
ROBERT L. TURNER, New York           MICHAEL H. MICHAUD, Maine
                                     TIMOTHY J. WALZ, Minnesota

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.













                            C O N T E N T S

                               __________

                              June 6, 2012

                                                                   Page

Legislative Hearing On H.R. 2355, H.R. 2996, H.R. 4299, H.R. 
  5735, H.R. 5880, H.R. 5881 and H.R. 2720.......................     1

                           OPENING STATEMENTS

Chairman Jon Runyan..............................................     1
    Prepared Statement of Chairman Runyan........................    42
Hon. Jerry McNerney, Ranking Democratic Member...................     3
    Prepared Statement of Hon. Jerry McNerney....................    43
Hon. Steve Stivers, U.S. House of Representatives (OH-15)........     4
    Prepared Statement of Hon. Stivers...........................    44
Hon. Vicky Hartzler, U.S. House of Representatives (MO-04).......     5
    Prepared Statement of Hon. Hartzler..........................    44
Hon. Larry Kissell, U.S. House of Representatives (NC-08)........     7
    Prepared Statement of Hon. Kissell...........................    45
Hon. John Culberson, U.S. House of Representatives (TX-07).......     8
    Prepared Statement of Hon. Culberson.........................    45
    Executive Summary of Hon. Culberson..........................    47

                               WITNESSES

Mr. Raymond Kelley, National Legislative Director, Veterans of 
  Foreign Wars...................................................    10
    Prepared Statement of Raymond Kelley.........................    48
Mr. James Young, President, National Association of County 
  Veterans' Service Officers.....................................    12
    Prepared Statement of James Young............................    49
    Executive Summary of James Young.............................    51
Mr. Jeff Hall, Assistant National Legislative Director, Disabled 
  American Veterans..............................................    13
    Prepared Statement of Jeff Hall..............................    51
Ms. Debbie Lee, Founder, America's Mighty Warriors...............    22
    Prepared Statement of Debbie Lee.............................    54
Ms. Lisa Ward, Widow to Major Richard Ward, U.S. Army, Persian 
  Gulf War.......................................................    24
    Prepared Statement of Lisa Ward..............................    55
Mr. Kelly Shackelford, President, The Liberty Institute..........    25
    Prepared Statement of Kelly Shackelford......................    56
    Executive Summary of Kelly Shackelford.......................    60
Mr. Jay Sanders, Senior Vice Commander, Veterans of Foreign Wars, 
  District 4.....................................................    26
    Prepared Statement of Jay Sanders............................    61
Ms. Kathryn Condon, Executive Director, Army National Cemeteries 
  Program........................................................    35
    Prepared Statement of Kathryn Condon.........................    62
Mr. Thomas Murphy, Director of Compensation and Pension Service, 
  United States Veterans Administration..........................    36
    Prepared Statement of Thomas Murphy..........................    63
    Accompanied by:

      Richard Hippolit, Office of the General Counsel, U.S. 
          Department of Veterans Affairs

                        STATEMENT FOR THE RECORD

Hon. Ted Poe, U.S. House of Representatives (TX-02)..............    66

 
LEGISLATIVE HEARING ON H.R. 2355, H.R. 2996, H.R. 4299, H.R. 5735, H.R. 
                     5880, H.R. 5881 AND H.R. 2720

                              ----------                              


                        Wednesday, June 6, 2012

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 2:20 p.m., in 
Room 334, Cannon House Office Building, Hon. Jon Runyan 
[Chairman of the Committee] presiding.
    Present: Representatives Runyan, Stutzman, McNerney, 
Barrow, and Walz.

            OPENING STATEMENT OF CHAIRMAN JON RUNYAN

    Mr. Runyan. Good afternoon. This legislative hearing on 
H.R. 5881, H.R. 5880, H.R. 2355, H.R. 2996, H.R. 4299, H.R. 
5735, and H.R. 2720 will come to order. I know we have a few 
other Members that are on their way. So if we do have to go out 
of order we will do so. But we are here today because we have 
several important pieces of legislative on our agenda. Due to 
the high level of interest in some bills before us I am going 
to forego a lengthy statement and just touch on some of the 
bills on today's agenda, two of which I have introduced and 
another of which I have co-sponsored with the Ranking Member, 
Mr. McNerney.
    H.R. 5881, the Access to Veterans Benefits Improvement Act, 
provides certain local government employees and certain 
employees of Congress with access to case tracking information 
throughout the Department of Veterans Affairs. We have a 
responsibility to serve our veterans by ensuring that every 
effort is made to simplify the claims process. Key actors of 
this effort are county veterans service officers whose 
expertise in claim development benefits veterans in many 
communities across America. Their assistance is especially 
critical to many thousands of veterans who live in rural areas, 
hours away from a VA regional office. Many veterans are 
overwhelmed as they try to navigate their way through the 
claims process and they are further frustrated when they ask 
for help from their county VSO or their member of Congress and 
that person cannot access even the most basic information about 
the status of their claim. This bill would allow these local 
government officials to check on the status of a veteran's 
claim and ensure that VA has all of the information needed to 
process claims in the most efficient manner possible.
    H.R. 5880, the Disability Examination Improvement Act, 
extends the authority of the Secretary of Veterans Affairs to 
enter into contracts with private physicians to conduct mental 
disability examinations. With the passage of this bill, the 
successful program that allows physicians outside of the VA to 
conduct contract examinations would continue. This would allow 
the VA to more quickly evaluate veterans' disabilities and 
facilitate access to the care they need.
    Again, I have also co-sponsored with Ranking Member 
McNerney H.R. 4299, the Quality Housing for Veterans Act. It 
amends Title 38 of the U.S. Code to extend the authority of the 
Secretary of Veterans Affairs to provide specially adapted 
housing assistance to veterans who are residing in temporary 
housing owned by a family member. Our disabled heroes face many 
challenges as they adapt to their new lives after service. 
Maneuvering their way through their place of residence should 
not be one of them. Furthermore, many veterans have found that 
living in an environment in which they are surrounded by the 
care and support of family is a critical component to their 
successful recovery. This bill will ensure that our disabled 
veterans can live in housing that is adapted to their needs, 
whether they choose to live with family or elsewhere, better 
equipping them to return to the civilian world and move forward 
with their lives.
    We will also be discussing the following bills: H.R. 2355, 
the Hallowed Grounds Act, which would prohibit the burial of 
certain categories of sex offenders in national cemeteries; 
H.R. 2996, the Gulf War Presumptive Illness Act, which would 
change the date by which veterans must present symptoms of 
illness covered under the service connected presumption from 
December 31, 2016 to December 31, 2018; H.R. 5735, which would 
provide a tomb of remembrance at Arlington National Cemetery 
for the purpose of proper interment of remain fragments of our 
deceased heroes which are otherwise unidentifiable or 
unclaimed; and finally, H.R. 2720, which would clarify the role 
of the Department of Veterans Affairs in providing a benefit or 
service related to interment or a funeral of a veteran, and for 
other purposes.
    Again, in the interests of time I would like to reiterate 
my request that the witnesses abide by the decorum and rules of 
the hearing and summarize your statements to five minutes or 
less during your oral testimony. We have a large number of 
individuals ready to testify on the legislation today and I 
want to make sure that everyone is heard in a timely manner. 
And I would also like to remind all present that without any 
objection your written testimony will be made part of the 
hearing record. I appreciate everyone's attendance here today 
and would like to now call on the Ranking Member, Mr. McNerney, 
for his opening statement.

    [The prepared statement of Chairman Jon Runyan appears in 
the Appendix]

           OPENING STATEMENT OF HON. JERRY MCNERNEY, 
                   RANKING DEMOCRATIC MEMBER

    Mr. McNerney. I thank the Chairman. Today we have a full 
schedule. That includes seven bills before us that address some 
of the unique needs of our Nation's veterans. The bills pertain 
to issues ranging from burial eligibility to monuments, from 
claims processing, and C&P exams, to presumptive illnesses, and 
from adaptive housing benefits to freedom of speech issues.
    H.R. 2996, the Gulf War Syndrome Presumptive Illness 
Extension Act of 2011, sponsored by Mr. Kissell of North 
Carolina, would extend the period of time in which the VA 
presumes the service connection of certain disabilities of 
veterans who served in the Persian Gulf War as well as 
Operation Enduring Freedom, Operation Iraqi Freedom, Operation 
New Dawn, and Afghanistan. The regulation establishing the 
period of time that the VA has for identifying presumptive 
illnesses relating to certain veterans' military service will 
now expire according to current law on December 31, 2016 thanks 
to the VA's recent rulemaking. H.R. 2996 would extend this 
period to December, 2018, which would allow these veterans to 
file for a set of conditions that may arise years after their 
services, as we have seen in veterans following the Vietnam 
War. This bill would also extend the qualifying service area to 
include Afghanistan and other supporting areas for Operations 
Enduring Freedom, Iraqi Freedom, and New Dawn.
    I understand that the VA opposes these extensions. But I 
think we need to look at whether expanding to these areas makes 
sense. I think H.R. 2996 reinforces Congress' intent that all 
veterans who served in these combat areas, and those serving in 
nearby areas, should be entitled to these presumptions as we 
await further scientific study on their illnesses.
    Also included in today's hearing is H.R. 4299, the Quality 
Housing for Veterans Act, a bill which I introduced. And I 
thank the Chairman for his support of that bill. The bill seeks 
to provide specially adapted housing assistance to veterans 
residing temporarily in housing owned by a family caregiver.
    Mr. Chairman, we have several other bills on the agenda 
today, including H.R. 5880 and H.R. 5881. While I support the 
bill H.R. 5880, which would extend the VA's contract authority 
with private providers of C&P exams, I also want to ensure that 
we remain vigilant in our oversight of this authority.
    Your other bill, Mr. Chairman, H.R. 5881, would grant 
county veterans service officers and other state and local 
employees, as well as staff members of Congress, with greater 
access to veterans' claims information for tracking purposes. I 
wholeheartedly support the mission of this bill, and of our 
county veterans service officers who serve my constituents back 
home. I look forward to hearing from our witnesses today about 
the benefits of this bill and how we may improve upon it to 
avoid the privacy and security concerns voiced in the past by 
the VA and currently by the VSOs.
    I also look forward to hearing from our other stakeholders 
on the potential impacts of 2720 and H.R. 2355 will have on our 
Nation's veterans. Again, I wholeheartedly support the goals of 
H.R. 5735 and hope we can make any necessary changes to be able 
to move this measure forward.
    Finally, I look forward to hearing the VA's views on these 
bills and I thank the Members for their thoughtful legislation, 
all the Members in front of us. And I thank our other esteemed 
witnesses for joining us today. And I look forward to hearing 
your testimonies. Thank you, and I yield back.

    [The prepared statement of Jerry McNerney appears in the 
Appendix]

    Mr. Runyan. Thank the gentleman. We will introduce our 
first panel quickly. First we will hear from the Honorable 
Steve Stivers from Ohio, who is sponsoring H.R. 5735. And then 
we will hear from the Honorable Vicky Hartzler from Missouri, 
who is sponsoring H.R. 2355. And then we will hear from the 
Honorable Larry Kissell from North Carolina, who is sponsoring 
H.R. 2996. And finally we will hear from the Honorable John 
Culberson from Texas, who is sponsoring H.R. 2720. I would like 
to welcome you all to this legislative hearing. And all of your 
complete and written statements will be entered into the 
hearing record. And Congressman Stivers, we will start with 
you. You are now recognized for five minutes.

STATEMENTS OF HON. STEVE STIVERS, A REPRESENTATIVE IN CONGRESS 
 FROM THE STATE OF OHIO; HON. VICKY HARTZLER, A REPRESENTATIVE 
   IN CONGRESS FROM THE STATE OF MISSOURI, LARRY KISSELL, A 
 REPRESENTATIVE IN CONGRESS FROM THE STATE OF NORTH CAROLINA; 
AND HON. JOHN CULBERSON, A REPRESENTATIVE IN CONGRESS FROM THE 
                         STATE OF TEXAS

        OPENING STATEMENT OF HON. STEVE STIVERS, (OH-15)

    Mr. Stivers. Thank you, Mr. Chairman. I would like to thank 
the Chairman and the Ranking Member for holding this hearing on 
important legislation today, including my Place of Remembrance 
Act. This bill would create a Place of Remembrance at Arlington 
National Cemetery for veterans of Iraq and Afghanistan 
conflicts and all contingency operations moving forward.
    I was shocked and horrified like everybody else when I read 
in the Washington Post on December 7th that Dover Air Force 
Base Mortuary Affairs had been sending unidentified remains of 
soldiers to Prince George's County Landfill. They actually 
uncovered that 976 fragments from 274 military personnel were 
cremated and then taken to a landfill between 2004 and 2008. I 
think this is an outrage and we have got to fix it permanently. 
Creating a proper memorial as a place of remembrance for these 
remains and a final resting place with honor for those who 
serve I think would ensure that a tragedy like this never 
occurs again.
    I understand that the Department of Defense has changed the 
procedures to ensure that those cremated unidentified remains 
are now, the ashes are spread at sea. However, while this may 
be a satisfactory temporary measure, as an Army officer and 
veteran I believe in the warrior ethos which, you know, says 
never leave a fallen comrade behind. And I think bringing home 
those unidentified remains and putting them in a place of 
remembrance, of honor, is the proper long term solution.
    So on May 10th I introduced H.R. 5735 that authorizes the 
Secretary of the Army to establish an appropriate location at 
Arlington National Cemetery as a place of remembrance for 
interring those cremated remains. And it will make sure that 
any unclaimed remains or unidentified DNA has an appropriate 
final resting place.
    I understand that there is the significance associated with 
the Tomb of the Unknown Soldier. This legislation is not 
intended to detract from that honored memorial. And that is why 
we are going to be renaming it the Place of Remembrance as 
opposed to the Tomb of Remembrance to avoid any conflict.
    My bill would allow for new and future generations of 
heroes to, you know, have a Place of Remembrance for each 
conflict moving forward for fallen, identified patriots from 
those conflicts. Those who have given their final measure of 
devotion in the service of our great Nation deserve a final 
resting place worthy of their dedication, commitment, and 
devotion.
    So I hope that you will favorably consider this bill and 
give it every consideration. I appreciate you holding the 
hearing and look forward to working with you on any issues 
associated with the legislation. I do want to thank Debbie Lee, 
a Gold Star Mother, coming for the second panel to testify in 
favor of this legislation. Thank you, Mr. Chairman.

    [The prepared statement of Steve Stivers appears in the 
Appendix]

    Mr. Runyan. Thank you, Congressman Stivers. Congresswoman 
Hartzler, you are now recognized for five minutes.

       OPENING STATEMENT OF HON. VICKY HARTZLER, (MO-04)

    Mrs. Hartzler. Thank you very much, Chairman Runyan, and 
Ranking Member McNerney, and distinguished Members. Thank you 
for this opportunity to present to you the bill H.R. 2355, 
which we are calling the Hallowed Grounds Act.
    During a town hall that I held in my district last year a 
women stood up and asked for my help, and relayed a heart 
wrenching story of her childhood and the sexual abuse that she 
endured at the hands of her father. He was a veteran, and when 
he passed away he was buried in a national cemetery with full 
honors. And she asked me to please stop this injustice and do 
everything we can to prevent this from happening again.
    He received a distinction afforded to war heroes despite 
violating his family's trust, abusing his child, and committing 
a violent crime. To honor this man with reverence and fanfare 
is a disgrace.
    Under current law military veterans are entitled to burial 
in a veterans or national cemetery and to the receipt of 
honorary emoluments, including a military honor guard, a U.S. 
flag, and a certificate from the President. These honors 
rightly honor the Americans who have given of themselves so all 
in our Nation can live in safety and in peace.
    However, there is a noteworthy exception. Following the 
Oklahoma City bombing by Timothy McVeigh, Congress passed and 
President Clinton signed S923 on November 21, 1997, which 
prohibits veterans convicted of a capital crime, such as murder 
and treason, from receiving military honors. Prior to this 
legislation McVeigh, a veteran of the First Gulf War, would 
have been eligible to be buried in a national cemetery such as 
Arlington.
    While veterans guilty of capital crimes justly have been 
denied the right to rest among our national heroes under this 
bill, veterans convicted of sexual abuse of children still 
remain entitled to these honors. During my research on the need 
to introduce the Hallowed Grounds Act after my constituent 
shared her story, I discovered that almost identical 
legislation called Jenny's Law was introduced by Representative 
John Shattuck during the last Congress and included in the 
National Defense Authorization Act for fiscal year 2011 that 
passed in the House. Regrettably, that legislation was stripped 
from the final bill due to the lame duck session in 2010 and 
need to pass quickly the MDAA before the end of the year.
    I thank Representative Shattuck for his work in the past, 
and the House past support for the idea on this important 
issue. But while knowing that my constituent's case is not an 
isolated case is a terrible realization, this reality 
highlights the fact that work must be done to prevent the 
burial of serious sexual offenders in our treasured national 
cemeteries.
    Current law affording military honor to veterans convicted 
of sexual abuse is an affront to decency and results in victims 
and their families being victimized all over again. It demeans 
of all those who have served this Nation to allow a child 
abuser to be buried alongside America's war heroes in a 
veterans cemetery.
    Because I believe that no victim of sexual abuse should 
suffer the pain of knowing their abuser has received the honor 
befitting one who selflessly served others, I introduce the 
Hallowed Grounds Act. The Hallowed Grounds Act will prohibit an 
individual who is classified as a tier three sex offender under 
the Sex Offender Registration and Notification Act from being 
buried at a veterans or national cemetery. The Sex Offender 
Registration and Notification Act divides offenses into three 
tiers, and has various levels within those tiers. The most 
serious offenses are grouped in tier three.
    These individuals have committed horrendous crimes against 
children accompanied by brutality and violence. These offenders 
behave in a manner that violates everything for which a soldier 
in our country fights, justice, the rule of law, and safety of 
our citizens. I believe these offenders have surrendered their 
right to be honored by victimizing and oppressing others.
    During my time in Congress I am committed to ensuring that 
those veterans who have fought honorably in defending our great 
Nation receive the utmost respect and care they deserve. 
Veterans put their lives on the lines to preserve our Nation's 
freedom and we owe them an immeasurable debt of gratitude. The 
Hallowed Grounds Act will continue that work by making certain 
every man and every woman buried in our veterans our national 
cemeteries will not share their final resting place with 
someone who has committed such horrific crimes.
    I appreciate your interest in the importance of this bill, 
and I ask for your support. It is vital that the final resting 
place of our heroes, our national cemeteries, remain hallowed 
grounds for our veterans who have served so valiantly and for 
the families who hold them dear. Thank you very much.

    [The prepared statement of Vicky Hartzler appears in the 
Appendix]

    Mr. Runyan. Thank you, Congresswoman Hartzler. Congressman 
Kissell, you are now recognized for five minutes.

        OPENING STATEMENT OF HON. LARRY KISSELL, (NC-08)

    Mr. Kissell. I would like to thank the Chairman and Ranking 
Member, and the Members of this Subcommittee for allowing me to 
testify today on H.R. 2996, a bill that has been offered by my 
colleague from Tennessee, Phil Roe, and myself, the Gulf War 
Presumptive Illness Act of 2011.
    Back when I worked in textiles I had a lady who I worked 
with whose husband was in the Gulf War action from the very 
beginning, came home, and there were things wrong. And he could 
not figure out what it was. And he would go to the VA, and they 
could not figure out what it was. As time went forward we came 
to know that many of our veterans coming back were suffering 
from a lot of different symptoms and not being able to assign 
it to a specific disease.
    The Veterans Administration in 1994 started taking these 
actions seriously. And on March 18, 2010 there were nine 
specific diseases that were declared to be presumptive diseases 
for anyone serving in Southwest Asia in the military from 
September 19, 2001 on. And presumptive diseases means that if 
you have these symptoms of this disease, and you served there, 
then you do not have to prove what you did. You do not have to 
make the connection. There is a presumption that you came into 
contact with whatever that gave you the diseases.
    There is also 13 undiagnosed symptoms that they have 
assigned. Things such as fatigue, muscle and joint pain, skin 
disorders, that also are under this presumption of have come in 
contact during this time period.
    There are also three medically undiagnosed chronic 
multisymptom illnesses that they have also put into this 
statement of March 18, 2010.
    It is interesting to note that approximately 250,000, 
estimated 250,000 of the 750,000 veterans that served in 
Southwest Asia have come in contact with whatever and had these 
presumptive illnesses.
    It was mentioned by the Ranking Member that the VA is 
opposing this. I would like to also, what we are wanting to do 
is move the time period of this presumption to continue to 
2018. I would like to point out that the VA was going to end 
this program in 2012 until Congressman Roe and myself entered 
this bill. Then they moved it to 2016.
    I very much believe that those who have served for us, and 
continue to serve for us, we cannot predict what additional 
situations these folks may encounter as they move forward. We 
need to keep this situation a presumptive so that they can move 
forward without having to prove what they were doing. We saw 
this being true so much with Agent Orange and Vietnam. Here we 
are 40 to 50 years later still dealing with this, and we 
finally got to the point where we said you do not have to prove 
what you were doing. There is a presumption if you have certain 
symptoms that you were exposed to Agent Orange. Our veterans 
should not have to worry about this.
    We should keep this presumption going at least until 2018, 
and we should move this decision to Congress. It should be a 
legislative decision so that we make sure that our veterans, as 
we continue to have them come home, as we continue to see these 
symptoms maybe take on different versions, that we take care of 
our veterans. And I thank you for your consideration of this 
bill.

    [The prepared statement of Larry Kissell appears in the 
Appendix]

    Mr. Runyan. Thank you, Congressman Kissell. Congressman 
Culberson, you are now recognized for five minutes for your 
testimony.

       OPENING STATEMENT OF HON. JOHN CULBERSON, (TX-07)

    Mr. Culberson. Thank you, Mr. Chairman and Ranking Member. 
I appreciate very much the Committee's consideration of H.R. 
2720, which Congressman Ted Poe and I filed and bring to you 
today to make certain that a veteran's funeral is absolutely 
private and sacred, as it always should be, between the family, 
the funeral director, and the veteran who made the arrangements 
for the funeral. We, and the legislation I find is 
unfortunately necessary because the VA, as recently as two 
months ago, has continued to deny that they ever interfered 
with the veteran's funeral, in my case in Houston, Texas, which 
I witnessed for myself.
    We have, as I know in every one of our districts, either if 
you have the privilege of having a veterans cemetery in your 
district or nearby, the local VFW chapter always handles the 
ritual, the beautiful ritual that is performed over the grave 
of their fallen comrade at the time of the funeral service. The 
VFW also of course can provide a rifle team to do the 21-gun 
salute, which is also a marvelous and a very moving ceremony. 
And that has of course always been handled privately, with the 
family and the funeral director in direct contact and 
consultation with the Veterans of Foreign Wars.
    Unfortunately until this happened in Houston. We had a 
funeral director at the, cemetery director at the cemetery, who 
repeatedly and deliberately interfered with the funeral 
service. I do not know, there is no telling how many veterans 
were buried in the Houston cemetery without the benefit of the 
ritual or a prayer being said over their grave by their 
comrades because of the interference of the director, the 
cemetery director. It went on for some time before we 
discovered it. She denied a prayer being said at the Memorial 
Day service last year. And a lawsuit resulted. The VA of course 
continued to deny it.
    I got involved, of course, representing Houston and 
chairing the Veterans and Military Construction Subcommittee on 
Appropriations and I wanted to make certain that this never 
happened again. The VA continued to deny it. So frankly one 
afternoon I had, in Houston, Texas air conditioning is 
essential and my air conditioner died at our house in Houston. 
And I could not make it back in time for votes that evening. So 
I stayed behind to take care of the air conditioning, several 
thousand of dollars I did not have to get the air conditioner 
fixed. And while the guy was working on the air conditioner I 
found out there was a funeral going on that day at noon. So I 
drove out to the cemetery, met with the honor guard, and 
frankly just feathered in with them to go in and see for 
myself. And sure enough, the honor guard commander came into 
the funeral home. And I had already been getting stories from 
the other members of the honor guard about the repeated 
interference. And he came in and said it has happened again. 
The cemetery director just told me that I cannot perform, we 
cannot perform the ritual for the service of our comrade here 
whose funeral is about to take place. And I said well you all 
just go ahead and do it. Let me see her do it right in front of 
us.
    They backed off. The funeral director, the cemetery 
director did not interfere with that particular funeral. But 
the problem continued for some time. Another example of how 
fouled up the Federal government is, is it was impossible to 
get the cemetery director removed, virtually impossible. All we 
could do was get her transferred.
    Ultimately the lawsuit was resolved with a settlement. The 
VA agreed in a 22-page, 20-page settlement agreement to stop 
doing all the things they said they had not been doing, that I 
witnessed with my own eyes they were doing. So I filed this 
legislation, Mr. Chairman and Members, to ensure that the 
funeral is absolutely private. The legislation before you makes 
it clear that the responsibility of the VA is limited to 
providing the plot of American earth that the veteran has 
earned by their service; to providing a headstone that the 
veteran has earned by their service; to providing security, 
maintenance, making sure they mow the lawn and keep the place 
clean and reverent and that they--she also closed the chapel, 
by the way. Closed the chapel and used it to store boxes. 
Padlocked the chapel, took out the Star of David, the cross, 
the Bible, used it to store boxes. Locked out the veterans. 
Closed their coffee room. Would not let these wonderful old 
gentlemen, two of whom had landed on Normandy Beach, fought in 
Patton's Third Army, all the way to Czechoslovakia. These 80-
year-old gentlemen had never complained once, because they are 
military. They were not going to fuss. And they just did what 
she asked them to do.
    So this legislation ensures the funeral is private between 
the family, the funeral director, and the VA's responsibility 
is to provide security, maintain the lawn, and otherwise stay 
out of the way. And make sure that the Veterans of, the VFW 
organizations are provided access to the cemeteries, and to 
ensure that there is that absolute zone of privacy around every 
American that the government cannot penetrate, including the 
right to conduct a funeral in the way that you see fit between 
you and your God. Thank you very much.

    [The prepared statement of John Culberson appears in the 
Appendix]

    Mr. Runyan. Thank you very much. And I will add, Mr. 
Culberson, on a personal note, and to the Committee also, I 
believe you said you were there July 8th for that specific 
incident. I can tell you my father-in-law was buried in the 
exact same cemetery 12 days later. And I had the very inverse 
experience that you had. It was straightforward, most likely 
because of your oversight of the situation. And I thank you for 
that. And I did actually hang around afterwards and have a 
conversation with the color guard. And everybody was 
straightforward and said we do what the family asks of us. And 
I think that, the interference is the one thing that we are 
trying to tackle here. And I thank you for that. It was a 
trying battle and a long battle with cancer from actually his 
service in Vietnam, and he was a Purple Heart recipient also.
    But I thank all the Members. I know they have a long list 
of things to do today. We will have plenty of questions for our 
stakeholders. But I thank all of you for your leadership in 
bringing all these bills forward. And, I know several of you 
asked to amend the bills. And we will get through that, through 
that process, both before and during the mark up process. So I 
look forward to working with each of you to make these good 
pieces of legislation that truly honor our veterans and their 
service to this great country. And with that, you are all 
excused. And I will call the second panel forward.
    I call the second panel forward, Raymond Kelley, James 
Young, and Jeff Hall. First, we will hear from Mr. Raymond 
Kelley, the National Legislative Director for Veterans of 
Foreign Wars on behalf of H.R. 2355, H.R. 2996, H.R. 4299, H.R. 
5735, H.R. 5880, H.R. 5881, and H.R. 2720. And next we will 
hear from Mr. James Young, President of the National 
Association of County Veterans Service Officers on behalf of 
H.R. 5881. And then we will hear from Mr. Jeff Hall, the 
Assistant National Director for Disabled American Veterans who 
will testify on H.R. 2996, 4299, 2355, 5735, 5880, 5881, and 
2720. Thank you all for your testimony today. Welcome. And we 
will begin with Mr. Kelley.

    STATEMENTS OF MR. RAYMOND KELLEY, NATIONAL LEGISLATIVE 
DIRECTOR, VETERANS OF FOREIGN WARS; MR. JAMES YOUNG, PRESIDENT, 
 NATIONAL ASSOCIATION OF COUNTY VETERANS SERVICE OFFICERS; AND 
    MR. JEFF HALL, ASSISTANT NATIONAL LEGISLATIVE DIRECTOR, 
                   DISABLED AMERICAN VETERANS

                  STATEMENT OF RAYMOND KELLEY

    Mr. Kelley. On behalf of the two million members of the 
Veterans of Foreign Wars and our auxiliary, thank you, Mr. 
Chairman, for the opportunity to testify today.
    In 1997 Congress recognized that veterans convicted of the 
most violent crimes should lose their right to be interred in 
national cemeteries. The logic was commission of capital crimes 
should trump veterans' burial benefits. Burial in a national 
cemeteries is a privilege, a place where service and sacrifice 
can be honored by the American public on sacred ground. The 
most violent and reprehensible crimes break faith with society 
and our servicemembers and veterans who have been laid to rest.
    The VFW believes in this law and believes it should be 
expanded to include the most predatory and violent sex 
offenders. The VFW fully supports H.R. 2355, which would 
exclude tier three sex offenders from burial in our national 
cemeteries.
    Despite decades of research on Gulf War Illness we do not 
yet have a definitive answer on its causality. Though some 
encouraging research is showing signs of hope, it is imperative 
that treatment of the men and women with illness related to 
their Gulf War service continue without interruption. This 
legislation will provide presumption for veterans of current 
conflicts who may be struggling with conditions that VA cannot 
diagnose, a provision the VFW strongly supports. Granting 
presumption for undiagnosed illnesses is critically important 
in ensuring that these veterans receive the care that they have 
earned while science catches up with these illnesses. We 
encourage the Committee to pass H.R. 2996.
    The VFW supports the reauthorization of H.R. 4299. Through 
VA's adaptive housing grant program hundreds of the most 
severely injured veterans have been given the opportunity to 
ease back into civilian life without making them choose between 
future and current needs. By expanding the grant program 
through 2014 you will maintain flexibility and make a 
difference in the quality of life for many disabled veterans 
and their families.
    The VFW supports H.R. 5735, which would ensure fragmented 
remains of American servicemembers killed in Iraq, Afghanistan, 
and any subsequent conflicts be treated with the dignity and 
honor worthy of their sacrifice. Never again should a family be 
left to wonder whether their fallen hero's remains end up in a 
landfill. This bill will set a new standard for honoring the 
sacrifices of the fallen by memorializing the brave men and 
women on sacred ground in Arlington National Cemetery.
    Congress gave VA the authority to contract with non-VA 
doctors to perform disability examinations. This authority will 
expire at the end of this year. This has been a useful tool for 
VA to provide timely evaluation exams without taking VA doctors 
away from direct patient care. The VFW strongly supports H.R. 
5880.
    The VFW cautiously supports H.R. 5881, which would grant 
certain congressional staffs and local government agency 
employees access to VA's case tracking information. However, we 
have some concerns. There is no provision that will ensure that 
employees are properly trained in privacy issues, nor is there 
any oversight or reporting back to VA on who has access and 
what prompted the employee to look into that particular case. 
This provision will greatly improve the responsiveness to 
veterans' requests and it should be pursued. But assurances 
must be made to protect privacy and limit searches to only 
those who make formal requests. Also, state and county service 
officers currently have access to case tracking information by 
virtue of a power of attorney. The VFW believes it would be 
wise to continue to limit these employees' access to only 
veterans with whom they hold a power of attorney.
    The VFW supports the intent of H.R. 2720, which will 
provide clarity for both National Cemetery Administration staff 
and families and estates of deceased veterans on what is 
statutorily available and allowable at NCA funerals, memorial 
services, and cemeteries. This legislation will give clear 
guidelines for VA employees to follow and provide piece of mind 
for veterans families who are planning funeral arrangements. 
The VFW agrees that every effort and preference should be made 
to ensure VA cemetery directors are veterans. But requiring 
veteran status to fill vacancies could keep VA from filling 
positions, which could have a greater adverse effect on 
cemetery operations than hiring a non-veteran.
    Mr. Chairman, thank you for the opportunity to testify 
today and I look forward to any questions from the Committee.

    [The prepared statement of Raymond Kelley appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Kelley. Mr. Young, you are now 
recognized for five minutes for your testimony.

                    STATEMENT OF JAMES YOUNG

    Mr. Young. Good afternoon, Mr. Chairman, Members of the 
Committee, and staff. It is truly my honor to be here for this 
hearing. As President of the National Association of County 
Veterans Service Officers, I am here today to comment on the 
proposed bill to grant access of Veterans Administration 
information to governmental veterans service officers.
    The National Association of County Veterans Service 
Officers is an organization made up of local government 
employees. Local government employees that believe we can help 
the Department of Veterans Affairs reduce the number of the 
backlog benefit claims that veterans are currently waiting to 
have adjudicated by the Department of Veterans Affairs. Our 
members work in local government offices as an arm of 
government, if you will, in 37 states, and currently are 
comprised of 2,400 full time employees in 700 communities. We 
are not like veterans service organizations. We are not dues 
driven, nor membership driven. Every veteran, their dependents, 
and their survivors who live in our respective jurisdictions 
are all our clients. We serve them at no cost to the client. We 
are equipped to handle and ready to assist veterans one on one 
with every Department of Veterans Affairs benefit, state and 
local benefits. And the reason we are here today, to assist 
them in tracking their claims.
    There are over 22 million honorably discharged veterans of 
the armed forces of the United States. During the course of 
their life after the military they may have the occasion to 
file a benefits claim for pension or compensation. To the 
citizens of our communities, we are the Veterans 
Administration.
    The main issue we are here to talk about today is the lack 
of cooperation by the Department of Veterans Affairs in 
recognizing our members as an arm of government. We are treated 
as if we are a service organization rather than who we are. As 
governmental employees we are not unlike the VA itself. There 
is just a failure to recognize us in that light.
    Let us say that a veteran comes into my office to file a 
claim for a knee injury that occurred while the veteran was on 
active duty in the Army. We first have to determine eligibility 
based on war time or peace time service, and a number of other 
factors established by the VA. We help the veteran select a 
veterans service organization to represent the veteran through 
a power of attorney. This is done so that the veteran may have 
representation at the VA regional office and for any subsequent 
appeals that may occur. Our local government veterans service 
officers may hold the power of attorney, but many are just too 
far away from the regional offices to adequately represent 
their clients.
    Then after about three months the veteran comes back to my 
office and asked what the status of his claim is, as he has 
heard nothing. I have no way to gain access to this knowledge, 
even though the claim originated in my office. I have to refer 
him to the VA's 1-800 number and hope he can ask the right 
questions, or to the veterans service organization that holds 
his power of attorney and who he does not know and probably 
will not call.
    We are asking in this bill under consideration is to allow 
the governmental veterans service officers to have read only 
access to their client's information. This would allow the 
local governmental veterans service officer to properly track 
and provide follow up for their clients. Sometimes the veteran 
will file a claim or an appeal on a denied claim, and go to 
another veterans service office in another jurisdiction and 
file another claim for the same thing. This ultimately adds to 
the backlog and unnecessarily bogs down the system.
    If enacted this bill would avoid duplication of claims and 
which in turn will assist in reducing the current backlog of 
the claims itself. We know there is much consternation on the 
part of Veterans Affairs regarding this issue. They have had 
some problems in the past in keeping secure the information 
that the veteran must give to the government to claim benefits 
that they have earned.
    And in closing, we ask in this day and age in our great 
Nation it is unthinkable that a young man or woman enters into 
military service honorably and upon discharge finds 
difficulties in obtaining the rights and the benefits that they 
earned through service and sacrifice. It is our responsibility, 
the people of the United States, to live up to the promise of a 
better and brighter future. The promise that includes a myriad 
of veterans benefits should the servicemember become injured in 
defense of our freedom, but also the underlying promise that 
says if you serve your country with honor your country will be 
there to serve you, not with a handout but with a hand up.
    NACVS has been in existence since 1990 and we believe that 
we can reverse the growing backlog of claims, Mr. Chairman, by 
enacting this legislation. Thank you very much for the 
privilege of being here today. Thank you.

    [The prepared statement of James Young appears in the 
Appendix]

    Mr. Runyan. Thank you for your testimony, Mr. Young. Mr. 
Hall, you are now recognized for five minutes.

                     STATEMENT OF JEFF HALL

    Mr. Hall. Thank you. Chairman Runyan, Ranking Member 
McNerney, and Members of the Subcommittee. On behalf of DAV and 
its membership of 1.2 million wartime service disabled veterans 
we appreciate the opportunity to be here today to offer our 
views regarding pending legislation being considered by this 
Subcommittee. My full written statement has been submitted for 
the record so in the interest of brevity my oral remarks will 
be limited only to a couple of bills being considered.
    Initially DAV supports H.R. 2996 as it is consistent with 
our long standing resolution to extend the presumptive period 
for service connection for certain disabilities incurred by 
veterans who served in the Persian Gulf War, Operations Iraqi 
and Enduring Freedom, and Operation New Dawn. Countless 
veterans who have served in these conflicts and many who are 
still not home suffer from chronic unexplained illnesses. These 
illnesses are still not fully understood while answers and 
proper treatment remain elusive. Vigilant research must 
continue until all of these brave men and women are compensated 
and cared for appropriately.
    Additionally, DAV supports H.R. 4299 to extend the 
authority of the Secretary to provide temporary residence 
adaptation, or TRA grants, to the seriously disabled veterans 
who are eligible for specially adaptive housing grants from the 
VA. However, consistent with our resolution DAV believes the 
TRA grant amount should be a separate and distinct, stand alone 
benefit and not deducted from the full amount of the specially 
adaptive housing grant, which they will assuredly need when 
they are ready to move into their own residence.
    Mr. Chairman, DAV also has a long standing resolution to 
reform the VA's disability claims process which we believe 
provides a reasonable corollary for us to support H.R. 5880, 
which extends the Secretary's authority for the utilization of 
privately contracted disability compensation examinations. We 
believe this could improve the disability claims process, 
specifically the amount of time VA spends coordinating and 
accomplishing these examinations. As such, DAV supports H.R. 
5880.
    And lastly, H.R. 5881 is intended to improve the access to 
veterans benefits by providing certain employees of members of 
Congress or local government agencies, such as county veterans 
service officers or CVSOs, with access to VA's case tracking 
system. Clearly the intent of the bill is for covered employees 
to be able to expand their assistance to veterans by obtaining 
the status of a veteran's pending claim through direct and 
remote access into VA's case tracking system. DAV supports the 
intent of H.R. 5881 as we believe this would be beneficial to 
all parties considered. However, we have concerns about the 
language of the bill and recommend that the Subcommittee 
broaden the language to ensure our veterans' privacy and 
personal information is safeguarded. Allowing an individual, 
such as a CVSO, to obtain private information, even the status 
of a pending claim, for any veteran without the need for a 
properly executed power of attorney from the veteran poses 
serious concerns.
    Mr. Chairman, DAV NSOs who are highly trained experts in 
claims representation are accredited by the VA and have the 
ability to access a veteran's records in any format. However, 
DAV, like other VSOs, can only access the records for those 
veterans we represent by way of a properly executed power of 
attorney. While we do see the benefits for a CVSO to be able to 
ascertain the status of a pending claim and inform the veteran 
as such, we do not agree to a covered employee being able to 
access the VA's system without first obtaining a written 
request and consent from the veteran to do so, and then before 
access is given electronic certification must be completed by 
the covered employee verifying the veteran's written request 
and consent have been obtained.
    Additionally Mr. Chairman, we think the bill should plainly 
state that access to the VA's case tracking system be limited 
only to the status of a pending claim and the specific issues 
contained therein. Likewise, the bill should also contain a 
provision specific to the penalties for any violation, such as 
accessing or attempting to access the status of any pending 
claim without the written request and consent from the veteran 
or claimant.
    And lastly, we believe the Subcommittee should consider 
incorporating into the bill an additional safeguard provision 
wherein the veteran is notified by the VA when his or her 
record is being accessed by a covered employee. As you know, 
this is done by many companies when something such as changing 
an account information occurs online, an individual is notified 
of such activity. We feel this would offer further assurance to 
the veteran, especially those without representation, that has 
authorized this action and is aware of its occurrence, as well 
as alerting VA to any unauthorized accessing attempts.
    As stated, Mr. Chairman, DAV supports the intent of H.R. 
5880. We simply want to ensure that proper security measures 
are in place to protect the privacy of our veterans. Although 
DAV is unable to support the bill at this time we would be 
pleased to work closely with the Subcommittee to make these 
recommended changes to the bill language. This concludes my 
remarks. I would be happy to answer any questions from you or 
the Subcommittee.

    [The prepared statement of Jeff Hall appears in the 
Appendix]

    Mr. Runyan. Thank you very much. I will begin the first 
round of questioning. I think we all agree that being able to 
access veterans' claims is a sensitive area, and we do have to 
work on that. I think both Mr. Hall and Mr. Kelley raised that, 
and we will continue to work on that. I know when veterans 
approach my office for assistance, they do have to sign consent 
forms for us to actually access their files and provide any 
kind of assistance, whether it is with the VA or social 
security. So those type of things are in place.
    My first question is for Mr. Young. Why do you believe that 
the VA is reluctant to grant access to county veterans service 
officers?
    Mr. Young. Based on experience, Mr. Chairman, like these 
two gentlemen alluded to, access and privacy, we totally agree 
with that. A person comes to my office, as an example, 
inquiring about the status of his or her claim. I can log on to 
Virtual VA and I get a message that says I do not hold the POA. 
Not a problem. Then that person, we get on the phone, and call 
the 1-800. And we get through. First we get an automated 
message that says that due to the large volumes of calls please 
leave a call back number, and these are the available times 
that the VA can call you back. Normally it is 72 hours out or 
longer. The person is sitting across from me and we are waiting 
on this. Before we do any action in our offices at all, I do 
not know if these gentlemen are aware of this or not, but our 
officers are the ones who assign the POAs to DAV, VFW, or any 
other service organization.
    Additionally we have an additional document giving our 
office permission from the veteran to do that. And that person 
signs that, and we send that documentation along with the 2122 
to the service organization, and ultimately to the Veterans 
Administration. All we are trying to do is ensure that person 
gets a proper and speedy representation. But having to wait 
four or five days for a call back, and sometimes the person 
will call us, not physically come into the office. But call and 
want to know, ``Jim, can you check on the status of my claim?'' 
He or she is not physically sitting there, and if we do not 
hold POA, and I hold five cross accreditations, if I do not 
hold a POA for that person I cannot help them. So the best I 
can do is call back and tell them, ``I am sorry. I cannot help 
you. These are your options.''
    And we are in the business at the county level to assist 
the veterans in whatever endeavor it is that they are pursuing 
within the Veterans Administration. That is what we are trained 
to do. That is our mission in life. The veteran.
    Mr. Runyan. So do you think from the VA's perspective it is 
more of a legal situation?
    Mr. Young. Correct.
    Mr. Runyan. Okay. A couple of questions for Mr. Kelley. In 
dealing with 5735, which is the The Tomb of Remembrance bill, 
are we precluding future heroes from being included in the Tomb 
of the Unknown Soldier with starting something like that?
    Mr. Kelley. I do not think so. They are two separate, two 
separate issues. The Tomb of the Unknown are remains of people 
that we do not know who they were. This is we know who they 
were, but because of circumstances, whether they just could not 
identify a specific body part, or that the family has said we 
no longer want you to pursue anything further, we are trying to 
close a chapter in the book. But there still needs to be 
respect given to those remains. So we see them completely 
separate. And we feel that the legislation should move forward.
    Mr. Runyan. Mr. Hall, and maybe Mr. Kelley if you want to, 
pertaining to Mr. Culberson's legislation, I think we all agree 
on the aspect that if we only hire veterans as NCA cemetery 
directors, it shrinks our talent pool. I think we are all on 
the same page with that. For the record, I want everybody to 
know that the National Cemetery Administration is one of the 
leading agencies in the Federal government that hires veterans. 
I believe they are at about 80 percent. So they are one of the 
leaders in that. And, I think you brought it up in your 
testimony, Mr. Kelley, that, if there is not a qualified 
veteran to do that and the agency is forced to hire a veteran 
anyway, you are not going to get the best director in there to 
do the best job. And I think we can all agree on that.
    Mr. Kelley. I think thinking long term as well, that right 
now less than one percent of folks serve in the military. In 20 
years from now our Vietnam era veterans, and all our veterans 
who were forced into service, are going to be at a retirement 
age. And we are going to be trying to draw from a pool that is 
very, very minute. And so thinking long term, yeah, sure today 
we might be able to find cemetery directors who are veterans. 
But 20 years from now we may have a struggle on our hands, with 
finding veterans to fill these types of jobs.
    Mr. Runyan. I will recognize the Ranking Member Mr. 
McNerney. I will probably have a few more questions. But the 
gentleman from California is recognized.
    Mr. McNerney. Thank you, Mr. Chairman. There is a large 
number of bills so it can be kind of confusing. The bill which 
I introduced, 4299, Mr. Hall, you commented that you had a 
modification you would like to see on that. And basically that 
means that what you are suggesting is that if those benefits 
are applied to a family that is caring for a veteran, that they 
should not be deducted from that veteran's sort of allocation. 
Is that correct? Is that what you are advocating?
    Mr. Hall. That is correct. We have a resolution, we have 
had it for quite some time, that essentially if you have an 
overall amount allowed for a special adaptive housing grant, I 
think the amount is $60,000 at the present time, the temporary 
residence assistance grant means $14,000 is deducted from that, 
as we understand it. And so when the individual in the 
temporary state, and they might need to be in that state for a 
while, when they are ready to finally move on to their own 
residence, they are $14,000 short of what their full amount 
would be. And we would like to see those be separate amounts, 
or separate benefits rather.
    Mr. McNerney. Okay, that is a good suggestion. I also found 
your suggestions on 5881, the Access to Veterans Information, 
to be helpful. I guess what I am concerned is how burdensome 
will those recommendations end up being for the VA to 
implement? So what I would like to do is work with you on 
looking at those. Let us not create a whole new bureaucracy but 
let us see what we can do that make that happen.
    Mr. Hall. We agree. We are not trying to create a 
cumbersome situation here. We want, again at the center of it 
we want to ensure the, you know, the privacy is protected from 
just random access. And so in doing so I guess we can envision 
if a veteran were to come in to see Mr. Young where they did 
not have a power of attorney executed in that situation that 
essentially they would have a form, and I think the Chairman 
had alluded to that, where you simply, this acknowledges that 
you are requesting us to access this information and giving us 
consent to do so. That signature alone on a form like that 
would be something simple that could be executed. And then when 
they go to access it electronically, to go into the VA system, 
I do not know if VA has this particular aspect of it or how 
hard it would be, or difficult, for them the first thing that 
would come up is an acknowledgment that you have this type of 
consent and authorization to do so. And by clicking that any 
violations thereafter, should there be, you know, could be 
dealt with within the law.
    Mr. McNerney. Okay. Thank you. Mr. Kelley, on 2720, my 
reading of your oral testimony was that VA supports the intent. 
And I think I do, too. What I am concerned about is how, again, 
how burdensome is that going to be in implementing that? I 
mean, do we want to have the VA that disconnected from the 
process? There may be a need to have the VA involved to make 
sure, or other entities involved, to make sure that people's 
desires are met. In other words, if a family wants a certain 
sort of a ceremony that they can have a right to have that 
ceremony. If they do not want a certain kind of a ceremony, 
that they would also have the right to not have that kind of 
ceremony?
    Mr. Kelley. I think that is what this piece of legislation 
is trying to do, is prevent any outside influence. Allow that 
family member, or those family members, to have complete 
control over the process without interference or influence. And 
there was a very unfortunate case in the Houston cemetery that 
showed a light on something that needs to be statutorily 
changed, or codified I guess. I think that it was out there, it 
just was not being followed so making it statute would go a 
long way to ensuring that VA employees understand what they are 
supposed to do, and as a member of a family of a veteran they 
can look and say, ah, this is what my expectations can be and 
what I can ask of and work with the service organizations who 
are providing the ceremony.
    Mr. McNerney. Do you think there is, that the VFW, the VFW 
normally handles these sorts of----
    Mr. Kelley. All the, most service organizations have color 
guards. So the American Legion, AMVETS, and I am sure a lot of 
the other----
    Mr. McNerney. Are there specific guidelines within the VFW 
in particular that requires them to make sure that the family's 
wishes are met?
    Mr. Kelley. That is, yes, I do not know if it is something 
in some statute that we have in our constitution and bylaws. 
And that is the, just the precedent that we have set. That we 
ask the family what they want and that we abide by that.
    Mr. McNerney. All right. I will yield back.
    Mr. Runyan. Mr. Walz is now recognized.
    Mr. Walz. Thank you, Chairman, and Ranking Member, and 
thanks for bringing up these good pieces of legislation. To all 
of our witnesses, thank you for being here and helping us out. 
Mr. Hall, I absolutely hear you on this issue. I think this 
privacy issue on accessing data is absolutely critical. And it 
is nonnegotiable. And I think Mr. Runyan who put this out, and 
we have been talking about this for quite some time, is 
certainly open to making this stronger. I do think though an 
all hands on deck attitude towards getting these claims 
backlogs off, making more access especially in the areas, the 
rural areas, the more experts we have and the better ability to 
move these claims is better.
    My experiences have been that the CVSOs do a fabulous job 
of protecting those. We can make sure those safeguards are in 
there. But I do believe and have been a strong believer that 
this is just one more asset to assisting the veterans and 
processing these claims. And I think it is an evolving process 
but I am certainly glad to have you, and Mr. Kelley sort of 
cautiously supports for the same exact reason. You need to be 
watchdogs on that. You need to dog this thing. And you need to 
make sure as this is written that we close every potential 
loophole for that. So very appreciative of where you work 
there.
    And I think on many of these, I too wanted to make segue on 
2720. I think Mr. Culberson's intent is exactly where it should 
be. This sacred ability of bearing someone the way the family 
wants it is absolutely critical. And this is maybe where the 
rub is on this. The situation in Houston, as you said, I think 
unfortunate is probably a light term for it. You had, if a 
family has a problem on the day of a burial that is absolutely, 
you cannot rectify that. It is a memory that is burned. And you 
have to get that right. I clearly understand that.
    And I say this, that I think we have to be thoughtful in 
how we do this. I have unfortunately been part of too many 
honor guards for this. I am honored to do it, but it is always, 
it is heart breaking when you go to it. And these are your 
fellow warriors. So the one thing I have noticed is, though, it 
is hard to get honor guards, especially in rural areas. It is 
hard to get information when our warriors are being interred 
and maybe the funeral home or the local post do not have the 
ability to notify them. I think it is VA again, to make sure 
that they are maintaining the plot, as Mr. Culberson said, and 
doing everything there. But we have got to ensure, I said, as 
my team that went around, we had to be conscious of what the 
family wanted. And I was parts of burials where they wanted 
very little reference to religion in it. That was their 
personal choice. Whether that was my belief or not was up to 
them. And I have also been part of elaborate rituals that I 
thought was appropriate for us to be part of, the 13 folds, for 
example. That can be that. I am very proud of that. That was my 
job as the team leader to make sure we did that. And I think 
that is, for the families that want the 13 folds said over them 
they should have that ability.
    I think the thing that I am, we are trying to figure out is 
how do we get to that point to make sure we do not 
inadvertently put something into a service that that family 
does not want? Or pull it back out? And I think the indelicate 
nature of the default position was to pull all references out 
and make it difficult for the family was the wrong approach. I 
think maybe the default position is there, as long as that 
family, this is a tough time for them though. It is a tough 
time to get good information. It is a tough time to understand 
where those are at. And I think having folks who are there to 
listen and the folks who will say if they tell us. Because it 
is a challenge when somebody tells you, it is hard to 
understand, well we want this type of ceremony, or we want this 
type of ceremony if it does not mesh strictly with you. So I 
want to make sure we get that right. And make sure that, again, 
it has been expressed by the author of the legislation that the 
intent was to ensure that the family's rights were honored at 
that point and that is absolutely the way it should be.
    I am pleased to say, like Chairman Runyan said, the ones I 
have been to that has seemed to have been the case. But whether 
we had an overzealous or a personal agenda on someone there, 
that needs to be protected against to make sure that does not 
happen. So I think we can get this thing right, making sure it 
is there, and still adhering to those religious liberties, 
whatever that denomination may be and that choice. So I 
appreciate the thoughtfulness on this. I think we can certainly 
take a look at it more.
    And again, Mr. Chairman, I congratulate you. This is, this 
is certainly how governance should be done and legislation 
should be written. Constituents bring up things, they bring it 
to their member of Congress, they are brought with experts to 
testify on this, we look at them, we are willing to make the 
changes, and we come back again and start moving through the 
process. So thanks for keeping regular order in here. And I 
yield back.
    Mr. Runyan. I thank the gentleman. I know Mr. Stutzman said 
he will pass on his questions right now. But I do have two more 
questions. Number one for Mr. Hall, and you brought this up in 
your testimony, talking about the presumptives from the Persian 
Gulf and needing the research to know really what is happening. 
As we sit here right now, being four years out from that 
expiring, is it appropriate to just tack on two years now? Or 
do we wait another year or two and maybe tack on five, six, or 
seven more years?
    Mr. Hall. I think that is the way it has been going since 
the first, the inception of it. You get to a sunset period and 
legislation is introduced to extend it. Certainly it is not 
wrong to do so, and we are not suggesting to make it 
necessarily open ended. DAV's resolution calls for a reasonable 
period, which can probably be defined by a lot. I mean, 
extending it two years now, it is already to 2016, this is 
extending it to 2018. So six years from now. I do not know if 
that is acceptable, how that is going to account for it. I am a 
Persian Gulf War veteran and I am still able to do so from my 
discharge in 1992, so 20 years. That is a long time. But there 
is a young soldier still on active duty serving in Afghanistan 
that is not even home yet, you know, that may have or be 
susceptible. And we just want to ensure that there is an 
adequate period of time. And whether it is, we get to 2017 and 
you introduce legislation that says to extend it beyond the 
2018 date, that I cannot say. But we just want to make sure 
that it is reasonable and it can accommodate those individuals.
    Mr. Runyan. Thanks for that. Mr. Kelley, dealing with 2355, 
which is Congresswoman Hartzler's legislation that deals with 
preventing sex offenders from being buried in an NCA cemetery. 
Obviously at the surface I think we all understand that. But 
when we start to analyze it, traditionally, the government does 
not take away benefits. And what if, for example, a veteran had 
a traumatic brain injury that caused this person to behave like 
that, something we caused, and now we are dishonoring them. Do 
you have any insight on that?
    Mr. Kelley. We struggled organizationally because I agree, 
that benefits are something that you have earned. But there are 
some behaviors that supercede that service. And tier three sex 
offenders, whatever the causality, and I believe the 
congresswoman that spoke to this gave an exceptional example of 
why. That just the heartache that someone could go through for 
having a veteran get that service. And it degrades the service 
of other veterans, for whatever the rationale is. Hopefully VA 
can work with people who have brain injuries or any other 
psychological injuries, and work with them, and get them the 
care and the help that they need to prevent them from having 
that behavior. But we would prefer to side on the caution side 
and say remove that benefit.
    Mr. Runyan. I understand that. But again, there will be 
ones that are going to slip through the cracks. And turning to 
the issue of verifying tier III sex offender status, are we 
looking at the state database? Is the state database wrong? 
There are all those things that fall through the cracks, that 
you may be punishing people for things that by statute, they 
should be receiving treatment for. Not receiving necessary 
treatment often results in unintended consequences a lot of 
time, and that is why it is so important to ensure that 
veterans receive any treatment that they are entitled to.
    Mr. Kelley. Absolutely.
    Mr. Runyan. That is all I have. Mr. McNerney, anything 
else?
    Mr. McNerney. Thank you, Mr. Chairman. I am just going to 
follow up with a few comments on your concerns about 2355. Of 
course the intent is absolutely correct. But uniform 
application of a bill like that, when every state has its own 
set of statutes that classified offenses of different kinds, 
and then requiring the VA to go through state by state for 
every veteran that has died and try to find offenses, the 
application of it is the problem. I think the intent is good. 
The devil is going to be in the details to get that right, in 
my opinion. Mr. Kelley?
    Mr. Kelley. I think it is harder for the capital crimes. 
Because states have, the tier three sex offenders is a national 
standard on that registry. The capital crimes, that each state 
has its own list of things that are considered a state capital 
crime, along with the Federal ones. So I see that the former 
would have been a little harder than moving forward with this. 
Because the tier three is a very set, finite set of violations. 
So.
    Mr. McNerney. Well yeah, I would like to, in my opinion we 
need to look at that a little more carefully to make sure that 
we are not hurting people that have earned benefits. Now Mr. 
Young, I just wanted to ask you what your opinion was on the 
sort of improvements that Mr. Hall suggested on the H.R. 5881? 
Whether you think those are something that would benefit the 
bill or not?
    Mr. Young. There is a good possibility. But I think, Mr. 
Hall I believe he does understand the fact that if I, if he 
walked into my office and I do not hold POA, I can call the VA 
until the cows come home. They are not going to tell me 
anything about Mr. Hall. Nothing. Zero. Nada. They are going to 
tell me, ``You do not hold POA.'' Now Mr. Hall can call himself 
from my office and he, they will ask him certain questions 
about himself for identification purposes, and does he give the 
VA permission to talk to me about his particular issues. And if 
he says yes, they will. If he says no, they will hang up on me. 
Rightfully so. But yeah, I am all for that.
    My livelihood is veterans. And so whatever it takes to make 
that person's claim work a little faster, I am for it. And if 
that needs to be relooked or tweaked, I am all for that. But 
they just will not arbitrarily talk to me when I call, or log 
onto that secure Web site. That does not happen. Those 
safeguards are in place as we are speaking.
    Mr. McNerney. Okay. Thank you. Mr. Chairman, I yield back.
    Mr. Runyan. Mr. Stutzman, do you have any questions? Mr. 
Walz? No? Well, that being said I thank you all for your 
testimony and look forward to working with you on moving these 
pieces of legislation forward. And you are all excused. And we 
will ask our third panel to come to the table.
    First we will hear from Ms. Debbie Lee, a Gold Star Mother 
and founder of Americas Mighty Warriors, who will testify on 
H.R. 5735. Then we will hear from Ms. Lisa Ward, widow of U.S. 
Army Ranger Richard Ward, who will testify on H.R. 2720. And 
then we will hear from Mr. Kelly Shackelford, President of the 
Liberty Institute, testifying on behalf of 2720. And finally we 
will hear from Mr. Jay Sanders, Vice Senior Commander of VFW 
District 4, testifying on behalf of H.R. 2720. Ms. Lee, you are 
now recognized for five minutes.

    STATEMENTS OF MS. DEBBIE LEE, FOUNDER, AMERICA'S MIGHTY 
  WARRIORS; MS. LISA WARD, WIDOW TO MAJOR RICHARD WARD, U.S. 
 ARMY, PERSIAN GULF WAR; MR. KELLY SHACKELFORD, PRESIDENT, THE 
  LIBERTY INSTITUTE; AND JAY SANDERS, SENIOR VICE COMMANDER, 
              VETERANS OF FOREIGN WARS, DISTRICT 4

                    STATEMENT OF DEBBIE LEE

    Ms. Lee. Thank you for inviting me to speak today on behalf 
of our fallen warriors who gave up their lives and their voices 
defending you and I. The freedoms that you and I enjoy every 
single day and often take for granted are paid for by the brave 
men and women who for centuries have sacrificed greatly, many 
giving their very last breath defending America. There is a 
price for our freedom and our family knows it all too well.
    My son Marc Alan Lee was the first Navy SEAL killed in Iraq 
on August 2, 2006. Many of you may remember Ramadi in 2006 was 
a bloody battlefield. The SEALs had been in intense firefight 
for two hours in 120-degree temperatures. Four of the SEALs 
were on a rooftop when Marc's buddy Ryan was shot and had 
severe shrapnel injuries to the head. They could tell by 
looking at him it did not look good. They did not know if he 
would survive the next few moments. Two of the SEALs dropped to 
their knees to help Ryan. Marc could have made the very same 
choice, but he made the choice to stand up into the direct line 
of fire hoping the enemy would fire on him and they could sneak 
the medic up to the roof. They successfully got the medic up 
there and he took one look at Ryan and said, ``We have got to 
get him out of here immediately or there is no chance for 
survival.'' So a second time Marc made the choice to stand up 
into the direct line of fire to provide the cover so they could 
get down off of that roof.
    When they got down they sent Ryan off in Medevac and they 
crawled back in their Bradleys. They headed back to the base, 
which I am proud to tell you was named Camp Marc Lee in his 
memory. And as they got in there they started to rip off their 
gear and they got some water to refresh themselves.
    You know, we have watched our Navy SEALs do some absolutely 
amazing things lately. But that was Marc's final gift to me, 
was his teammates. I know them very well. I know they were 
exhausted emotionally, physically. And the Chief came in and he 
said, ``We just found 30 insurgents that just attacked us.'' 
And without hesitation Marc looked at his Chief and he said, 
``Roger that, let us go get them.'' So they climbed back in 
their Bradleys and they headed back into Ramadi. They cleared 
several houses and they went in the last house that Marc would 
be in. They cleared the bottom of the house and started to 
proceed up the steps when they heard Marc yell, ``On me.'' And 
they knew that meant he was going to take the lead and they 
were to follow. And as they went up those steps for the final 
time they drew fire through a window. Marc made the choice 
again to turn into that line of fire. He willingly gave his 
life for you, for me, for this country that he so loved.
    I have dedicated my life to our troops, to their families, 
and especially to the families of the fallen. Marc successfully 
completed his mission and I know where he is, and one day I 
will see him again. He laid down his boots and his weapon. He 
gave all of his tomorrows so that we could have today. In 
response to Marc's last letter home I founded America's Mighty 
Warriors and used my voice, and have dedicated my life to 
honoring and supporting our troops, and defending our 
defenders, and taking care of our Gold Star Families. They have 
given their very best for this Nation.
    So today I speak on behalf of our fallen heroes and their 
families. When our loved ones signed to defend our country 
against enemies foreign and domestic, they knew they could be 
giving their lives for this country and for what they believed 
in. They fought honorably and nobly. And I know that if you 
asked them if they were to die in combat, their first request 
would be to take care of my family.
    As family members we entrusted our loved ones lives into 
the hands of our military and our government. And we expect 
that, God forbid, they did not make it back into our arms, that 
as a Nation we would respect and honor them every step of the 
way as the heroes they are, and bring them back home to a 
proper and dignified burial. I have watched videos and heard 
stories of how Marc was escorted home. From the moment he was 
carried off the battlefield by his teammate who was a medic, 
who administered CPR on Marc for 30 minutes until they got to 
the hospital, knowing that Marc was already dead, hoping 
somehow to revive him. To the honor line, as they loaded Marc 
on his Angel Flight back home where all branches of the 
military in Ramadi had gathered to pay respects to a fallen 
hero. I cannot begin to imagine receiving the news that they 
had found another fragment of Marc, and learning that instead 
of bearing that part of Marc respectfully that he was sent to 
the dump like 274 of our fallen heroes were.
    These men and women gave their lives under horrific battle 
conditions, many having been blown to pieces by IEDs or RPGs. 
And for years their remains were carelessly sent to the dump 
with the garbage. Just this past week it was brought to light 
that a veteran had been found buried in a cardboard box in a 
cemetery in Florida. We are still working on locating remains 
in Vietnam. Why would we as a Nation not have an honorable and 
dignified place to bury the remains of our war heroes?
    Congressman Stivers has introduced a bill to have a place 
of remembrance in Arlington, where the ashes of unidentifiable 
or partial remains of our heroes could be laid to rest with 
dignity. Thank you, Congressman Stivers, for standing for your 
fallen brothers and choosing to be a voice when they have none. 
I hope each one of you see the urgency to pass this bill, H.R. 
5735, and guarantee our troops and their families and we will 
continue to honor those who gave everything and ensure that we 
will never forget them, their families, or the sacrifices that 
have been made for our freedoms. Thank you, and hooyah, Marc 
Lee.

    [The prepared statement of Debbie Lee appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Lee. And thank you for your 
sacrifice, and your testimony, and your heartfelt--I would say 
story, but it is a reality. But thank you. Ms. Ward, you are 
now recognized for your testimony.

                     STATEMENT OF LISA WARD

    Ms. Ward. My name is Lisa Ward. I am the widow of Major 
Richard Ward. I am also the Senior Vice Commander of the 
Veterans of Foreign Wars Post 12075, the William Amundson 
Memorial Post, which is located outside of Houston, Texas. I am 
also a Gulf War veteran and served in the U.S. Army for six 
years.
    My husband Rick loved the Army and served in it for 30 
years. He spent time serving our country overseas in the Gulf 
War and in Korea. Rick and I served in Desert Storm together, 
although we were not dating or married at the time. We were 
married for 20 years and have one daughter, Brenda Ward, who is 
currently a student in the College of Criminal Justice at Sam 
Houston State University.
    On May 27, 2011 I buried my husband Rick at the Houston 
National Cemetery, although I wanted to have the funeral 
service at the national cemetery. Because of the restrictions 
the national cemetery director placed on the religious speech 
contained in the traditional VFW burial ritual, I chose to hold 
the service at a private chapel so the government could not 
interfere with my husband's funeral. My daughter Brenda and I 
arranged Rick's funeral service with Larry Matthews at American 
Heritage Funeral Home. Earl Conley, a fellow veteran and good 
friend of my family, was also present for support. During the 
planning of the arrangements I told Mr. Matthews I wanted Rick 
to have the military funeral because of his 30 years of 
military service. My daughter Brenda and I previously decided 
to have Rick's ashes buried at the national cemetery.
    During the course of our discussion with Mr. Matthews he 
informed us that the national cemetery would not allow the 
traditional VFW burial ritual to be performed on national 
cemetery grounds because it contained the word God. Mr. 
Matthews further stated that the cemetery director had 
implemented many new restrictions. In addition to disallowing 
the traditional VFW burial ritual she was also limiting the 
length of all funerals to 15 minutes and would not allow the 
horse drawn caisson. I was shocked and confused. I could not 
comprehend why my husband, who was a Gulf War veteran and 
faithfully served our country for 30 years, would not be able 
to have the honor of the VFW burial ritual at the national 
cemetery.
    After discussing it with my daughter we decided that we 
wanted Rick to have the honor of the traditional VFW burial 
ritual at his funeral. We therefore decided to have the service 
held at the private chapel at American Heritage Funeral Home 
instead of the national cemetery. American Heritage Funeral 
Home opened the doors of the chapel so that those in attendance 
could hear the rifle salute and the playing of the taps, 
although they were not able to see them like they would have 
had the service been held at the national cemetery.
    About a week and a half after the funeral service Rick's 
ashes were buried at the national cemetery. I had to incur 
additional expenses to have the funeral held at the private 
chapel instead of the national cemetery grounds. If the 
national cemetery had allowed the traditional VFW burial ritual 
I would have held Rick's funeral there.
    For all of the years that my husband served, and all of the 
time he spent overseas, he deserved to have the traditional VFW 
burial ritual at the national cemetery. I felt very 
disappointed and very broken hearted. I felt like something had 
been taken away from me at the hardest point in my life. The 
Houston National Cemetery director's policies took away the 
traditional VFW burial ritual and I can never have it back 
again. I cannot redo my husband's funeral.
    What happened to my family is not fair. I do not want any 
other family to have to go through what I have had to go 
through.

    [The prepared statement of Lisa Ward appears in the 
Appendix]

    Mr. Runyan. Thank you, Mrs. Ward. And also, sorry for your 
loss. And thank you for your husband's service to this country. 
That being said, Mr. Shackelford, you are now recognized for 
your testimony.

                 STATEMENT OF KELLY SHACKELFORD

    Mr. Shackelford. Chairman and honorable Committee, my name 
is Kelly Shackelford. I am President and CEO of Liberty 
Institute. Liberty Institute is the largest legal organization 
in the country that focuses exclusively on religious freedom 
issues.
    Last year, about almost a year exactly, a little over, we 
received a very disturbing call. It was from a pastor whose 
name was Scott Rainey. And Scott told us that he had been 
invited by a private veterans group to give the prayer at the 
Memorial Day service. This private veterans group was in charge 
of the service. It was held at a national cemetery. The next 
thing he knew he was getting a call from the Federal 
government, from the cemetery officials, asking him to submit 
his prayer in writing. That was followed by them telling him 
what he could and could not pray as a pastor at the Memorial 
Day prayer. He was specifically told he could not pray in 
Jesus' name.
    When he contacted us to ask for assistance, because we 
specialize in the First Amendment, we said we thought this 
could be easily cleared up. And we realized we just had a few 
days so we sent a letter immediately to the very top at the VA, 
to Secretary Shinseki, and got actually a response from the 
general counsel, the deputy general counsel for the entire VA. 
And we were shocked by the response. The response was this is 
our policy, this is our national policy, and we are not 
budging. We actually had to file a lawsuit in Federal court, at 
which the judge issued a temporary restraining order against 
the VA. And specifically informed them that to his shock that 
the Federal government in this country does not tell our 
pastors how to pray, whether they are on a national cemetery 
ground or anywhere else.
    We thought that was the end of the matter but we were 
wrong. There were more facts that were even more disturbing. 
You just heard from Lisa. But one of the first thing we found 
is that the national memorial ladies who go to all of the 
veterans' funerals to make sure that someone is there to 
remember, and they simply give a card, a condolence card to the 
families and just say, ``God bless you.'' They were banned and 
told that they could not do that anymore. We had the VFW burial 
ritual, which has been used since 1914, it was being banned 
because it had the word God in it. Nobleton Jones, who all he 
would do as an honor guard was collect the shell casings from 
the 21-gun salute, put those in a bag, and present those to the 
families. And there are certain statements that are given that 
have been given for many years. He ends that by saying, ``And 
may God grant you and your family grace, mercy, and peace.'' He 
was told that was prohibited from now on, he could not do that 
anymore.
    So we found the chapel that was there had actually been 
converted into a storage facility. The cross, the Star of 
David, and the Bible were thrown into a closet. And when 
questioned the officials, the Federal officials specifically 
stated that that was done because people who were not of faith 
would feel more comfortable with the chapel being used in such 
a manner. Of course, completely neglecting people who are of 
faith who would want to use the chapel in connection with their 
funerals.
    So we at that point filed a lawsuit because we, obviously 
this was the policy and they were not going to change the 
policy. And at the end of the policy as Congressman Culberson 
mentioned, we have a final consent decree, an order of the 
court, 20 pages with 50 different orders to the VA changing not 
only the national policies but the local policies as well, that 
the director there said were based on the national policies, 
and really enjoining them from interfering anymore with the 
families who choose to have some sort of religious part of 
their service, or choose the VFW burial ritual.
    Look this, obviously this is outrageous. This should never 
have happened to our veterans. They deserve better than this. 
Our veterans and our active service military are risking 
everything for our freedoms. And it is just unconscionable that 
we would actually have stripped them of their religious 
freedom, and their family of their religious freedom, at the 
very moment of their death. So we are very much in support of 
this bill, of 2720. And we will do everything we can to help. 
And we have done that in the lawsuit. We will continue to do 
that. If we can be of any assistance in any way, we think our 
veterans deserve nothing less than that.

    [The prepared statement of Kelly Shackelford appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Shackelford. Mr. Sanders, you 
are now recognized.

                    STATEMENT OF JAY SANDERS

    Mr. Sanders. Thank you, Chairman. My name is Jay Sanders. I 
am the incoming Commander of the Veterans of Foreign Wars, 
District 4. District 4 is a volunteer veterans organization 
that oversees 17 VFW posts in Houston. Approximately 4,000 
veterans are members of the VFW.
    I am also currently serving as the Commander of VFW Post 
912. I have served there through the ranks, Junior Vice on up, 
and as the chaplain. I am a three-time winner of the National-
Aide-de-Camp, which is an award given for outstanding service 
to the VFW.
    For the last 20 years the VFW District 4 honor guard at the 
request of family of the deceased has honored veterans by 
performing the VFW ritual during private funeral services at 
the Houston National Cemetery. VFW District 4 follows the 
official VFW burial ritual, which was written and approved by 
the VFW National Council of Administration. The VFW burial 
ritual includes a pre-written prayer by the VFW, District 4 
honor guard chaplain and religious speech by the VFW honor 
guard commander, which includes references to God.
    Prior to 2011 national cemetery officials never asked the 
VFW District 4 honor guard to remove any parts of its ritual or 
prohibited the honor guard from performing the entire ritual 
unless the family requested, or required that special prayers 
be submitted to the cemetery employees. Furthermore, the VFW 
ritual was never before divided between so called core elements 
and additions to the core elements. Prior to 2011 the 
government never interfered with private decisions made between 
the family, the funeral home, and the VFW District 4 honor 
guard.
    Early in 2011 the director of the Houston National Cemetery 
met with VFW District 4 line officers in our office. I was one 
of those. During the course of the meeting the national 
cemetery director told us she wanted the Department of Defense 
burial team to train the VFW burial team so that every burial 
team was trained the same way. The national cemetery director 
then stated that the VFW District 4 honor guard could not 
longer perform the entire VFW ritual but could only do what she 
described as the four core elements. Folding the flag, 
presentation of the flag, the rifle salute, and the playing of 
taps. This removed all of religious speech and references to 
God from VFW ritual burial. The national director then stated 
that the VFW district honor guards could not provide text of 
prayer to the family for consideration. She stated that if a 
family member wanted a certain prayer read they would have to 
submit the prayer to the cemetery in writing and cemetery 
officials would then give the prayer to the VFW District 4 
honor guard to read.
    In March of 2011 the national cemetery director issued a 
policy entitled Houston National Cemetery Honor Guard 
Guidelines. Among other things this policy stated that funeral 
military honors should consist only of the core elements, the 
folding of the flag, the presentation of the flag, the taps, 
and the rifle salute. It further stated that additions to these 
core elements can only be made at the request of the deceased's 
survivors. The policy also stated that if the family has a 
member of the clergy provide a religious service then the honor 
guard team is not allowed to include religious elements, such 
as readings from scripture or prayer. It also stated that 
volunteer honor guards shall not provide the texts or any 
recitations to the deceased's survivors for consideration.
    On the same day the policy was issued the director held a 
training in the chapel for the District 4 honor guard which 
performs the burial ritual. During this, I noticed that the 
chapel at that time was full of boxes. It had to be unlocked, 
and it appeared as though it was being used for storage. During 
this training, which had nothing to do with burial, Junior Vice 
Commander of the Honor Guard, Nobleton Jones, asked if he could 
recite the following while handing the shell cases to the 
family. ``On behalf of a grateful United States of America, a 
grateful Nation, and the Veterans of Foreign Wars, I present 
you these shell casings from the shots that were fired to honor 
our departed comrade. We ask that God grant you and your family 
grace, mercy, and peace.'' The national director stated no. 
Junior Vice Commander Jones then asked if he was allowed to 
hand the shell cases to the families. The national director 
said no, unless the family specifically asks for the shell 
casings. The national cemetery director further stated that Mr. 
Jones was not allowed to have any direct contact with the 
family.
    A few weeks later the national director met with VFW line 
officers in her office. During the course of the meeting she 
instructed the VFW line officers that the VFW district honor 
guard could not perform the entire ritual unless it was 
requested in writing by the family. The national cemetery 
director also stated that if a family wanted VFW honor guard to 
read any special prayer during the service that the family 
would have to submit the text of the prayer to her and then she 
would provide the prayer to the national honor guard.
    One of the VFW district line officers recognized that these 
conditions are not included in the honor guard guidelines and 
requested to see the policy in writing. She agreed to provide 
the policies to us in writing but never produced a copy of 
these.
    These oral and written policies implemented in 2011 were 
not only unprecedented by they substantially interfered with 
the private funerals of our deceased veterans. What is spoken 
during a private funeral is a very private and personal 
decision that the government has no right to interfere with. 
The families of the deceased veterans have been thankful and 
touched by the VFW ritual. It is an honor for a veteran to have 
the VFW ritual performed and the government has no business 
removing the religious portions for this nearly 100-year-old 
ritual. Thank you.

    [The prepared statement of Jay Sanders appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Sanders. And now we will begin 
the round of questioning. My first question is for Mr. Sanders. 
You stated that you were asked to remove the word God from your 
name. Are there other words that were specifically asked to be 
removed as well?
    Mr. Sanders. Basically just God was it. Any reference to 
it, but that is all we remember, was God. And we had it seven 
times in our ritual and she wanted it out.
    Mr. Runyan. Seven in that ritual?
    Mr. Sanders. Seven.
    Mr. Runyan. Is that ritual uniform throughout the VFW 
nationwide?
    Mr. Sanders. Yes, it is.
    Mr. Runyan. And it has been for how long?
    Mr. Sanders. Since it was wrote, years back. We have a 
book. Every VFW member gets a book. And it is the same ritual 
for every VFW post in the world. It is all the same.
    Mr. Runyan. Thank you. Ms. Ward, besides the religious 
aspect of it, were there any other factors that led you towards 
having a private ceremony, as opposed to a ceremony at the 
Houston Cemetery?
    Ms. Ward. The limit of the time.
    Mr. Runyan. The limit of the time?
    Ms. Ward. She would only allow 15 minutes. And there would, 
no one would be able to gather afterwards either. So if I 
wanted to speak with Jay afterwards, since we are friends over 
and above, we could not, we could not stay after the service, 
you know, to discuss anything, or just, you know, share in any 
type of friendship, or discussion, or anything.
    Mr. Runyan. All right. I thank you for that. Because I 
think that is the first time any of us have probably heard 
that. That is shocking. Now, Mr. Shackelford, dealing with the 
terms of the consent decree, do you think they were adequate to 
address the problem we had?
    Mr. Shackelford. Absolutely. A number of the policies were 
changed permanently and it is a court order. So if they are 
violated you can be held in contempt. So, I mean, there were 50 
different provisions. Not all of those were policy changes. 
Some of them were just injunctions that they would not 
interfere in certain ways in the future. But it definitely took 
care of all the violations that we saw by the consent decree.
    Mr. Runyan. So moving forward, what does this piece of 
legislation do?
    Mr. Shackelford. You know number one, I mean, as somebody 
who has been doing First Amendment cases for 23 years, 
officials like statutes better. They can read those better. 
They are easier to follow. The Constitution is a little more 
difficult for them. So when you put something, yes we have 
these provisions in a consent decree. But to put something in 
statute, I think, really helps a lot of people know what their 
rights are. It gives people guidelines as to what not to do, 
and I think helps avoid a lot of these problems. You know, we 
are certainly willing to represent people in this situation but 
we would rather not have to. We would rather them to have a 
statute in place which avoids this and hopefully, you know, 
educates people into doing the right thing so that we never 
have violations.
    Mr. Runyan. Thank you. That is all I have. I now recognize 
the Ranking Member, Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman. Ms. Lee, I certainly 
want to thank you for the great sacrifice you have endured. And 
it sounds like something that should be done, move forward 
with. I cannot imagine disposing of remains in any way that 
would be disrespectful. So I appreciate you coming and 
testifying today.
    Mr. Sanders, I just want a clarification. You said that 
when, that the director required a family to submit prayers 
that were to be used? Spoken?
    Mr. Sanders. Yes. She wanted the family to submit their 
prayers so she could look at them before she gave them to us, 
is what it amounted to.
    Mr. McNerney. Do you know if she approached, or the VA 
approached the family in any way and asked them to submit 
prayers? Or was it up to the family's initiative to submit a 
prayer?
    Mr. Sanders. I can tell you that on many occasions they 
approached the family as they were coming out of the lead car, 
and told them that, said we cannot use the VFW ritual. One of 
our commanders right now stepped in when it happened to one of 
his members and said we are using the VFW ritual, and they 
backed away.
    Mr. McNerney. So it seems to me that the core thing that we 
want to accomplish here is making sure that the family's wishes 
are----
    Mr. Sanders. Correct.
    Mr. McNerney. --in a delicate way. I mean, you do not want 
to, you know, badger them, or you do not want to cause them 
undo grief, you know, when they are getting out of a car, or 
when they first hear the news. I mean, this needs to be done in 
a way that protects the family's interests, and the, if the 
deceased had a specific request as well that should be honored. 
So what I would like to see is something that guarantees that 
the family's wishes are honored in the most delicate way 
possible. I am not sure that this would accomplish that, what 
is proposed. But I think that is our goal, and that should be 
our goal.
    Mr. Sanders. What normally happens is the family, if they 
know of it, they tell the funeral director where their loved 
one has been taken to start out with, what their wishes are. 
She asked us not to tell the family that the VFW has rituals. 
To tell the funeral director that, it is up to him. That was 
kind of bad. Then she, you know, when we get there with the 
prayer, and she wants to eliminate it, that was terrible. 
Terrible.
    Mr. McNerney. Well I would certainly want to move forward 
with legislation, if it is needed, that would guarantee the 
family's discretion at the highest level, as the highest 
priority.
    Mr. Shackelford. One of the things I would mention is the 
national memorial ladies who, I think there is an average of 
about 60 a week, of funerals in this Houston cemetery alone. 
They have done this so long that they actually have a process 
where they know what the families want. I mean, if they, on the 
condolence card there is no God bless you or anything if there 
is no religious part of the ceremony that the family has 
chosen. And if there is a prayer then they provide that. So 
they, a lot of the groups, you know, have a process by which 
they know how to respect the family's wishes. And typically, as 
was mentioned, the family is talking to the funeral director. 
And the problem in this case is that we saw a lot was the 
interference by the, you know, cemetery director in that 
process. And actually attempting to overrule family wishes. One 
of the sworn statements was what Jay just mentioned here, which 
was actually a family had chosen the full burial ritual and 
they tried to stop it. And fortunately one of the honor guard 
was a former judge who was not easily intimidated and he 
overruled that somewhat. But typically it is the family going 
to the funeral director and then working with the service 
organizations so that the family's wishes are carried out.
    Mr. McNerney. Well here is my concern, that the law as 
written would allow people that do not have a good 
understanding of the family to force prayers or something that 
that family would find offensive. So I mean, I think we need, 
if we move forward, we need to fine tune this to make sure that 
that is not ultimately one of the unintended consequences.
    Mr. Shackelford. Yes, I think the key is that the family 
knows they have a choice and that they are aware of the 
choices, like the VFW ritual, the American Legion ritual, or 
one that does not have any reference to God at all. And I think 
once they know that choice I think most families will move 
pretty naturally towards the direction they want to go.
    Mr. Sanders. If I may, when the hearse arrives the funeral 
director or his employee comes with them. They come straight to 
our honor guard. They tell us the wishes that the family wants 
at that time. If they do not want, you know, if they are of 
Jewish faith we are not going to embarrass them by saying the 
wrong thing. We are going to eliminate that part. If it is a 
certain part of any other religion, and they do not want God in 
there, they do not want the prayer, we are not going to do it. 
These guys have been doing this for a long time. Like they 
said, there are two of them that are way up in their eighties. 
They all volunteer. They are out there everyday, in the heat, 
dressed up like this, it is hot. But they do it everyday 
because they love doing that and they want to see our comrades 
being shown respect, with dignity.
    Mr. McNerney. Okay. Thank you.
    Mr. Runyan. I thank the gentleman. I just have one quick 
question. Dealing with the funeral directors, were they being 
influenced by the cemetery director? Or was it just that they 
were being pushed aside?
    Mr. Sanders. At one time it seemed like she was trying to 
cut distance between them. We were not to have any contact with 
the funeral directors. So it was a bad situation for us.
    Mr. Runyan. And I think you just said it, because the 
funeral director just by the nature of the job is the closest 
one to the family.
    Mr. Sanders. That is exactly right.
    Mr. Runyan. And would understand what that family wants, 
what their background is, what their religious background is 
and everything.
    Mr. Sanders. Correct.
    Mr. Runyan. I just wanted to clarify that.
    Ms. Ward. Well if I may, when I was speaking with Mr. 
Matthews he had already been spoken to by his boss because Ms. 
Ocasio had already called his supervisor. Because he was 
telling the families you cannot have the traditional VFW ritual 
at the cemetery. She did not want any, she did not want him 
telling anybody that. So my question was, well when was I 
supposed to find out about this? And when, I guess I was 
supposed to find out as I was getting out of the car? I guess 
they were going to stop the funeral at that time, I guess that 
that is when I was supposed to find out. Was, you know, after 
it was too late. So luckily I was, the former, or I guess the 
current District 4 Commander Inga Conley, her husband had gone 
with me to the funeral home. We have been friends since our 
kids were in the first grade. They are both in college now. Her 
husband had gone with me to the funeral home, and he had 
confirmed, yes, you know, that there are issues with the whole 
honor guard situation and she is not allowing it. So she, Ms. 
Ocasio was already trying to prevent, she did not want the 
families to know that she was not allowing it. But she did not 
want anybody to know that. She was really cutting everyone out.
    Mr. Runyan. Mr. Stutzman?
    Mr. Stutzman. Thank you, Mr. Chairman. Thank you for being 
here today. I just attended a funeral this past week of JaBraun 
Knox, Sergeant JaBraun Knox in Auburn, Indiana. And obviously I 
know this is a very, very difficult time for a family. And to 
just sit here and listen to the stories and the experiences 
that you had to go through just seems so unnecessary, that you 
would have to experience that. And that people would not be 
thinking about you and your loss and the family at a time of, 
you know, that we are remembering American heroes. And also the 
emotions that you all are dealing with. So thank you for being 
here. It is, it is unfortunate that we have to even be 
discussing something like this. But if it was happening and we 
were not aware of it, that would be just as unfortunate. And so 
thank you for your willingness to be here.
    My question would be for Ms. Lee. First of all, sorry for 
your son's loss. And I talk to young people back home after the 
loss of the soldier just recently, that they are, I want to 
remind them and to let them know to look up to people like 
this, because they really are the heroes of our day. Because 
they are, first of all the characteristics that they exhibit in 
their time of service is what all of us should strive to 
achieve.
    We have been told that the Department of Mortuary Affairs 
has affirmed that these sorts of acts, and procedures have 
taken place, and that they would never happen again. It is, the 
new process, or the new, the memorial that is being proposed 
here, do you think that that is the appropriate way or 
sufficient way that we can handle these sorts of ceremonies? Or 
do you think that there are, the proposal by the Department of 
Defense and the standardized practices that they have currently 
put in place, are those sufficient? Which, you are here in 
support of the bill----
    Ms. Lee. Right.
    Mr. Stutzman. --so I am guessing that, can you talk about 
that a little bit more, and why that is more important?
    Ms. Lee. And I think they are working, you know, and have 
changed that so that it will not happen again.
    Mr. Stutzman. Mm-hmm.
    Ms. Lee. And the current policy is that they are dumping 
the ashes at sea.
    Mr. Stutzman. Mm-hmm.
    Ms. Lee. I know that would not be what my son would have 
wanted. He would not have wanted to be dumped at the sea. So I 
think this gives an alternative, a place where people can go. 
They can also recognize when they visit Arlington that war is 
an ugly thing.
    Mr. Stutzman. Mm-hmm.
    Ms. Lee. And that we do have those that, you know, there is 
pieces of them. There is not even a body to be buried 
somewhere. And so to have a place where those families can go 
and remember their loved ones, a place where as a Nation we can 
stand proudly and honor those, and remember those, I think this 
is a right place.
    Mr. Stutzman. Mr. Chairman, I have got a quick question 
about the bill. Does this give the families an option? I am 
sorry I was not in here earlier for the testimony of the 
authors of the bill. But does this give them an option where 
they could allow for the Department of Defense to follow their 
new procedure? Or it gives them the option to bury those ashes 
at the memorial? Do you know? Does this bill, does it give the 
families an option to allow for burial at sea, or for the 
remains to be buried at the memorial?
    Counsel. This bill as written deals primarily with 
establishing the tomb. And I think Ms. Condon will testify to 
this later, DoD would ask to have control over how the Place of 
Remembrance is administered once it is put in place. So I think 
that that would be a question that is more appropriate to ask 
Ms. Condon when she testifies.
    Mr. Stutzman. Okay. Okay. But Ms. Lee, would you agree that 
it would be best for the families to have that option, if they 
feel comfortable with allowing the burial at sea, the 
Department of Defense could do that? But if they would rather 
have the burial at the memorial that would be appropriate as 
well?
    Ms. Lee. I think this is the best place, to have a memorial 
place where we have got it set aside. I cannot imagine what 
these families go through when their loved one has been killed, 
where there is, you know, pieces of them left over. And to keep 
getting a phone call saying, ``We found another fragment. We 
found another, you know, piece.''
    Mr. Stutzman. Yeah.
    Ms. Lee. And so that gives them a place then where each 
time when they find it they do not have to, you know, go out to 
sea again. It is right here. They know all of it is right 
there.
    Mr. Stutzman. Mm-hmm. Mm-hmm.
    Ms. Lee. What they find.
    Mr. Stutzman. I know my time is expired, but Ms. Ward thank 
you for your service, and of course thank you for being here 
today. And again, I am sorry for your loss as well. And it is 
just hard to imagine that you would have to experience that. It 
is ridiculous. And hopefully what we are doing today will 
address that issue and no one else would have to experience 
that. So thank you to you, and to Mr. Shackelford for the work 
that you are doing as well. Thank you.
    Ms. Ward. Thank you.
    Mr. Stutzman. I yield back.
    Mr. Runyan. I thank the gentleman. Mr. Walz?
    Mr. Walz. Thank you, Chairman. And thank you all for your 
service, and for being here and helping us out. And Ms. Lee, 
thank you again. It is always, it is great to have people come 
here as the conscience of this country and speak to the issues 
that matter. And I think getting this right is critically 
important. I think my colleague was asking some of the 
questions.
    I can tell you this, and I think it is important to say, 
Representative Stivers has been a great voice on this issue. He 
has spoken to me on many occasions on the floor as we have 
talked back and forth on how to get this right. And he is very 
personally invested. So I am appreciative of his work, as you 
were too.
    Again, Ms. Ward, as I said earlier, again you unfortunately 
are the example I was giving. You do not get a redo on 
something that important. And these are times of closure. They 
are times of, while sadness, they are times of celebration of a 
life. And when those of us who have military service, that is 
how I hope to be buried someday. And I have participated in 
many of these, as I was saying earlier. And I think being part 
of an honor guard, the one thing is I was part of many that I 
did not know the family. And because there is a shortage of us, 
and they needed to get folks out there. And I think being 
cognizant of those wishes is critically important.
    So I think there is a sophisticated argument going on here. 
It is one that does get, and Mr. Shackelford you talked about 
statute over Constitution type of thing. I think there is a 
clarification on that. We understand the Constitution has been 
built on by precedence over time. But the issue here is 
establishment clause versus that all going free expression. And 
it is finding and striking that balance between establishment 
clause and free expression. And I think many times, and it is 
the most overused thing because common sense certainly is not 
common nor is there sense sometimes in the things that happen.
    But I think trying to come to that, I hope Mr. Sanders you 
know. And I speak to you as a retired sergeant major on this, 
when you say the government did this. We are all part of the 
government. I certainly do not condone that behavior that 
happened there. And you are going to see in a minute when you 
hear Ms. Condon speak I think your faith in the people who work 
for the Cemeteries Administration is going to be restored, when 
you see someone and the work that has been done out at 
Arlington. And what happened to your folks is unacceptable and 
there has to be something done to that. There has to be, and 
apparently, I cannot speak nor will I try an interpret what Ms. 
Ocasio was thinking. But she was obviously not thinking of the 
family's best interest at heart. She was obviously not thinking 
perhaps there is a better time on this. I think maybe she 
thought in her mind she was following the letter of the law and 
the establishment clause, but there is two sides of that. There 
is the free expression. And if you lean too far one way at the 
expense of the other we lose that ability.
    So I think all of us, and the Ranking Member was getting at 
this, that default position. This chapel situation, I 
understand we only have two. They are blessed to have one in 
Houston. There are only two in our cemeteries. There are not 
very many of these. But the issue that we know we are going to 
deal with too is what the family's choice is. Is that if the, 
and I have seen this happen, where the VFW has changed their 
ritual on this. They have left the words out. I think that is 
the key of getting this in. I have read through the court case 
findings of what was there. I think it is very clear of where 
they put it out.
    And I have to tell you this. That I have never witnessed 
this anywhere else. I have never seen this with another 
cemetery. It certainly does not mean that it is not happening 
more, and that we need to take a look at that. I understand 
that. But I want to be very careful that we strike that perfect 
balance. We allow to make sure Ms. Ward never goes through, or 
anyone like her, ever goes through that again. That our heroes 
at the VFW are there for the family, and if the family says no 
that needs to be their right on how they do that. But the 
default position cannot be to exclude that, to not make that 
available to the families.
    So I struggle with this. I am appreciative, Mr. 
Shackelford, you spent a life of doing it, and it is complex. 
Sometimes there is strange things on how we see this, and the 
different groups that are involved. But if we never lose sight 
of however Ms. Ward and her family chose to honor that warrior, 
that is what matters, first and foremost. And that is, in my 
opinion I think the courts would stand up to that, is striking 
that proper balance between the establishment and the free 
expression clause.
    So I appreciate you bringing this forward. And Mr. 
Culberson, thank you. We will spend time talking about it and 
thinking about it. It makes us dig deeper. This is, this is, 
yes it is an individual issue that is absolutely, is sacred, on 
what happens with these families. But it is a broader issue for 
the country to deal with. But thank you all for being here. 
Thank you for helping us understand this.
    I will reiterate again to the Chairman, this is the way I 
hope you would think democracy should work and be done, where 
people are advising their elected representatives and we get 
this right. And if there is something that has been done as an 
injustice, let us fix it and make sure it does not happen 
again. So I yield back.
    Mr. Runyan. I thank the gentleman. And on behalf of the 
Subcommittee I thank all of you for your testimony, and for 
your sacrifice. And you are now excused.
    And I will ask the fourth panel to come forward. The first 
witness we will hear from is Ms. Kathryn Condon, the Executive 
Director of the Army National Cemeteries Program. And then we 
will hear from Mr. Thomas Murphy, Director of Compensation and 
Pension Service for the Department of Veterans Affairs. Ms. 
Condon, you are now recognized for five minutes for your 
testimony.

 STATEMENTS OF MS. KATHRYN CONDON, EXECUTIVE DIRECTOR OF ARMY 
 NATIONAL CEMETERIES PROGRAM, U.S. DEPARTMENT OF DEFENSE; AND 
 MR. THOMAS MURPHY, DIRECTOR OF COMPENSATION SERVICE, VETERANS 
                    BENEFITS ADMINISTRATION

                  STATEMENT OF KATHRYN CONDON

    Ms. Condon. Chairman Runyan and distinguished Members of 
the Subcommittee, thank you for the opportunity to provide the 
Department of the Army's views on the proposed legislation as 
it affects Arlington National Cemetery and our other national 
cemeteries.
    As it is written the Army supports the intent of H.R. 2355, 
the Hallowed Grounds Act. But we defer to Veterans Affairs the 
applicability and implementation of the proposed legislation on 
their 131 cemeteries. But we support it at Arlington and those 
cemeteries under Defense.
    As it is written the Hallowed Grounds Act only precludes 
convicted tier three sex offenders from burial and 
memorialization at Arlington. There is no provision in the bill 
for those accused but not yet convicted. And we would like to 
work with the Subcommittee if we could, Mr. Chairman, to insert 
suitable language in the bill that would address this concern 
as we would have to apply that as well.
    The Army supports fully H.R. 5735, the Tomb of Remembrance 
Act. The final disposition of unidentifiable remains would be 
executed with the same dignity, honor, respect, and reverence 
that we exhibit everyday when conducting services for our 
veterans and their loved ones at Arlington National Cemetery. 
We would be honored to have the tomb at Arlington.
    But as written the legislation does not stipulate how 
eligibility for the interment of the remains at the Tomb of 
Remembrance would be done. So we ask that that determination 
remain with the Department of Defense, on who would be in the 
Tomb or not.
    Mr. Chairman, I understand that H.R. 2720 is before the 
Subcommittee for consideration which stipulates that each VA 
cemetery director be a veteran. The Department of the Army 
supports veterans preference in hiring. However, the Army and 
Veterans Affairs should always choose the best qualified 
candidate to run their cemeteries. If that is a veteran, that 
is who you should select. If it is not then you should select 
someone else.
    Lastly Mr. Chairman, in H.R. 2720 I appreciate the 
opportunity to comment on the affirmation of every veteran's 
right to have a religious service of their choice at their 
interment. Arlington's practice and policy recognizes that 
religion is indeed a deeply personal matter, and as is their 
service. And as such we respect the wishes of each family. To 
include those who request to have no religious service at all 
at Arlington, because we only have one opportunity to get it 
right for that family on the day that we are placing their 
loved one for their final rest.
    So that concludes my testimony and I look forward, Mr. 
Chairman, I look forward to your questions on these 
legislations.

    [The prepared statement of Kathryn Condon appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Condon. Mr. Murphy, you are now 
recognized for five minutes for your testimony.

                   STATEMENT OF THOMAS MURPHY

    Mr. Murphy. Chairman Runyan, Ranking Member McNerney, and 
Members of the Committee. I am accompanied today by Richard 
Hipolit, Associate General Counsel, Department of Veterans 
Affairs. At the outset I would like to offer the Committee an 
apology for the tardiness of our written testimony.
    I am pleased to be here to offer VA's views on bills 
concerning disability compensation, on grants to provide 
injured veterans with housing adaptation grants when they are 
residing temporarily with family members, and matters affecting 
VA's national cemeteries.
    H.R. 2720, which would make significant changes to VA's 
national cemetery system, was added to the Committee's agenda 
May 31st and thus could not be addressed in my testimony today. 
We will provide the Committee views on that bill, as well as 
H.R. 5881, the Access to Veterans Benefits Improvement Act in a 
follow up letter. However, I do want to reassure the Committee 
that the will of the families and the veteran is of absolute 
importance to the NCA, and that they will be respected, and 
their religious freedoms will be upheld.
    We defer to the Department of Defense and Department of the 
Army on H.R. 5735, which would require establishment of a Tomb 
of Remembrance at Arlington National Cemetery.
    H.R. 4299, the Quality Housing for Veterans Act would 
extend authority for VA to provide temporary residence adaption 
grants for severely disabled veterans who reside temporarily 
with family members. We strongly support this legislation and 
appreciate your placing this bill on the agenda. Veterans 
residing temporarily with family members instead of their own 
residence have no less need for adaptations that will help them 
in their day to day living.
    VA strongly supports H.R. 5880, which would extend VA's 
ability to contract for compensation and pension medical exams. 
Having this authority allows VA flexibility in meeting 
increased demands for these medical exams, and that is an 
essential component in addressing the backlog. This flexibility 
also allows the Veterans Health Administration to focus more of 
its resources on providing medical care to veterans.
    H.R. 2996 concerns authorities that govern the period and 
scope of certain disability presumptions established for 
Persian Gulf War veterans. VA recently by regulation extended 
the period during which these presumptions will be in effect to 
December 31, 2016. VA has no objection to this bill's mandate 
that the presumption be in place at least until December 31, 
2018.
    The bill would also change the scope of these presumptions 
to include service in Afghanistan or locations that supported 
operations there. VA does not support that change because the 
scientific organizations that examine the bases for 
presumptives have simply not found an association of the same 
hazards that led to the Persian Gulf War presumptions with 
service in Afghanistan or supporting locations. We would be 
glad to brief the Committee in more detail on this topic, 
including the relevant scientific studies.
    H.R. 2355 would prohibit the interment of remains of 
convicted tier three sex offenders, which is a classification 
used under the Sex Offender Registration and Notification Act. 
VA absolutely understands the depth of feeling that led to the 
introduction of this bill and we support the goal of keeping 
the most heinous sex offenders from receiving burial honors 
that reflect the highest American ideals. There are detailed 
practical issues with carrying out this law, however, that 
merit discussion with the Committee, with veterans service 
organizations, and the Department of Justice. For example, 
there may be issues with the consistency and reliability of 
information contained in the state databases. There also may be 
issues with consistent application for similar offenses. 
Finally, we want to make sure that the labor intensive searches 
and reviews that would be required could reduce our ability to 
provide timely decisions on burial requests. We look forward to 
further discussion on this bill.
    Mr. Chairman, I noted at the beginning of the beginning 
that we would followup on the record of H.R. 2720, which was 
placed on the agenda last week. We appreciate the opportunity 
to report to the Committee soon in detail on the impact of this 
bill. We can say now, however, that it would have a very 
significant effect on the personal services to families and 
honors to departed veterans that NCA now provides as a measure 
of the Nation's gratitude for a veteran's service. We will have 
those details views to the Committee very shortly.
    Mr. Chairman, thank you for the opportunity to appear 
before your Committee this afternoon, and I look forward to 
your questions.

    [The prepared statement of Thomas Murphy appears in the 
Appendix]

    Mr. Runyan. Thank you for your testimony. That is votes 
being called, but we have plenty of time. Ms. Condon, you 
alluded to this in your statement, and Mr. Stutzman asked the 
question earlier, dealing with DoD regs. When you are dealing 
with the Remembrance Memorial, to your knowledge, is there a 
DoD reg that states if a remain is identified, say through DNA, 
that those remains would have to be buried with that warrior? 
Is there going to have to be a separate analysis of the DoD 
regs in dealing with this or will they have the option to do 
one or the other?
    Ms. Condon. Sir, no, there is not, we would not want to, 
there would not be a reg on that. But what it would be is we 
would, as we do when we put up a group memorial at the 
cemetery, you know, for remains. We just work with each and 
every member of the family to respect their wishes. So that 
would be, you know, what we would have to do is if, you know, 
there were unidentified remains but we knew the incident that 
happened is we would discuss with the next of kin on, you know, 
that would be would you want to be in the Tomb of Remembrance? 
Or would you want to be buried at sea? So it would be a policy. 
It would not be a whole regulation thing that would have to be 
written to address that.
    Mr. Runyan. Thank you. I just want to touch on this, 
because I think Mr. Walz alluded to it. Ms. Condon, your 
expertise is doing Arlington very well, and I commend you for 
the job you are doing over there to truly right the ship, if 
you will. Your experience as a civilian director, has served 
Arlington National Cemetery very well. But again, I think Mr. 
Kelley testified that we have a declining pool of veterans to 
work with as potential future cemetery directors. There is not 
a question there, but I think much like you, there are many 
civilians qualified to do it. And I think that is something we 
really have to look at. So I applaud you on that aspect of it.
    Mr. Murphy, in talking about identifying tier three sex 
offenders, has there been any thought process as to what the 
cost of doing that type of analysis would cost the VA?
    Mr. Murphy. No, sir. There has not been a cost analysis. We 
have got to get more detail of exactly what the requirements in 
the bill are going to be before we are able to put down on 
here. We have looked at it from the standpoint on what is the 
impact going to be, not necessarily in cost in terms of dollars 
and cents, but in productivity of the individual. How much time 
is it going to take to make sure that when somebody is excluded 
using this database that they are truly supposed to be excluded 
from that?
    Mr. Runyan. And Ms. Condon too, I know we have dealt with 
it on several other levels, several other monuments, and the 
issue of space at Arlington always comes up. Are we still 
having that discussion and wondering where is the most 
appropriate and best place to put a monument or memorial 
without it affecting your ability to, have more interments out 
there?
    Ms. Condon. Sir, when the first notice that there could 
potentially be an ossuary that we would build at Arlington 
National Cemetery, we looked at locations around the cemetery, 
to include even by the columbarium court where it would not 
impact the burial space of a veteran. We would make sure that 
it would be in a place that would be suitable for the honor and 
dignity that we would need to place the ossuary if it is in 
Arlington, but we would also not put it in a place that would 
take up a place for an eligible veteran's burial.
    Mr. Runyan. Thank you. With that I will recognize the 
Ranking Member, Mr. McNerney.
    Mr. McNerney. Thanks, Mr. Chairman. Ms. Condon, would you 
elaborate briefly please on why the DoD is not supporting H.R. 
2355?
    Ms. Condon. Sir, we are supporting 2355. I am sorry, the 
one on----
    Mr. McNerney. That is the Hallowed Grounds Act.
    Ms. Condon. We are, in my statement I said we do support 
the Hallowed Grounds Act. The only thing that we wanted to do 
was to make sure that there was a clarification on, you know, 
if a tier three sex offender is not yet convicted. But that was 
the issue, that we just want clarification in the law on how we 
would handle that.
    Mr. McNerney. Okay. Do you have any involvement in H.R. 
2720? That is the clarification on the VA's role on conducting 
funeral services?
    Ms. Condon. Sir, no I do not.
    Mr. McNerney. So you probably can give me sort of a non-
biased answer then, probably. Is it your estimate that the 
incidents as described in Houston are the rule or the exception 
to the rule in terms of how services are conducted and how the 
VA gets involved in whether prayers are used or not in 
services?
    Ms. Condon. Sir, from my knowledge of how the NCA 
cemeteries are run I think that was an exception to the rule 
rather than the rule across the board. So I do not think that 
that was something that was systemic across all the 131 VA 
cemeteries.
    Mr. McNerney. Okay. Thank you. Mr. Murphy, about the Gulf 
War presumptive illness. What happens when the statute, when 
the time of limitation expires and a veteran starts presenting? 
What is the result to the veteran? What is the consequence to 
the veteran?
    Mr. Murphy. What we are talking about here is a presumptive 
condition, which means we do not need to go out and prove that 
there is a nexus between the symptoms and the service that the 
veteran had. It is automatic under a presumptive. So if this 
statute were to expire, and there was no longer a presumptive 
condition, we would still rate each case on an individual based 
and if warranted find that there is a service-connection and 
still grant that veteran the same benefits they----
    Mr. McNerney. So the veteran is not shut out?
    Mr. Murphy. Exactly. Exactly.
    Mr. McNerney. Thank you. That is what I wanted to know. 
Concerning the Quality Housing for Veterans Act, the DAV had a 
suggestion that residence adaptation be a stand alone benefit. 
Do you agree with that recommendation?
    Mr. Murphy. I would say that we do not disagree with that 
recommendation. The way it stands today Mr. Hall stated that 
the authority was approximately $60,000. The exact dollar 
figure is $65,000. And anything we do currently under this act 
is subtracted from that amount, just like he stated. $14,000, 
and the balance is brought forward. So VA would not object to 
if you were to----
    Mr. McNerney. Make that stand alone?
    Mr. Murphy. Correct.
    Mr. McNerney. Okay. Thank you. One last question. Have 
there been any injuries that were not included that we should 
be including in granting those temporary residence adaptation 
grants?
    Mr. Murphy. I am going to ask Dick on this one. I do not 
believe that there is any specific conditions that are out 
there.
    Mr. Hipolit. This is on the housing adaptations. I think 
there is a fairly specific list of what those conditions are 
this statute. I have not heard commentary that that list is not 
adequate. But we could certainly take a look at that and see if 
there are any concerns about that out there.
    Mr. McNerney. Okay.
    Mr. Murphy. Yes, the same, exactly the same comment. I am 
not hearing anything from any avenue telling us that we do not 
have this adequately covered. If there is somebody that has got 
that I would like to hear about it because I would be willing 
to take it on.
    Mr. McNerney. Okay, thanks. I yield back.
    Mr. Runyan. Thank the gentleman. Mr. Walz is recognized.
    Mr. Walz. I will go quickly here. Thank you all again for 
your service. Thanks for being here helping understand this. 
Mr. Murphy, the bill to allow a little more access from the 
CVSOs, if we get the privacy side of that right, can those 
folks be a force multiplier for you to help process and at 
least ease some of the confusion amongst veterans? Or are you 
nervous that it is another addition?
    Mr. Murphy. I am very nervous from the standpoint of how do 
we protect the confidentialities that other laws have put in 
place for veterans and Americans in general, and allow the 
accesses to expedite the process----
    Mr. Walz. --everything else that goes with it.
    Mr. Murphy. Exactly.
    Mr. Walz. Very good.
    Mr. Murphy. But along those same lines, I have been out to 
see the county veterans service officers at their state 
conference in Ohio. I am going up to speak with them later 
today in New Jersey----
    Mr. Walz. I appreciate that. They are good folks and they 
have got the same mission as you.
    Mr. Murphy. Yes.
    Mr. Walz. They are just trying to figure out how to deliver 
it.
    Mr. Murphy. Exactly.
    Mr. Walz. So, I appreciate that. Any advice or any input in 
improving and looking at this bill Mr. Runyan has introduced 
would be greatly appreciated. We want to make sure we get it 
right for you, that is the intent. And again, Ms. Condon, 
thanks for your work out there. I am always grateful for your 
service and also appreciative of it. You heard the folks here 
and you heard Ms. Ward. This is, the problem you have when a 
situation like that happens, people move from a healthy 
skepticism of government to a cynicism of government. And it 
becomes kind of gross generalization. When you heard that 
story, what did you think? I know that is a very subjective 
question. But I know you know how to strike that balance 
between establishment and free expression.
    Ms. Condon. You know, sir, immediately my concern was that 
it would have an impact across every veterans cemetery in this 
country. You know? And the ramifications of that. Because it, 
you know, could have been an isolated incident. But it probably 
affected the, you know, every veteran and their loved one who 
has someone buried in a national cemetery, of which Arlington 
is one.
    Mr. Walz. Well it is one of those stories that strikes you. 
And then it takes on, I know, this one down in Houston, you 
heard the real story, this was an issue that is unacceptable. 
But it takes on a bigger story that it becomes that the whole 
system is corrupt, someone is trying to deny freedoms and all 
that. What are we doing, or what do you do, to ensure than when 
these people with legitimate concerns, we have a bunch of 
rightfully upset folks that testified here, what do you do? Is 
it just doing it right over time after time after time that 
takes that down?
    Ms. Condon. And sir, that is exactly it. And the bottom 
line is you can never let, it is the only chance to get it 
right is the day that you bury someone's loved one. And what 
you cannot do is to rush them at the time when they are the 
most vulnerable.
    Mr. Walz. Yeah, that is outrageous. That part about, I mean 
the rest of this I think I could understand that. I do not even 
have an explanation based on constitutional interpretation why 
you are rushing somebody out from 15 minutes. And if they are 
lucky enough to have a place of worship, then let them use it. 
That part, you know, as long as we are giving them the 
resources to upkeep it, or whatever it was. But, well I thank 
you for that. I yield back, Mr. Chairman.
    Mr. Runyan. I thank the gentleman. And on behalf of the 
Subcommittee I thank each of you for your testimony, and I look 
forward to working with you in the future on the wide range of 
challenges facing our Nation's veterans.
    I ask unanimous consent that all Members have five 
legislative days to revise and extend their remarks and include 
extraneous material. Hearing no objection, so ordered. I thank 
the Members for their attendance today and this hearing is now 
adjourned.

    [The prepared statement of Hon. Ted Poe appears in the 
Appendix]

    [Whereupon, at 4:37 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Jon Runyan, Chairman
    Good morning. This legislative hearing on H.R. 5881, H.R. 5880, 
H.R. 2355, H.R. 2996, H.R. 4299, H.R. 5735 and H.R. 2720 will now come 
to order.
    Today we have several important pieces of legislation on our 
agenda. Due to the high level of interest in some of the bills before 
us, I am going to forgo a lengthy opening statement in the interest of 
time.
    Instead, I will just briefly touch on three bills on today's 
agenda; two of which I have introduced and the other which I co-
sponsored with Ranking Member McNerney.
    H.R. 5881 the Access to Veterans Benefits Improvement Act, provides 
certain local government employees, and certain employees of Congress 
access to case tracking information through the Department of Veterans' 
Affairs.
    We have a responsibility to serve our veterans by ensuring that 
every effort is made to simplify the claims process. Key actors in this 
effort are county veteran service officers, whose expertise in claim 
development benefits veterans in many communities across America. Their 
assistance is especially critical to many thousands of veterans who 
live in rural areas, hours away from a VA regional office.
    Many veterans are overwhelmed as they try to navigate their way 
through the claims process, and they are further frustrated when they 
ask for help from their county VSO, or their member of Congress, and 
that person cannot access even the most basic information about the 
status of their claim.
    This bill would allow these local government officials to check on 
the status of a veterans claim, and ensure that VA has all of the 
information needed to process claims in the most efficient manner 
possible.
    H.R. 5880, The Disability Examination Improvement Act, extends the 
authority of the Secretary of Veterans Affairs to enter into contracts 
with private physicians to conduct medical disability examinations.
    With the passage of this bill, this successful program allowing 
physicians outside of VA to conduct contract examinations would 
continue. This would allow VA to more quickly evaluate veterans 
disabilities, and facilitate access to the care they need.
    I also co-sponsored H.R. 4299 with Ranking Member McNerney. The 
Quality Housing for Veterans Act, amends title 38, United States Code, 
to extend the authority of the Secretary of Veterans Affairs to provide 
specially adapted housing assistance to veterans who are residing 
temporarily in housing owned by a family member.
    Our disabled heroes face many challenges as they adapt to their new 
lives after service, but maneuvering their way through their place of 
residence should not be one of them.
    Furthermore, many veterans have found that living in an environment 
in which they are surrounded by the care and support of family is a 
critical component of their successful recovery.
    This bill will ensure that our disabled veterans can live in 
housing that is adapted to their needs, whether they choose to live 
with family or elsewhere, better equipping them to return to the 
civilian world and move forward with their lives.
    We also will be discussing the following bills:

    H.R. 2355, the Hallowed Grounds Act, which would prohibit the 
burial of certain categories of sex offenders in national cemeteries;
    H.R. 2996, The Gulf War Presumptive Illness Extension Act, which 
would change the date by which veterans must present symptoms of 
illnesses covered under the service-connected presumption from December 
31st, 2016 to December 31st, 2018;
    H.R. 5735, which would provide a tomb of remembrance at Arlington 
National Cemetery, for the purpose of proper interment of remain 
fragments of our deceased heroes, which are otherwise unidentifiable or 
unclaimed.
    And finally, H.R. 2720 which would clarify the role of the 
Department of Veterans Affairs in providing a benefit or service-
related to the interment or funeral of a veteran, and for other 
purposes.
    Again, in the interest of time, I would like to reiterate my 
request that today's witnesses abide by the decorum and rules of this 
hearing and to summarize your statement to five minutes or less during 
oral testimony. We have a large number of individuals ready to testify 
on legislation today, and I want to make sure everyone is heard in a 
timely manner. I would also remind all present that, without any 
objection, your written testimony will be made part of the hearing 
record.
    I appreciate everyone's attendance at this hearing and I would now 
call on the Ranking Member for his opening statement.

                                 <F-dash>
              Prepared Statement of Hon. Jerry McNerney, 
                       Ranking Democratic Member
    Thank you Mr. Chairman.
    Today, we have a full schedule that includes seven bills before us 
that address some of the unique needs of our Nation's veterans' 
population. The bills pertain to a variety of issues ranging from 
burial eligibility to monuments, from claims processing and C&P exams 
to presumptive illnesses, and from adaptive housing benefits to freedom 
of speech issues.
    H.R. 2996, the Gulf War Syndrome `Presumptive Illness' Extension 
Act of 2011, sponsored by Mr. Kissell of North Carolina, would extend 
the period of time in which the VA presumes the service-connection of 
certain disabilities of veterans who served in the Persian Gulf War, as 
well as Operation Enduring Freedom, Operation Iraqi Freedom, Operation 
New Dawn, and Afghanistan.
    The regulation establishing the period of time that the VA has for 
identifying presumptive illnesses related to certain veterans' military 
service will now expire on December 31, 2016 thanks to VA's recent 
rulemaking. H.R. 2996 would extend this period to December 2018, which 
would allow these veterans to file for a set of conditions that may 
arise years after their service, as we have seen in veterans following 
the Vietnam War. This bill would also extend the qualifying service 
area to include Afghanistan and other supporting areas for Operations 
Enduring Freedom, Iraqi Freedom, and New Dawn.
    I understand that VA opposes these expansions but I think we need 
to look at whether expanding to these areas makes sense. I think H.R. 
2996 reinforces Congress's intent that all veterans who serve in these 
combat areas and those serving in nearby areas should be entitled to 
these presumptions as we await further scientific study on their 
illnesses.
    Also, included in today's hearing is H.R. 4299, the Quality Housing 
for Veterans Act, a bill which I introduced. This bill seeks to provide 
specially adapted housing assistance to veterans residing temporarily 
in housing owned by a family caregiver.
    According to the Department of Defense, more than 48,000 
servicemembers have been wounded in action while serving in the recent 
conflicts. In caring for our injured men and women in uniform, we must 
continue to address their needs so they may live as independently and 
comfortably as possible after their honorable military service. 
Currently, the Temporary Residence Adaptation Grant is available to 
eligible veterans temporarily residing in a home owned by a family 
member, but this benefit is set to expire at the end of 2012.
    I look forward to working with you, Mr. Chairman, Members of this 
Subcommittee and the other stakeholders to ensure that our most 
critically wounded servicemembers and veterans are provided adequate 
housing benefits and that this program will be extended until 2014.
    Mr. Chairman we have several other bills on the agenda today, 
including H.R. 5880 and H.R. 5881. While I support the bill, H.R. 5880, 
which would extend VA's contract authority with private providers of 
C&P exams, I want to ensure that we remain vigilant in our oversight of 
this authority.
    Your other bill, Mr. Chairman, H.R. 5881, would grant county 
veteran service officers, other State and local employees as well as 
staff of Members of Congress with greater access to veterans' claims 
information for tracking purposes. I wholeheartedly support the mission 
of this bill and our county veterans service officers, who serve my 
constituents back home. I look forward to hearing from our witnesses 
today about the benefits of this bill and how we may improve upon it to 
avoid the privacy and security concerns voiced in the past by VA and 
currently by the VSOs.
    I also look forward to hearing from our stakeholders on the 
potential impact that H.R. 2720 and H.R. 2355 will have on our Nation's 
veterans. Additionally, I wholeheartedly support the goals of H.R. 5735 
and hope we make any necessary changes to be able move this measure 
forward. Finally, I look forward to hearing VA's views on these.
    I thank all of the Members for their thoughtful legislation. And, I 
thank our other esteemed witnesses for joining us today and look 
forward to receiving their testimonies.
    Thank you and I yield back.

                                 <F-dash>
            Prepared Statement of Hon. Steve Stivers (OH-15)
    I want to thank Chairman Runyan for holding this important 
legislative hearing today on my legislation, the Place of Remembrance 
Act. The measure before the committee today would create a Place of 
Remembrance at the Arlington National Cemetery for Iraq and Afghanistan 
conflicts and all wars and contingency operations moving forward.
    I have served over 26 years in the Ohio Army National Guard and 
have been honored to serve with so many brave men and women over the 
years. Our service members and veterans have protected the United 
States at immense personal cost to themselves and their families - and 
at times pay the ultimate sacrifice with their lives to defend our 
nation and its ideals of democracy and freedom. They and their families 
deserve our respect and our gratitude, and we owe a debt to them for 
their service.
    As a Member of Congress and service member I was as shocked and 
horrified as everyone else by the stories late last year on the Dover 
Air Force Base mortuary sending veterans' remains to the Prince 
George's County landfill. The Washington Post in an article from 
December 7, 2011 uncovered that ``976 fragments from 274 military 
personnel were cremated, incinerated and taken to the landfill between 
2004 and 2008.''
    This is an outrage, a terrible injustice to our service members and 
their families, and should not be allowed to stand. The first step to 
address this issue is creating a proper memorial for these particular 
remains of those who served, so a travesty like this can never occur 
again.
    I understand that the Department of Defense (DoD) has instituted a 
new policy to continue to cremate these fragmented remains and spread 
the service member's ashes at sea. However, while this may be 
satisfactory to those in the Navy and Marines, as a member of the Army 
- I believe some soldiers and their families would like a different 
solution for their loved one.
    That is why on May 10, 2012, I introduced H.R. 5735 that authorizes 
the Secretary of the Army to establish at an appropriate location in 
Arlington National Cemetery - a Place of Remembrance for the interment 
of cremated fragments. Remains from members of the Armed Forces that 
are unidentifiable by DNA or are unclaimed after a reasonable period of 
time could be interred at the Place of Remembrance.
    I understand and appreciate the significance of the Tomb of Unknown 
Soldiers for our previous generations of veterans. This legislation is 
not intended to overshadow or detracts from this time honored memorial. 
This will allow a new and future generation of our heroes, families and 
the public to come to Arlington Cemetery to honor these patriots.
    Those who gave the final measure in their service to our great 
nation deserve a final resting place worthy of their dedication, 
commitment and devotion.
    Again, I appreciate the Chairman for allowing me to testify today 
and holding this hearing.

                                 <F-dash>
              Prepared Statement of Vicky Hartzler (MO-04)
Executive Summary
    H.R.2355, the Hallowed Grounds Act will prohibit an individual who 
is classified as a Tier III sex offender under the Sex Offender 
Registration and Notification Act from being buried at a veteran's or 
national cemetery.
    Under current law, military veterans are entitled to burial in a 
veteran's or national cemetery and to the receipt of honorary 
emoluments including a military honor guard, a U.S. flag, and a 
certificate from the President. These honors rightly honor the 
Americans who have given of themselves so all in our nation can live in 
safety and peace. However, there is a noteworthy exception.
    Following the Oklahoma City bombing by Timothy McVeigh, Congress 
passed and President Clinton signed S.923 on November 21, 1997 which 
prohibits veterans convicted of a capital crime, such as murder and 
treason, from receiving military honors. Prior to this legislation, 
McVeigh, a veteran of the first Gulf War, would have been eligible to 
be buried in a national cemetery such as Arlington National Cemetery. 
While veterans guilty of capital crimes justly have been denied the 
right to rest among our national heroes under S.923, veterans convicted 
of sexual abuse of children still remain entitled to these honors.
    Current law affording military honors to veterans convicted of 
sexual abuse is an affront to decency and results in victims and their 
families being victimized all over again. It demeans the honor of all 
those who have served this nation to allow a child abuser to be buried 
alongside America's war heroes in a veteran's cemetery. Because I 
believe that no victim of sexual abuse should suffer the pain of 
knowing their abuser has received the honor befitting one who 
selflessly served others, I introduced the Hallowed Grounds Act.
    The Sex Offender Registration and Notification Act divides offenses 
into three tiers and has various levels within those tiers. The most 
serious offenses are grouped in Tier III. These individuals have 
committed horrendous crimes against children, accompanied by brutality 
and violence. These offenders behave in a manner that violates 
everything for which a soldier in our country fights--justice, the rule 
of law, and the safety of our citizens. I believe these offenders have 
surrendered their right to be honored by victimizing and oppressing 
others.

                                 <F-dash>
            Prepared Statement of Hon. Larry Kissell (NC-08)
    As the son of a World War II veteran, I hold the deepest respect 
for the sacrifice and dedication of the men and women who wear our 
country's uniform. Before serving as Postmaster in my hometown of 
Biscoe, my father served in the ``Old Hickory'' division, landing at 
Normandy and continuing on across Europe, pushing back Hitler's forces 
at the Battle of the Bulge. When folks stand up and wear our flag, in 
combat or in peacetime, they deserve the honor and respect that they 
themselves hold for our nation. My district is home to almost 100,000 
veterans and active duty military members. Their safety, well-being and 
continued care are of great concern to me, and the focus of my work on 
the House Armed Services Committee.
     In 2011, the Veteran's Administration considered and almost ended 
the review period regarding Gulf War illnesses. As many of you may 
know, Gulf War veterans continue to develop often unexplained illnesses 
long after their military service to our nation ends. The VA has set a 
December 31, 2016 deadline for the time in which ``unidentified 
presumptive illnesses'' can surface that can be attributed to their 
duty serving in the Gulf War. Twenty-two years after the start of the 
war, many of these illnesses, symptoms, and causes still remain 
unknown. Even to this very day, our Vietnam-era Veterans continue to 
experience unexplained sickness and declining health. Some of these 
Veterans served more than four decades ago, yet we're still fighting to 
give them the care they so much deserve--including working to further 
expand coverage for Agent Orange exposure and equally recognizing all 
of our air, land and sea units for their sacrifices.
    Illnesses do not recognize government statutes or regulatory time 
tables. Therefore, to help allow for additional review time, I have 
introduced the Gulf War Syndrome Presumptive Illness Extension Act of 
2011, legislation to reinstate this review period for an additional 2 
years, until December 31, 2018. Let's ensure that every single 
consideration and element is considered. We need these additional 2 
years because we cannot fully and immediately determine what illnesses 
may arise over time from all that our soldiers have endured. Our 
government exists today because of the sacrifices of those who came 
before us, and I don't believe it is right to arbitrarily limit the 
care of those who have made our freedom possible.

                                 <F-dash>
           Prepared Statement of Hon. John Culberson (TX-07)
    Statement of the Honorable John Culberson in support of HR 2720
    The Houston National Cemetery holds an annual Memorial Day ceremony 
to honor the service and sacrifice of our fallen soldiers. During last 
year's ceremony a pastor from the Living Word Church of the Nazarene in 
Houston, Texas, was invited to give the prayer. Prior to the service, 
the cemetery director, Ms. Arlene Ocasio, requested that the prayer be 
submitted to her for pre-approval. It included the Lord's Prayer and 
closed by stating: ``in the name of Jesus.'' Ms. Ocasio asked the 
pastor to remove this language because the prayer was written 
``specific to one belief'' and ``on Memorial Day we will be 
commemorating veterans from all cultures and religious beliefs.'' 
Therefore, ``the tone of all messages must be inclusive of all beliefs, 
needs to be general, and its fundamental purpose should be . . . 
nondenominational in nature.'' The pastor had said a prayer at this 
same ceremony in both 2009 and 2010 and had not been subjected to such 
religious censorship then.
    Following this event, I began receiving reports from my 
constituents and members of veteran's organizations concerning 
additional and deliberate acts of religious censorship at the cemetery. 
Censorship escalated to such a point that Veteran Service Organizations 
(VSOs) filed a lawsuit against the Department of Veterans Affairs (VA). 
They reported that Ms. Ocasio prohibited VSOs from including prayer or 
religious speech in funeral rituals unless families submitted the 
prayer or religious speech in writing to her prior to the committal 
services. Also under Ms. Ocasio's direction, the cemetery chapel was 
closed and used for storage and the carillon bells were no longer being 
used. When questioned about these actions, Ms. Ocasio stated that she 
was simply enforcing existing VA policy for funeral services. After 
personally investigating their claims, I introduced H.R. 2720 to 
clarify the role of the VA in providing funeral services for veterans. 
Limiting the free speech of any American is outrageous and 
unconstitutional, but it is especially offensive to restrict the First 
Amendment rights of veterans when they have fought and sacrificed to 
defend those rights.
    I personally wrote to VA Secretary Shinseki to express my outrage 
with the events and demanded that the VA remedy this problem 
immediately. Additionally, I, along with 27 other members of Congress, 
wrote a separate letter to Secretary Shinseki requesting the removal of 
the Houston National Cemetery Director, Ms. Arlene Ocasio. Under her 
direction, the cemetery restricted the free speech of patriotic members 
of VSOs as they joined in mourning the loss of the service members. We 
also requested assurance that the cemetery chapel remain open 
permanently and that any religious objects or symbols that were removed 
from the chapel be restored to their original location. Finally, we 
asked for her assurance that the chapel's carillon remain in operation, 
fulfilling its original purpose.
    On July 8, 2011 I personally attended a funeral service at the 
cemetery and was horrified to witness the censorship firsthand. Members 
of the honor guard from the Veterans of Foreign Wars (VFW) were there 
performing the funeral ritual. Cemetery officials instructed the 
commander of the honor guard to confront a grieving widow as she 
approached her husband's grave site to reconfirm that she wanted the 
word God mentioned during the service. He quite correctly said, as a 
Texan and a man of honor and integrity, ``I'm not bothering that poor 
woman at this most terrible time of her life. We're going to do the 
ritual.'' Right in front of me, VA officials deliberately attempted to 
prevent the VFW from doing their magnificent, spiritual ritual over the 
grave of this fallen hero.
    Ms. Ocasio denied these allegations and said she told the VA 
Voluntary Services trainees that they needed to ensure that their 
military funeral honors were reflective of the desires of the families 
of the veterans being honored, that there is no ``do over'' for a 
committal service, and that no veteran's family should ever leave 
offended or unhappy with the services provided by the cemetery staff or 
the registered VA volunteers. I agree that there is no ``do over'' for 
a committal service, which is why I strongly believe that a veteran's 
family should have the freedom to choose the language of the funeral 
ritual. The family should also have the opportunity to hear from the 
VSOs as to what ritual options are available so that they can 
knowledgably choose what is best for them.
    The VA has repeatedly declared that they did nothing wrong. In 
fact, the VA Deputy General Counsel, John H. (Jack) Thompson, in a 
letter to the Liberty Institute, wrote that directors of national 
cemeteries can apply whatever limitations they deem reasonable. VA 
officials strongly denied they banned any religious speech and offered 
support for Ms. Ocasio. I vehemently disagree. I fail to understand how 
this could possibly be the correct interpretation of VA policy when the 
issues at Houston National Cemetery did not arise at any other veteran 
cemetery in the country. No individual or government agency has the 
authority to restrict the constitutional rights of American citizens.
    In September 2011, the lawsuit was mediated between the VSOs and 
the VA. Ms. Ocasio has since been removed as cemetery director. 
However, this does not make up for the pain, suffering and religious 
censorship the families endured during Ms. Ocasio's tenure. It is 
deeply disappointing that it took a lawsuit and congressional action to 
force the VA to do the right thing. H.R. 2720 ensures that no veteran 
or veteran's family will ever suffer such religious censorship at the 
behest of our federal government again.
    This bill prohibits the federal government from interfering with 
the content of funeral services. It will require that any new VA 
Cemetery Director is a veteran and can therefore relate to the 
circumstances of those interred there. It will limit the role of the VA 
to provide only services that are supportive of veteran burials and 
removes the risk of religious censorship. It will also require the VA 
to ensure that a chapel is provided at the cemetery and accessible to 
the deceased family and that any requested honor guard or other 
nongovernmental group is provided access. I urge your support of H.R. 
2720, a bill to clarify the role of the Department of Veterans Affairs 
in providing a benefit or service related to the interment or funeral 
of a veteran.
Executive Summary
    Executive Summary of the Honorable John Culberson's Statement in 
support of HR 2720
    In the summer of 2011 I began receiving reports from my 
constituents and members of Veterans Services Organizations (VSOs) 
concerning religious censorship at the Houston National Cemetery. 
Censorship escalated to such a point that a lawsuit was filed against 
the Department of Veterans Affairs (VA). Ms. Arlene Ocasio, the 
cemetery's director, had prohibited VSOs from including prayer or 
religious speech in funeral rituals unless families submitted the 
prayer or religious speech in writing to her prior to the committal 
services. Also under Ms. Ocasio's direction, the cemetery chapel was 
closed and used for storage.
    I personally wrote to VA Secretary Shinseki to express my outrage 
with the events and demanded that the VA remedy this problem 
immediately. Additionally, I, along with 27 other members of Congress, 
wrote a separate letter to Secretary Shinseki requesting the removal of 
Ms. Ocasio and assurance that the cemetery chapel remain open 
permanently.
    On July 8, 2011 I personally attended a funeral service at the 
cemetery and was horrified to witness the censorship firsthand. Members 
of the honor guard from the Veterans of Foreign Wars were there 
performing the funeral ritual. Cemetery officials instructed the 
commander of the honor guard to confront a grieving widow as she 
approached her husband's grave site to reconfirm that she wanted the 
word God mentioned during the service. He quite correctly said, as a 
Texan and a man of honor and integrity, ``I'm not bothering that poor 
woman at this most terrible time of her life. We're going to do the 
ritual.'' Right in front of me, VA officials deliberately attempted to 
prevent the VFW from doing their magnificent, spiritual ritual over the 
grave of this fallen hero.
    The VA has repeatedly declared that they did nothing wrong. In 
fact, the VA Deputy General Counsel, John H. (Jack) Thompson, in a 
letter to the Liberty Institute, wrote that directors of national 
cemeteries can apply whatever limitations they deem reasonable. VA 
officials strongly denied they banned any religious speech and offered 
support for Ms. Ocasio. I vehemently disagree. I fail to understand how 
this could possibly be the correct interpretation of VA policy when the 
issues at Houston National Cemetery did not arise at any other veteran 
cemetery in the country. No individual or government agency has the 
authority to restrict the constitutional rights of American citizens.
    In September 2011, the lawsuit was mediated and Ms. Ocasio has 
since been removed as cemetery director. However, this does not make up 
for the pain, suffering and religious censorship the families endured 
during Ms. Ocasio's tenure. It is deeply disappointing that it took a 
lawsuit and congressional action to force the VA to do the right thing. 
H.R. 2720 ensures that no veteran or veteran's family will ever suffer 
such religious censorship at the behest of our federal government 
again. Limiting the free speech of any American is outrageous and 
unconstitutional, but it is especially offensive to restrict the First 
Amendment rights of veterans when they have fought and sacrificed to 
defend those rights.
    This bill prohibits the federal government from interfering with 
the content of funeral services. It will require that any new VA 
Cemetery Director is a veteran and can therefore relate to the 
circumstances of those interred there. It will limit the role of the VA 
to provide only services that are supportive of veteran burials and 
removes the risk of religious censorship. It will also require the VA 
to ensure that a chapel is provided at the cemetery and accessible to 
the deceased family and that any requested honor guard or other 
nongovernmental group is provided access. I urge your support of H.R. 
2720, a bill to clarify the role of the Department of Veterans Affairs 
in providing a benefit or service related to the interment or funeral 
of a veteran.

                                 <F-dash>
                Prepared Statement of Raymond C. Kelley
    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    On behalf of the more than 2 million men and women of the Veterans 
of Foreign Wars of the United States (VFW) and our Auxiliaries, I would 
like to thank you for the opportunity to testify on today's pending 
legislation.
H.R. 2355, Hallowed Grounds Act:
    In 1997, Congress recognized that veterans convicted of the most 
violent of crimes should lose their right to interment in national 
cemeteries. The logic was capital crime cases should trump veterans' 
burial benefits that were granted to them for their service to our 
nation. Burial in a national cemetery is a privilege - a place where 
service and sacrifice can be honored by the American public on scared 
ground. The most violent and reprehensible crimes break faith with 
society and our service members and veterans who have been laid to rest 
in our national cemeteries. That is why the VFW agrees with denying 
burial to veterans convicted of capital crimes. It is also our belief 
that the most predatory and violent sex offenses should be added to the 
list of crimes that preclude veterans from interment. The VFW fully 
supports H.R. 2355, which will exclude tier III sex offenders from 
burial in our veterans' cemeteries.
H.R. 2996, Gulf War Syndrome ``Presumptive Illness'' Extension Act of 
        2011:
    Despite decades of research into the causes of Gulf War Illness, we 
do not yet have definitive answers on the cause or causes of these 
conditions. Though some encouraging research is showing signs of hope, 
it is imperative that treatment for the men and women with illnesses 
related to their Gulf War service continue without interruption. Even 
as we make investments in medical research to improve our diagnoses and 
treatment options as we move forward, we have to do all we can to care 
for these men and women using the best options currently available.
    This legislation also provides presumption for veterans of 
Operation Iraqi Freedom, Operation Enduring Freedom, and Operation New 
Dawn who may be struggling with conditions that VA cannot diagnose - a 
provision that VFW strongly supports. Granting presumption for 
undiagnosed illnesses is critically important to ensuring that these 
veterans receive the care they have earned, while science catches up 
with these illnesses. We hope the committee will pass this bill without 
delay.
H.R. 4299, Quality Housing for Veterans Act:
    The VFW supports the reauthorization of this critical benefit. 
Through VA's adaptive housing grant program, hundreds of our most 
severely injured veterans have been given an opportunity to ease back 
into civilian life, while gaining some sense of independence as they 
recuperate under the care of a family member without making them choose 
between current and future needs. With the ongoing war, it is important 
to continue providing a benefit that significantly improves the lives 
of our severely injured veterans. By extending the grant program 
through December 31, 2014, you will increase the flexibility of the 
benefit while making a difference in the quality of life for many 
disabled veterans and their families.
H.R. 5735, providing for the establishment of a Tomb of Remembrance at 
        Arlington National Cemetery:
    The VFW supports H.R. 5735, which would ensure fragmented remains 
of American service members killed in Iraq, Afghanistan or any 
subsequent conflict will be treated with the dignity and honor worthy 
of their sacrifices. The VFW was an outspoken critic on the issue of 
improper remains disposal from Dover Air Base last year, which is why 
we will work to ensure that our fallen heroes' remains are properly 
handled when either fragments cannot be identified through DNA testing, 
when remains go unclaimed, or when grieving families request ``No 
Further Pursuit'' after burying their loved ones. Never again should a 
family be left to wonder whether their fallen hero's remains ended up 
in a landfill. We as a nation owe a debt of gratitude to the men and 
women who lay down their lives in defense of our nation, and we know 
this bill will set a new standard for honoring the sacrifices of the 
fallen by memorializing these brave men and women on the sacred grounds 
of Arlington National Cemetery.
H.R. 5880, Veterans Disability Examination Access Improvement Act:
    In 2003, Congress gave VA the authority to contract with non-VA 
doctors to perform disability examinations. The authority was extended 
again in 2009. This has been a useful tool for VA to provide timely 
evaluation exams without taking VA doctors away from direct patient 
care. In December of this year this authority will expire. Allowing 
this provision to end would put added strain on VA's medical staff and 
reduce accessibility for our veterans. The VFW strongly supports this 
legislation and asks for its quick passage.
H.R. 5881, Access to Veterans Benefits Improvement Act:
    The VFW cautiously supports this legislative proposal, which would 
grant certain congressional staff members and local governmental agency 
employees access to VA's case-tracking information. However, we have 
some concerns. There is no provision that will ensure these employees 
are properly trained in privacy issues, nor is there any oversight or 
reporting back to VA on who has access and what prompted the employee 
to look into a particular case. This provision will greatly improve the 
responsiveness to veterans' requests and it should be pursued, but 
assurances must be made to protect privacy and limit searches to only 
those who make formal requests.
    Also, state and county service officers currently have access to 
case-tracking information by virtue of a power of attorney (POA). The 
VFW believes it would be wise to continue to limit these employees' 
access to only veterans for whom they hold a POA. Again, case-tracking 
information is private information and every effort should be made to 
protect that privacy.
H.R. 2720, to clarify the role of the Department of Veterans Affairs in 
        providing a benefit or service related to the interment or 
        funeral of a veteran, and for other purposes:
    The VFW supports the intent of H.R. 2720. It will provide clarity 
for both National Cemetery Administration (NCA) staff, and families and 
estates of deceased veterans on what is statutorily available and 
allowable at NCA funerals, memorial services and ceremonies. This 
legislation will give clear guidelines for VA employees to follow and 
provide peace-of-mind for veterans' families who are planning funeral 
arrangements.
    The VFW agrees that every effort and preference should be made to 
ensure VA cemetery directors are veterans, but requiring veteran status 
to fill vacancies could keep VA from filling positions, which could 
have a greater adverse effect on cemetery operations than hiring a non-
veteran.
    Mr. Chairman, this concludes my testimony and I will be happy to 
answer any question you, or the Committee may have.
 Information Required by Rule XI2(g)(4) of the House of Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, VFW has 
not received any federal grants in Fiscal Year 2012, nor has it 
received any federal grants in the two previous Fiscal Years.

                                 <F-dash>
                  Prepared Statement of James P. Young
    Good morning Mr. Chairman, members of the committee, and staff, it 
is truly my honor to be here for this hearing. As President of the 
National Association of County Veterans Service Officers, I am here 
today, to comment on the:
    4 The proposed bill to grant access of Veterans Administration 
information to Governmental Veterans Service Officers
    The National Association of County Veterans Service Officers is an 
organization made up of local government employees. Local government 
employees that believe we can help the Department of Veterans Affairs 
reduce the number of backlogged benefits claims that veterans are 
currently waiting to have adjudicated by the Department of Veterans 
Affairs.
    Our members work in local government offices, an ``arm of 
government'' if you will, in 37 States and currently are comprised of 
2,400 full time employees in 700 communities. We are not like the 
Veterans Service Organizations. We are not dues driven or membership 
driven. Every veteran, their dependents and their survivors who live in 
our respective jurisdictions are all our clients. We serve them at no 
cost to the client. We are equipped to handle and ready to assist 
veterans one on one, with every Department of Veterans Affairs benefit, 
state and local benefits, and the reason we are here today, to assist 
them in tracking their claim.
    There are over 22 million honorably discharged veterans of the 
armed forces of the United States. During the course of their life 
after the military they may have occasion to file a benefits claim for 
pension or compensation. Most veterans are not members of a Veterans 
Service Organization, but chances are that they live within one of our 
communities served by a State, County or City Veterans Service Officer. 
To the citizens of our communities, we are the Veterans Administration.
    The main issue we are here to talk about today is the lack of 
cooperation by the Department of Veterans Affairs in recognizing our 
members as an arm of government. We are treated as if we are a Veterans 
Service Organization rather than what we are. As governmental employees 
we are not unlike the VA itself. There is just a failure to recognize 
us in that light.
    Let's say that a veteran comes into my office to file a claim for a 
knee injury that occurred while the veteran was on active duty in the 
Army. We first have to determine eligibility based on war time/peace 
time service and a number of factors established by the VA. Let's say 
this veteran appears to be eligible. We then put together a claim for 
compensation, gather up medical evidence, service medical records, 
service records, buddy statements, and other pertinent information and 
submit the claim to one of a number of Veterans Service Organizations. 
We help the veteran select a Veterans Service Organizations to 
represent the veteran through a Power of Attorney. This is done so that 
the veteran may have representation at the VA Regional Office and for 
any subsequent appeals that may occur. Our local Governmental Veterans 
Service Officers may hold the Power of Attorney but many are just too 
far away from the Regional Offices to adequately represent their 
client.
    Then after about 3 months the veteran comes back into my office and 
asks what the status of his claim is as he has heard nothing. I have no 
way to gain this knowledge even though the claim originated in my 
office. I have to refer him to the VA's 1-800 number and hope he can 
ask the right questions or to the Veterans Service Organization who 
holds his Power of Attorney and who he does not know and probably won't 
call. Hopefully he won't go to another jurisdiction and file another 
claim which adds to the backlog.
    What we are asking in this bill under consideration is to allow the 
Governmental Veterans Service Officers to have ``read only'' access to 
their client's information. This will allow the local Governmental 
Veterans Service Officer to properly track and provide follow-up for 
their clients. Sometimes a veteran will file an appeal on a denied 
claim and go to another Veterans Service Officer in another 
jurisdiction and file another claim for the same thing. This ultimately 
adds to the backlog and unnecessarily bogs down the system. If enacted, 
this bill will avoid duplication of claims which in turn, will assist 
in reducing the current backlog of claims.
    We know there is much consternation on the part of the Veterans 
Administration regarding this issue. They have had some problems, in 
the past, in keeping secure, that information that veterans must give 
to the government to obtain the benefits that they earned. We 
understand this and are held to the same standards as the VA already. 
Remember that a majority of claims for compensation and pension 
originate in local Governmental Veterans Service Offices. We are 
required to keep secure that information that we supplied to the 
Veterans Service Organization and ultimately to the Veterans 
Administration. As a prerequisite to receive access to the VA 
databases, the government employee must be accredited with the Veterans 
Administration, must have attended and successfully completed Training, 
Responsibility, Involvement and Preparation of Claims (TRIP) training 
and must have had a background check performed on them as a condition 
of employment.
    There has been much cooperation between the Federal, State and 
Local Government over many years. There are cooperative Memorandums of 
Understanding (MOU) the Department of Agriculture, Department of 
Justice and other Federal arms of government routinely sign every year. 
The United States Forest Service cooperatively works with local 
jurisdictions to safeguard the resources on the National Forest. The 
FBI and Homeland Security work closely with local law enforcement 
jurisdictions in an effort to safeguard local residents. A local law 
enforcement officer can run a records check on a subject and get most 
everything the FBI has on the subject in a few minutes. There are 
safeguards in place to make sure the information is not released 
improperly and it works very well. If the FBI treated local law 
enforcement like the VA treats our members there would be anarchy in 
the streets.
    In this day and age of our great nation it is unthinkable that a 
young man or woman enters the military service, serves honorably and 
upon discharge finds difficulties in obtaining the rights and benefits 
that they earned through service and sacrifice. It is our 
responsibility, the people of the United States, to live up to that 
promise of a better and brighter future. That promise that includes a 
myriad of veterans benefits should the service member becomes injured 
in defense of freedom; but also an underlying promise that says that if 
you serve your country with honor your country will be there to serve 
you, not with a hand out, but a hand up. Together we must develop a 
mechanism for solutions, so that veterans are able to return and find 
their part of the American Dream.
    The National Association of County Veterans Service Officers has 
been in existence since 1990, primarily as a vehicle to provide 
continuing education and accreditation training in Department of 
Veterans Affairs' procedures and regulations governing veterans' 
benefits. The Association provides basic and advanced training for 
County Veterans Service Offices and also serves as a vehicle for them 
to obtain national accreditation with the Department of Veterans 
Affairs.
    The National Association of County Veterans Service Officers is 
grateful for this opportunity to testify to this Committee. If we work 
together, I believe that we can reverse the growing backlog of veterans 
benefit claims and get our heroes what they earned and truly deserve.
    In Closing, the National Association of County Veterans Service 
Officers recommends that this committee move this bill along in the 
legislative process. We believe that this bill has the potential to 
make a significant difference in the lives of returning veterans and 
will afford them a better opportunity to obtain their earned benefits. 
Thank you for your time and attention.
Executive Summary
    RECOMMENDATIONS:

    That the full House Veterans Affairs Committee hold hearings on a 
proposed bill to grant Governmental Veterans Service Officers limited 
access to Department of Veterans Affairs data bases.
    That the House Veterans Affairs Committee enact legislation to 
grant Governmental Veterans Service Officers limited access to 
Department of Veterans Affairs data bases.
    This is a no cost issue for congress. The National Association of 
County Veterans Service Officers is an organization made up of local 
government employees. Local government employees that believe we can 
help the Department of Veterans Affairs reduce the number of backlogged 
benefits claims that veterans are currently waiting to have adjudicated 
by the Department of Veterans Affairs.
    Our members work in local government offices, an ``arm of 
government'' if you will, in 37 States and currently are comprised of 
2,400 full time employees in 700 communities. We are not like the 
Veterans Service Organizations. We are not dues driven or membership 
driven. Every veteran, their dependents and their survivors who live in 
our respective jurisdictions are all our clients. We serve them at no 
cost to the client. We are equipped to handle and ready to assist 
veterans one on one, with every Department of Veterans Affairs benefit, 
state and local benefits, and the reason we are here today, to assist 
them in tracking their claim.
    What we are asking in this bill under consideration is to allow the 
Governmental Veterans Service Officers to have ``read only'' access to 
their client's information. This will allow the local Governmental 
Veterans Service Officer to properly track and provide follow-up for 
their clients. Sometimes a veteran will file an appeal on a denied 
claim and go to another Veterans Service Officer in another 
jurisdiction and file another claim for the same thing. This ultimately 
adds to the backlog and unnecessarily bogs down the system. If enacted, 
this bill will avoid duplication of claims which in turn, will assist 
in reducing the current backlog of claims.

                                 <F-dash>
                 Prepared Statement of Jeffrey C. Hall
    Chairman Runyan, Ranking Member McNerney and Members of the 
Subcommittee:
    Thank you for inviting the Disabled American Veterans (DAV) to 
testify at this legislative hearing of the Subcommittee on Disability 
Assistance and Memorial Affairs. As you know, DAV is a non-profit 
veterans service organization comprised of 1.2 million wartime service-
disabled veterans focused on building better lives for America's 
disabled veterans and their families. DAV is pleased to be here today 
to present our views on the bills under consideration by the 
Subcommittee.
                               H.R. 2996
    H.R. 2996, the Gulf War Presumptive Illness Extension Act of 2011, 
would extend the period of time through December 31, 2018, in which the 
Secretary of Veterans Affairs presumes the service connection of 
certain disabilities of veterans who served in the Persian Gulf War, 
Operation Enduring Freedom, Operation Iraqi Freedom, or Operation New 
Dawn. Countless veterans who have served in Southwest Asia since the 
first deployment of the Gulf War in 1990 still suffer from chronic 
unexplained illnesses. The numerous symptoms experienced by these 
veterans still are not understood, answers remain elusive, and 
significant research is still needed. Extending this presumptive period 
would allow for continued research for all who have and are still 
serving in Southwest Asia. VA must be vigilant in their research and 
treatment and Congress must not waiver in their oversight to ensure 
these men and women are being cared for and compensated for their 
illnesses. Therefore, H.R. 2996 being consistent with our longstanding 
resolution, DAV supports this bill.
                               H.R. 4299
    H.R. 4299, the Quality Housing for Veterans Act, would extend the 
authority of the Secretary of Veterans Affairs through December 31, 
2014, to provide specially adapted housing assistance to individuals 
residing temporarily in housing owned by a family member. While DAV is 
supportive of extending this program, we believe the grant amount of 
$14,000 allowable for temporary residence adaptation (TRA) should be a 
stand-alone benefit. As our current resolution seeks, we believe this 
amount should not be deducted from the total amount of $60,000 allowed 
for a specially adapted housing (SAH) grant. Although we do not have 
the current statistics, we do know that in the four years following 
inception of the TRA grant program, less than 20 applications had been 
received by the Department of Veterans Affairs (VA). In our opinion, 
this number was extremely low due to the amount of the TRA grant being 
subtracted from the SAH grant. The intent of this benefit is to afford 
qualified, seriously disabled veterans the ability to make some 
modifications to a residence they reside in temporarily, such as their 
parents' home; however, as they move forward into their own residence 
requiring adaptations they should not have less than the maximum 
benefit available to them to accomplish such.
                               H.R. 2355
    H.R. 2355, the Hallowed Grounds Act, would exclude individuals who 
have been convicted of committing certain sex offenses from receiving 
certain burial-related benefits and funeral honors that are otherwise 
available to certain veterans, members of the Armed Forces who served 
honorably, and related individuals. Specifically, this legislation 
would expand title 38, United States Code, section 2411(b), to include 
those who are tier III sex offenders under the Sex Offender 
Registration Notification Act. Being outside the scope of our mission, 
DAV has no resolution or position on this particular matter.
    Of concern, however, is the treatment to be accorded veteran status 
once earned through satisfactory fulfillment of service to the nation. 
Veteran status is a legal status, which, as a practical matter, is 
realized through the special rights created for veterans to enjoy as 
restitution for the sacrifices of military service. Almost without 
exception, this status, once accrued, is considered indefeasible. It is 
conferred by the completion and honorable character of the recipient's 
military service and is not conditioned upon subsequent conduct in 
civilian life. Logically, that is as it should be. Veterans should be 
secure in the knowledge that their veteran status, and benefits that 
flow therefrom, is vested and will not be held hostage to irrelevant, 
post-service factors. If veterans' rights are intended to remunerate 
for disabilities incurred, opportunities lost, extraordinary rigors 
suffered, or contributions made in connection with and during the time 
of military service, such rights should, like wages earned, not be 
withheld or recalled because of subsequent performance or unconnected 
actions or events, even when such actions or events are of a character 
that evoke very negative public sentiments. The special value of 
service to one's country and the integrity of veteran status would be 
defeated by departure from that tradition. Fidelity to this principle 
admits exceptions for only the most highly exceptional circumstances.
                               H.R. 5735
    H.R. 5735 would establish a Tomb of Remembrance at Arlington 
National Cemetery for interment of cremated fragments of the remains of 
members of the Armed Forces killed in Afghanistan, Iraq, or a 
subsequent conflict when the fragments are unidentifiable by use of DNA 
testing or other means, or are unclaimed, or are identified and 
authorized by the person designated to direct disposition of the 
remains for internment in such memorial. Although DAV has no resolution 
on this particular matter, we support the intent of this legislation to 
give proper respect and dignity to our servicemen and servicewomen in 
cases such as this and would not oppose passage of this legislation.
                               H.R. 2720
    H.R. 2720 would clarify the role of the VA in providing a benefit 
or service being related to the interment or funeral, memorial service, 
or ceremony of a deceased veteran. Additionally, this bill would 
require that each VA cemetery director be a veteran themselves, while 
also prohibiting officials of the Federal Government, including the 
Secretary of Veterans Affairs, from interfering with the content and 
creed of a funeral, memorial service, or ceremony of a deceased 
individual or veteran as expressed by the individual's last will and 
testament or as determined by the family or agent of such individual or 
veteran. Being outside the scope of our mission, DAV has no resolution 
or position regarding this matter.
                               H.R. 5880
    H.R. 5880, the Disability Examination Improvement Act, would extend 
the authority of the Secretary of Veterans Affairs through December 31, 
2017, to enter into contracts with private physicians to conduct 
medical disability examinations. Although DAV has no specific 
resolution on this particular matter, our resolution regarding 
reforming the VA's disability claims process provides a reasonable 
corollary for us to support the bill, as the utilization of privately 
contracted disability examinations is intended to improve the 
disability claims process.
                               H.R. 5881
    H.R. 5881, the Access to Veterans Benefits Improvement Act, would 
amend title 38, United States Code, to provide certain employees of 
Members of Congress and certain employees of local governmental 
agencies with access to case-tracking information of the VA. DAV 
supports the intent of the bill; however, we have concerns about the 
broad language, which would seemingly allow certain individuals to gain 
unrestricted access to veterans' claims information without 
accreditation or security permission. Clearly, the primary benefit in 
this legislation will be for authorized individuals to gain remote 
access to the VA's electronic database system for the single purpose of 
determining the status of a veteran's pending claim for benefits; 
however, Congress must consider making significant changes to the 
language to ensure a veteran's privacy and personal information is 
safeguarded from illegal or fraudulent activity.
    DAV National Service Officers (NSOs) are accredited by the VA and 
given access to veterans' records and computerized processing systems, 
but only for those in which we hold power of attorney. DAV NSOs 
regularly interact with certain local government employees, such as 
County Veterans Service Officers (CVSOs), who provide local assistance 
to veterans. When the assistance desired involves obtaining an update 
as to the status of a pending claim, CVSOs generally are not able to 
access the information and they must contact the accredited 
representative of record, such as a veterans service organization (VSO) 
to obtain a status of the pending claim, and then inform the veteran. 
If the veteran does not have an accredited representative, such as a 
VSO, the CVSO is very limited as to the information that may be 
accessed. Likewise, an accredited representative only has access to 
those cases for which they hold power of attorney.
    Allowing certain covered employees of Members of Congress or local 
government agencies to access the VA's case-tracking system to obtain a 
status of a claim submitted by a veteran without a properly executed 
power of attorney poses many serious questions. As a matter of privacy, 
veterans or other claimants must be protected from anyone without 
accreditation from being allowed to access VA's system and gain private 
information on the veteran or other claimant.
    This legislation sets out to amend title 38, United States Code, by 
adding a new subsection 5906, which, as written, would allow virtually 
any covered employee to gain access to any veteran's private 
information; far greater access than afforded to an accredited 
representative. First, the bill should contain the explicit language 
contained in title 5, United States Code, section 552a(b), requiring 
the covered employee to have the written permission of the veteran or 
claimant requesting assistance from the covered employee. Without such 
request and written permission, the covered employee has no proprietary 
reason to access any veteran's information.
    Secondly, before the covered employee is able to access the VA's 
system, he or she should be required to complete an electronic 
certification affirming that written consent from the veteran has been 
obtained to access the status of the veteran's pending claim. Thirdly, 
the access should be limited to only the status of a pending claim and 
the specific issues contained therein. Lastly, the bill should plainly 
set forth the penalties for any violations, such as accessing or 
attempting to access the status of any pending claim without the 
expressed written consent of the veteran or claimant.
    Moreover, we believe the bill should also contain an additional 
safeguard provision wherein the veteran or claimant is notified when 
his or her record is being accessed by a covered employee. This would 
further assure the veteran or claimant, especially those without 
representation, has authorized the covered employee to perform such 
action on their behalf and is aware when it is occurring. This would 
also alert VA when a covered employee is attempting to gain access 
without the express written consent of the veteran or claimant.
    Again, the intent of this bill is to help veterans by providing 
these covered employees limited access to VA's electronic database 
solely for the purpose of obtaining the status of a claim. DAV believes 
this could be very beneficial to the veteran or claimant, the covered 
employee, as well as our National Service Officers when DAV is the 
accredited representative of record. DAV simply wants to ensure that 
proper security measures are in place to protect the privacy of 
veterans and claimants. As such, without changes in the bill's 
language, DAV cannot offer our support for H.R. 5881. We feel the 
bill's current language is not explicit enough to ensure the privacy of 
a veteran or claimant is safeguarded; however, DAV would be pleased to 
work with the Subcommittee to make these necessary changes in the 
bill's language.
    Mr. Chairman, this concludes my testimony and I would be happy to 
answer any questions from you or members of the Subcommittee.

                                 <F-dash>
                    Prepared Statement of Debbie Lee
    Thank you for inviting me to speak today on behalf of our fallen 
warriors who gave up their lives and their voices defending you and I.
    The freedoms that you and I enjoy every single day and often take 
for granted are paid for by the brave men and women who for centuries 
have sacrificed greatly, many giving their very last breath defending 
America.
    There is a price for our freedom and our family knows it all too 
well.
    My son Marc Alan Lee was the first Navy SEAL killed in Iraq 8-2-06. 
Many of you may remember Ramadi, Iraq in 2006 was a bloody battlefield.
    The SEALs had been in an intense firefight in 120 degree 
temperatures for 2 hours. Four of the SEALs were on a rooftop when 
Marc's buddy Ryan was shot and had severe shrapnel injuries to his 
head. They could tell by looking at him it didn't look good.
    Two of the SEALs dropped to their knees to help Ryan. Marc made the 
choice to stand up into the direct line of fire laying down suppressive 
fire and hoping the enemy would be focused on him and the medic could 
sneak up to the roof.
    The medic got up on the roof and took one look at Ryan and said we 
have to get him down immediately or there was no chance for survival. 
So a second time Marc made the choice to stand up into the direct line 
of fire to provide cover so they could get down off of the roof.
    They all successfully got down off of the roof and Medevac'd Ryan 
out and climbed back into their Bradleys and headed back to the base, 
which later was named Camp Marc Lee in his memory.
    We have watched our Navy SEALs do some amazing things and at times 
they seem superhuman. Marc's final gift to me was his teammates and I 
know these young men well. I know they were exhausted emotionally and 
physically. As they started to take off their gear and get some water, 
the Chief came in and said ``We just found thirty of the insurgents who 
just attacked us.'' Without hesitation Marc said ``Roger that let's go 
get'em.''
    They headed back into Ramadi and cleared several houses. They went 
in to the last house Marc would be in and cleared the bottom of the 
house. They started to go up the steps when they heard Marc yell ``On 
me.'' The guys knew that meant Marc was going to take the lead. As they 
went up the steps they drew fire through a window and for the last and 
final time Marc made the choice to turn into the direct line of fire 
and gave his life so his teammates could live.
    Marc successfully completed his mission, and I know where he is and 
one day I will see him again. He laid down his boots, his weapon. He 
gave all of his tomorrows so that we could have today.
    In response to Marc's last letter home I founded America's Mighty 
Warriors and use my voice and have dedicated my life to honoring and 
supporting our troops and defending our defenders and taking care of 
our Gold Star families. They have given their very best to this nation. 
So today I speak on behalf of our fallen heroes and their families.
    When our loved ones signed to defend our country against enemies 
foreign and domestic they knew they could be giving their lives for 
this country and what they believed in. They fought honorably and nobly 
and I know that if you asked them if they were to die in combat their 
first request would be to take care of my family.
    As family members we entrusted our loved ones lives into the hands 
of our military and our government. We expect that, God forbid they 
didn't make it back to our arms, that as a nation we would respect and 
honor them every step of the way as the heroes they are and bring them 
back home to a proper and dignified burial
    I have watched videos and heard stories of how Marc was escorted 
home. From the moment he was carried off the battlefield, by his 
teammate, a medic, who administered CPR on Marc for 30 minutes until 
they got to the hospital, knowing he was already dead, hoping somehow 
to revive him, to the honor line as they loaded Marc on his Angel 
Flight back home where all branches of the military in Ramadi had 
gathered to pay respects to a fallen comrade.
    I can't imagine receiving the news that they had found another 
fragment of Marc and learning that instead of burying that part of Marc 
respectfully, that he was sent to the dump like 274 of our fallen 
heroes were?
    These men and women gave their lives under horrific battle 
conditions, many having been blown to pieces by IEDs or RPGs., and for 
years their remains were carelessly sent to the dump with the garbage?
    Just this past week it was brought to light that a Veteran had been 
found buried in a cardboard box in Florida. We are still working on 
locating remains in Vietnam. Why would we as a nation not have an 
honorable, dignified place to bury the remains of our War Heroes!
    Congressman Stivers has introduced a bill to have a ``Place of 
Remembrance in Arlington'' where the ashes of unidentifiable or partial 
remains of our Heroes can be laid to rest with dignity. Thank you 
Congressman Stivers for standing for your fallen brothers and choosing 
to be a voice when they have none.
    I hope each one of you see the urgency to pass this bill HR 5735 
and guarantee our troops and their families that we will continue to 
honor those who gave everything and ensure we will never forget them, 
their families or the sacrifices that have been made for our freedoms.
    Thank you . . . .HOOYAH MARC LEE!

                                 <F-dash>
                    Prepared Statement of Lisa Ward
    My name is Lisa Ward. I am the widow of Major Richard (``Rick'') 
Ward. I am also the Senior Vice Commander of the Veterans of Foreign 
Wars (``VFW'') Post 12075, the William ``Bill'' C. Amundson Memorial 
Post, which is located outside of Houston Texas. I am a Gulf War 
Veteran and served in the U.S. Army for 6 years.
    My husband Rick loved the Army and served in it for 30 years. He 
spent time serving our country overseas in the Gulf War and in Korea. 
Rick and I served in Desert Storm together, although we were not dating 
or married at the time. We were married for 20 years and have one 
daughter, Brenda Ward, who is currently a student in the College of 
Criminal Justice at Sam Houston State University.
    On May 27, 2011, I buried my husband Rick at the Houston National 
Cemetery (the ``National Cemetery''). Although I wanted to have the 
funeral service at the National Cemetery, because of the restrictions 
the National Cemetery Director placed on the religious speech contained 
in the traditional VFW Burial Ritual, I chose to hold the service at a 
private chapel so that the government could not interfere with my 
husband's funeral.
    My daughter Brenda and I arranged Rick's funeral service with Larry 
Matthews at American Heritage Funeral Home. Earl Conley, a fellow 
veteran and a good friend of my family, was also present for support. 
During the planning of the arrangements, I told Mr. Matthews that I 
wanted Rick to have a military funeral because of his thirty years of 
military service. My daughter Brenda and I had previously decided to 
have Rick's ashes buried at the National Cemetery. During the course of 
our discussion with Mr. Matthews, he informed us that the National 
Cemetery would not allow the traditional VFW Burial Ritual to be 
performed on National Cemetery grounds because it includes the word 
``God.'' Mr. Matthews further stated that the Cemetery Director had 
implemented many new restrictions; in addition to disallowing the 
traditional VFW Burial Ritual, she was also limiting the length of all 
funerals to 15 minutes, and would not allow horse-drawn caissons. I was 
shocked and confused. I couldn't comprehend why my husband, who was a 
Gulf War Veteran and faithfully served our country for 30 years, would 
not be able to have the honor of the VFW Burial Ritual at the National 
Cemetery.
    After discussing it with my daughter, we decided that we wanted 
Rick to have the honor of the traditional VFW Burial Ritual at his 
funeral. We therefore decided to have the service held at the private 
chapel at American Heritage Funeral Home instead of at the National 
Cemetery. American Heritage Funeral Home opened the doors of the chapel 
so that those in attendance could hear the rifle salute and the playing 
of Taps, although they were not able to see them like they would have 
had the service been held at the National Cemetery. About a week and a 
half after the funeral service, Rick's ashes were buried at the 
National Cemetery.
    I had to incur additional expenses to have the funeral service held 
at the private chapel instead of on the National Cemetery grounds. If 
the National Cemetery would have allowed the traditional VFW Burial 
Ritual, I would have held Rick's funeral there.
    For all of the years that my husband served, and all of the time 
that he spent overseas, he deserved to have the traditional VFW Burial 
Ritual at the National Cemetery. I feel very disappointed and 
brokenhearted. I feel like something has been taken away from me at the 
hardest point of my life. The Houston National Cemetery Director's 
policies took away the traditional VFW Burial Ritual, and I can never 
have it again. I cannot redo my husband's funeral. What has happened to 
my family is not fair. I do not want another family to have to go 
through what I had to go through.

                                 <F-dash>
                Prepared Statement of Kelly Shackelford
Introduction
    I am Kelly Shackelford, the President and Chief Executive Officer 
of Liberty Institute. Liberty Institute is the largest non-profit law 
firm in the nation dedicated solely to defending religious liberty in 
America. It was our privilege and honor to represent Pastor Scott 
Rainey, VFW District 4, The American Legion Post 586, the National 
Memorial Ladies, and Lisa Ward, James Haycraft, and Geraldine Lakey, 
family members of recently deceased veterans, in their lawsuit against 
the United States Department of Veterans Affairs, Hon. Eric Shinseki, 
Secretary of the VA, and Arleen Ocasio, Director of the Houston 
National Cemetery, seeking to prohibit religious censorship and 
discrimination at the Houston National Cemetery.
    The claims in this lawsuit were supported by the sworn testimony of 
25 veterans and their supporters who witnessed firsthand religious 
hostility occurring at the Houston National Cemetery. This lawsuit was 
resolved in October 2011, with the entry of a 20 page Consent Decree 
that includes 50 specific court ordered requirements restoring the 
religious liberty rights of our clients, other veterans across the 
country and those who seek to serve and honor them.
    What happened to our veterans is outrageous. They deserve better 
than this. Our veterans and active service military have paid and are 
paying the ultimate price for our freedoms. It is unconscionable to 
strip their religious freedom from them and their families at the time 
of their death.
Censorship of Prayer at Houston National Cemetery
    This lawsuit began in May of 2011 when the Director of the Houston 
National Cemetery attempted to edit and censor Pastor Scott Rainey's 
prayer at a Memorial Day ceremony held at the cemetery by a private, 
nonprofit organization. Pastor Rainey prayed at the ceremony the prior 
two years without any governmental interference. Unlike previous years, 
the Director of the Houston National Cemetery (overseen by the VA), 
Arleen Ocasio, told Pastor Rainey that his prayer needed to be 
submitted to her for prior approval and that its contents needed to be 
``non-denominational.''
    Pursuant to Director's Ocasio's instructions, Pastor Rainey 
submitted to Director Ocasio a draft of his prayer in advance of the 
Memorial Day ceremony. In response, Director Ocasio told Pastor Rainey, 
``I must ask you to edit it.'' Director Ocasio further stated the 
prayer cannot be ``specific to one belief'' and ``on Memorial Day we 
will be commemorating veterans from all cultures and religious 
beliefs.'' Therefore, ``[t]he tone of all messages must be inclusive of 
all beliefs, need to be general, and its fundamental purpose should be 
. . . non-denominational in nature.'' After receiving Director Ocasio's 
email, Pastor Rainey contacted her by phone. Director Ocasio instructed 
Pastor Rainey that if he did not remove the references in his prayer 
that are specific to one religion (including praying in Jesus' name) 
that he would not be allowed to deliver a prayer at the Memorial Day 
ceremony.
    On May 24, 2011, a demand letter was sent to VA Secretary Eric 
Shinseki and Director Ocasio, informing them of the relevant law and 
requesting that they inform Liberty Institute in writing by 5:00 p.m. 
on Wednesday, May 25, 2011 that Pastor Rainey may provide a prayer at 
the Memorial Day ceremony without removing references to his religion. 
The following day, May 25, 2011, Jack H. Thompson, VA Deputy General 
Counsel, responded to the demand letter via email. He stated that 
``[c]ertainly, the decision to keep pastoral remarks non-
denominational--a viewpoint neural policy--is appropriate in this 
instance.'' Mr. Thompson further stated that ``the ceremony will 
commemorate veterans of all cultures and beliefs, and the tone of 
remarks must therefore be inclusive.'' He went on to state that Pastor 
Rainey must notify Director Ocasio by 3 p.m. the following day if ``he 
agrees to modify the message he wishes to deliver in compliance with 
[Director Ocasio's] directive to him dated May 19, 2011....''
    On May 26, 2011, Pastor Scott Rainey filed a complaint and a motion 
for a temporary restraining order in the U.S. District Court for the 
Southern District of Texas, Houston Division, seeking that Defendants 
Director Ocasio and the VA be enjoined from censoring the contents of 
his prayer and religious expression at the May 30, 2011 Memorial Day 
ceremony, hosted by the National Cemetery Council for Greater Houston.
    On May 26, 2011, U.S. District Judge Lynn Hughes enjoined 
Defendants VA and Director Ocasio and all those acting in concert with 
them from dictating the content of speeches, including prayer, at the 
May 30, 2011 Memorial Day ceremony.
Restrictions Placed Upon Veterans Honor Guards at Houston National 
        Cemetery
    While we were presenting the arguments to the Court about Pastor 
Rainey, we learned of several other instances of religious hostility 
occurring at the Houston National Cemetery, including religious 
censorship directed at veterans honor guards.
    For at least 30 years at Houston National Cemetery, families of 
deceased veterans worked with private funeral homes to arrange military 
honors. If the family requested that the VFW District 4 burial team, or 
any other volunteer burial team such as The American Legion Post 586 
burial team, perform military honors, the funeral home contacted VFW 
District 4 or The American Legion Post 586 directly. If the funeral 
home contacted the VFW District 4 Honor Guard, they would perform the 
VFW Burial Ritual, a ritual that dates back to 1914. If the funeral 
home contacted the American Legion Post 586, they would perform the 
American Legion Burial Ritual. Both rituals include religious speech 
and prayer and references to God.
    It was only after Director Ocasio's arrival at the Houston National 
Cemetery that the government inserted itself into this process and 
began discriminating against religious speech and expression. Prior to 
Director Ocasio's arrival at the Cemetery, the VFW District 4 and 
American Legion Post 586 honor guards included religious speech and 
prayer in their burial rituals without interference from any 
representatives of the Cemetery. Cemetery officials never required that 
the families of the deceased veteran submit requests to them, either 
written or oral, before the honor guards performed their burial 
rituals. Funeral arrangements were made through the private funeral 
homes, not by Cemetery officials. These veterans groups never heard a 
complaint about performing their burial ritual. To the contrary, 
families praised these groups' honor guards.
    During several meetings in 2011, Director Ocasio told the 
leadership of VFW District 4 that its honor guard could no longer do 
the entire VFW Burial Ritual. Instead, they could only do what she 
described as the ``four core elements,'' the folding of the flag, the 
presentation of the flag, the rifle salute, and the playing of Taps. At 
these meetings, Director Ocasio stated that the VFW District 4 Honor 
Guard members could not provide texts of prayer to the family for 
consideration. She also stated that if family members wanted a certain 
prayer read, they would have to submit the prayer to the cemetery in 
writing and cemetery officials would then give the prayer to the VFW 
District 4 Honor Guard to read.
    Also, in 2011, a cemetery representative told the VFW District 4 
Honor Guard that they were not allowed to do the entire VFW Burial 
Ritual because the word ``God'' is forbidden. The cemetery 
representative did state that they could say the Lord's Prayer and the 
23rd Psalm since the word ``God'' is not included in those texts. When 
questioned regarding the source of the authority for these 
pronouncements, the cemetery representative responded ``by my 
supervisor's orders.''
    Further, in 2011, a cemetery employee instructed American Heritage 
Funeral Home, which sits next to the Houston National Cemetery and 
specializes in veterans' funerals, that the VFW District 4 Honor Guard 
team is forbidden from including prayer or religious messages in its 
ritual, and must only do the ``four core elements,'' unless the family 
pre-submits the prayer or religious message that it would like in 
writing prior to the funeral. Incredibly, the cemetery employee also 
admittedly told the private funeral home that it was not allowed to 
inform families that they could have the VFW Honor Guard team include 
prayer or a religious message if they pre-submitted it in writing since 
that would be trying to influence the families.
    For approximately two and a half years, VFW District 4 Honor Guard 
Junior Vice Commander Nobleton Jones recited to family members of the 
deceased veteran as he handed them the discharged shell casings from 
the gun salute: ``On behalf of the United States of America, a grateful 
nation, and the Veterans of Foreign Wars, I present you with these 
shell casings from the shots that were fired to honor our departed 
comrade. We thank him for his honorable service to our country. We 
thank you and your family for your support. We ask that God grant you 
and your family grace, mercy, and peace.''
    At a meeting in 2011, Mr. Jones asked Director Ocasio if he was 
permitted to make this recitation. Director Ocasio stated ``no.'' Mr. 
Jones then asked if he was allowed to hand the shell casings to the 
family. Director Ocasio again said ``no.'' Director Ocasio further 
stated that Mr. Jones was prohibited from having any direct contact 
with the family. Moreover, after a burial ceremony in 2011, a cemetery 
employee, who was monitoring the funeral service, instructed Mr. Jones 
that he was no longer allowed to recite his message as he hands the 
discharged shells to the family, presumably because the message 
includes the word ``God.''
    In 2011, Director Ocasio implemented a policy entitled ``Houston 
National Cemetery Honor Guard Guidelines'' (the ``Houston 
Guidelines''). The Houston Guidelines required that the volunteer honor 
guards delete all religious elements from their rituals, unless the 
family specifically requests otherwise. The policy stated that 
``funeral military honors should consist only of the core elements: the 
folding of the United States Flag; presentation of the flag to the 
veteran's family; playing of traditional Taps; and a rifle salute. 
Additions to these core elements can only be made at the request of the 
deceased's survivor(s).'' 4.a. The Houston Guidelines also stated that 
if the family of the deceased veteran has a member of the clergy recite 
a prayer or read from scripture that the volunteer honor guard may not 
also read scripture or recite a prayer. para. 7. The Houston Guidelines 
further restricted the speech of the honor guards by stating that they 
are forbidden from providing the texts of optional recitations for the 
committal service to the deceased's survivors for consideration. para. 
8.b.
    According to Director Ocasio, the Houston Guidelines were based 
upon national VA policy. On November 1, 2007, Under Secretary for 
Memorial Affairs William F. Tuerk issued a memorandum with the subject 
``Policy on Recitations on the Meaning of Folds of an Honor Guard 
Funeral Flags'' (the ``2007 National Policy''). The 2007 National 
Policy provided that ``NCA employees, including VA-sponsored Volunteer 
Honor Guards, may read such recitations at committal services, but only 
if the recitation to be read is presented by the deceased's 
survivor(s). NCA employees, including VA-sponsored Volunteer Honor 
Guards, shall not provide texts of any such recitations to the 
deceased's survivors for consideration.''
Restrictions Placed Upon The National Memorial Ladies at Houston 
        National Cemetery
    The National Memorial Ladies (``NML'') is a private, nonprofit 
organization that was founded in 2008. The NML's mission is to ensure 
that no soldier is ever buried alone. The NML began attending veterans' 
funerals at Houston National Cemetery in September 2008. To that end, 
the group attends most veterans' funerals at Houston National Cemetery, 
approximately 60 a week, to honor veterans and console their families. 
Since 2008, NML volunteers have attended thousands of veterans' 
funerals at the Houston National Cemetery.
    If the family members of the deceased veteran attend the funeral, 
the NML will hand them a condolence card with both a printed and 
handwritten message. When handing the family members the card, the 
volunteers will often orally thank them for their sacrifice. 
Previously, NML volunteers would write ``God Bless You and Your 
Family'' in their condolence cards and would sometimes say ``God Bless 
You and Your Family'' or ``we're praying for you'' to the families of 
the deceased veterans.
    NML volunteers have always been sensitive to the religious 
backgrounds of the families. NML volunteers can usually discern the 
religious background of the family by observing what type of clergy 
member is present. If the cemetery employee attending the funeral 
informs a NML volunteer that the veteran or the veterans' family is 
atheist, the volunteer will not mention ``God'' or say any other 
religious message, and will not hand the family a condolence card with 
``God'' or any other religious message. No one has ever complained 
about a NML volunteer; to the contrary, many individuals have praised 
the NML for their volunteer efforts.
    In September 2010, Director Ocasio approached NML's President, 
Cheryl Whitfield, and asked her what the NML volunteers write in the 
condolence cards. Ms. Whitfield told her that the ladies write 
something to the effect of ``On behalf of the people of the United 
States of America, we are grateful to [name of deceased veteran] for 
his [or her] selfless service he [or she] gave our country--our nation 
is grateful. God bless you and your family, [name of NML volunteer].'' 
Director Ocasio then told Ms. Whitfield that the word ``God'' is 
forbidden. Director Ocasio stated that ``God Bless You'' could no 
longer be written in the condolence cards or spoken to the families, 
and that the NML volunteers could no longer speak or write any 
religious message. Director Ocasio instructed Ms. Whitfield that all 
speech, both oral and written, has to be ``generic'' so that the NML 
volunteers do not offend anyone.
    Later that month, Director Ocasio met with Ms. Whitfield and five 
other NML volunteers in the cemetery lunchroom/conference room. During 
the meeting, Director Ocasio stated that NML volunteers could no longer 
speak or write religious words or messages such as ``God,'' ``Jesus,'' 
or ``God Bless You.'' Director Ocasio stated that NML volunteers could 
instead speak or write ``peace be with you'' or ``our thoughts are with 
you.'' Director Ocasio stated that all speech needs to be ``generic.'' 
Director Ocasio explained that NML volunteers needed to remove 
religious references from their speech because they are on government 
property. Director Ocasio stated that the cemetery was trying to 
achieve ``shrine status'' and that in order to do this, cemetery 
employees and volunteers need to work on ``customer service.'' Director 
Ocasio said that ``we can't take a chance of offending anyone'' so we 
don't hurt ``customer service.'' She further stated that removing all 
religion would make the cemetery ``neutral'' towards religion.
Closure of Houston National Cemetery's Chapel and Removal of its 
        Religious Symbols
    The Houston National Cemetery chapel previously displayed religious 
symbols, such as a large Bible, a cross and a Star of David. Before 
Director Ocasio's arrival at Houston National Cemetery, the cemetery 
chapel was open during Cemetery operating hours, it was not used for 
storage, its carillon was tolling three times per day and playing hymns 
at various times, and it was used for funeral services. In addition to 
being used for funeral services, the cemetery chapel served as a place 
for individuals to pray, reflect, or mediate on the sacrifices of our 
veterans. Special events, such as a reception for the Gold Star 
Mothers, an organization of mothers who have lost a son or daughter in 
the service of our country, were also held at the cemetery chapel.
    Sometime around the Fall of 2010, the cemetery chapel was closed. 
The doors remained locked during Houston National Cemetery operating 
hours, it was no longer used for funeral services, and the carillon was 
no longer tolling. This occurred after Director Ocasio's arrival at the 
Cemetery, approximately February 2010, and before Cemetery construction 
commenced, approximately January 2011. Director Ocasio only unlocked 
the chapel doors when Houston National Cemetery meetings or training 
sessions were held in the building. Furthermore, Director Ocasio did 
not refer to the building as a ``chapel'' but a ``meeting facility.'' 
The back pews were filled with boxes, making the building appear more 
like a storage facility than the chapel for which it was originally 
intended.
    In January 2011, Director Ocasio confirmed to the leadership of VFW 
Post 9182 that the chapel was closed and stated that she had closed it 
to make the Houston National Cemetery more ``comfortable'' for people 
of all faiths.
    Sometime after June 27, 2011, when the First Amended Complaint was 
filed in our lawsuit, the chapel was unlocked. However, the Bible, the 
Cross, and the Star of David were still kept in storage until after the 
entry of the Consent Decree,
Interference with the wishes of the families of deceased veterans at 
        Houston National Cemetery
    At least on three occasions, cemetery officials interfered with 
families of deceased veterans in their making arrangements for burial 
service. James Haycraft, Geri Lakey and Lisa Ward are representatives 
of families of deceased veterans, whom cemetery officials interfered 
with and sought to, or in fact, precluded the families' wishes in 
honoring their deceased loved one. As result of the cemetery's actions, 
Mr. Haycraft's brother did not receive the burial service he desired, 
being prohibited from having the VFW Honor Guard perform the entire VFW 
Burial Ritual. In the case of Ms. Lakey, cemetery officials attempted 
to stop her husband from receiving the entire VFW Burial Ritual. But 
for the actions of her husband's VFW Post Commander (a former judge), 
his final wishes would have been thwarted. Finally, with regard to Ms. 
Ward, in light of the cemetery's practices and policies, Ms. Ward had 
to have her husband's burial service at a private funeral home rather 
than the Houston National Cemetery so that the honor guard could 
perform the entire VFW Burial Ritual, as she desired. Nevertheless, 
because of the cemetery's restrictions, her desire to have the service 
at the cemetery was denied.
Entry of Consent Decree; Restoration of Religious Liberty at National 
        Cemeteries
    During the course of the litigation, the VA revealed the national 
policies it had in place authorizing Director Ocasio to engage in 
religious discrimination. After almost five months of litigation, on 
October 19, 2011, U.S. Federal District Judge Lynn Hughes entered a 
consent decree resolving this litigation. This landmark consent decree 
restores the religious liberty rights of our clients and ended the 
religious hostility occurring at the Houston National Cemetery. This 
Consent Decree not only impacts religious freedom at Houston National 
Cemetery, but has national implications since the VA agreed to change 
the national policies under which Director Ocasio acted.
    In summary, the Court ordered the Government to:

    1.  Amend the VA's national policy (National Cemetery Directive 
3170) that restricted free speech during special ceremonies and events 
(e.g., Memorial Day, Veterans Day, etc.) at VA national cemeteries, 
eliminating the requirement that invocations and benedictions be 
``inclusive'' and ``nonderogatory.'' (para.7)
    2.  Amend the VA's national policy (November 1, 2007, National 
Cemetery memorandum issued by Under Secretary William F. Turek on the 
Meaning of Folds of an Honor Guard Funeral Flag) that restricted 
volunteer honor guards from performing their entire burial ritual. 
(para.18)
    3.  Rescind provisions of the Houston National Cemetery Honor Guard 
Guidelines (para.para. 4.a., 7, 8.a., 8.b., and 8.c.) that restricted 
volunteer honor guards from performing their entire burial rituals. 
(para.para. 10, 14, 17)
    4.  Not edit, control or exercise prior restraints on the content 
of private religious speech and expression by speakers during special 
ceremonies and events (e.g., Memorial Day, Veterans Day, etc.) or 
private committal services at Houston National Cemetery. (para.8)
    5.  Not ban, regulate or interfere with prayers, recitations or 
words of religious expression absent family objections at veterans' 
committal services. (para.1)
    6.  Allow veterans' families to hold committal services with any 
religious or secular content they desire. (para.2)
    7.  Not ban religious speech or words, such as ``God'' and 
``Jesus'' in oral and written communications at committal services. 
(para.para.21, 22)
    8.  Not ban, regulate, or otherwise interfere with the giving of 
gifts, including gifts that contain a religious message or viewpoint at 
committal services. (para.23)
    9.  Keep the Houston National Cemetery chapel open and unlocked 
during normal operating hours, allow its use for private committal 
services, for prayer, or for reflection, and not use the public area of 
the chapel for storage. (para.para.40, 41, 45)
    10.  Return the Bible, the Cross and the Star of David for display 
in the chapel. (para.42)
    11.  Pay Plaintiffs' attorneys fees and expenses.
Conclusion
    As our lawsuit demonstrates, there is a real threat to religious 
liberty at national cemeteries. This legislation (H.R. 2720) will 
further protect the religious freedom of veterans and those who seek to 
serve and honor them. We support this effort and will do everything we 
can do to stand with our veterans. They deserve nothing less.
Executive Summary
    Kelly Shackelford is the President and Chief Executive Officer of 
Liberty Institute, who represented Pastor Scott Rainey, VFW District 4, 
The American Legion Post 586, the National Memorial Ladies, and Lisa 
Ward, James Haycraft, and Geraldine Lakey, family members of recently 
deceased veterans, in their lawsuit against the United States 
Department of Veterans Affairs, Hon. Eric Shinseki, Secretary of the 
VA, and Arleen Ocasio, Director of the Houston National Cemetery, 
seeking to prohibit religious censorship and discrimination at the 
Houston National Cemetery. The claims in this lawsuit were supported by 
the sworn testimony of 25 veterans and their supporters who witnessed 
firsthand religious hostility occurring at the Houston National 
Cemetery. This lawsuit was resolved in October 2011, with the entry of 
a 20 page Consent Decree that includes 50 specific court ordered 
requirements restoring the religious liberty rights of our clients, 
other veterans across the country and those who seek to serve and honor 
them.
    The religious hostility discovered during the lawsuit included: (1) 
the attempted censorship of a pastor's prayer at a Memorial Day 
ceremony held at the Houston National Cemetery by the cemetery's 
director; (2) restrictions placed on veterans honor guards at the 
Houston National Cemetery by the cemetery's director prohibiting the 
entire veterans burial ritual, which mentions God; (3) restrictions 
placed upon the National Memorial Ladies at Houston National Cemetery 
by the cemetery's director prohibiting them from writing and saying 
``God bless you'' to the families of deceased veterans; (4) closure of 
the Houston National Cemetery's Chapel and removal of its religious 
symbols, including a large Bible, a cross and a Star of David; and (5) 
the interference with the wishes of the families of deceased veterans 
at Houston National Cemetery by restricting religious content in burial 
services.
    During the course of the litigation, the VA revealed the national 
policies it had in place authorizing the cemetery director to engage in 
religious discrimination. After almost five months of litigation, on 
October 19, 2011, U.S. Federal District Judge Lynn Hughes entered a 
consent decree resolving this litigation. This landmark consent decree 
restores the religious liberty rights of our clients and ended the 
religious hostility occurring at the Houston National Cemetery. This 
Consent Decree not only impacts religious freedom at Houston National 
Cemetery, but has national implications since the VA agreed to change 
the national policies under which the cemetery director acted.

                                 <F-dash>
                   Prepared Statement of Jay Sanders
    My name is Jay Sanders. I am the incoming Commander for the 
Veterans of Foreign Wars (``VFW'') District 4. The VFW District 4 is a 
nonprofit, volunteer veterans organization that oversees the 17 VFW 
Posts in Houston. Approximately 4,000 veterans are members of VFW 
District 4. Previously, I served as the Senior Vice Commander and the 
Junior Vice Commander of VFW District 4. I am also currently serving as 
the Commander of VFW Post 912. I have also served as the Junior Vice 
Commander of VFW Post 912 and as the Post Chaplain. I am a three-time 
winner of the National-Aide-de-Camp, which is an award given for 
outstanding service to the VFW.
    I am a Navy Veteran; I served in the Navy from 1960 through 1964. I 
served as a Machinist Mate 3rd Class and served on the U.S.S. Bonhommie 
Richard CVA-31, an attack carrier. I received my eligibility for the 
VFW from August through October of 1964 where I served in the Tonkin 
Gulf Incident. I received the National Defense Citation Award from the 
Navy. I also received the Expeditionary Ribbon from the Navy.
    For at least 20 years, the VFW District 4 Honor Guard, at the 
request of the family of the deceased, has honored veterans by 
performing the VFW Burial Ritual during private funeral services at 
Houston National Cemetery. VFW District 4 follows the official VFW 
Burial Ritual, which was written and approved by the VFW National 
Council of Administration. The VFW Burial Ritual includes a pre-written 
prayer by the VFW District 4 Honor Guard Chaplain and religious speech 
by the VFW Honor Guard Commander, which includes references to God.
    Prior to 2011, National Cemetery officials never asked the VFW 
District 4 Honor Guard to remove any parts of its ritual, prohibited 
the honor guard from performing the entire ritual unless the families 
requested it, or required that special prayers be submitted to cemetery 
employees. Furthermore, the VFW ritual was never before divided between 
so-called ``core elements'' and ``additions to the core elements.'' 
Prior to 2011, the government never interfered with private decisions 
made between the family, the funeral home, and the VFW District 4 Honor 
Guard.
    In early 2011, the Director of the Houston National Cemetery met 
with the VFW District 4 Line Officers in her office. During the course 
of the meeting, the National Cemetery Director told us that she wanted 
the Department of Defense burial team to train the VFW burial team so 
that every burial team was trained the same way. The National Cemetery 
Director then stated that the VFW District 4 Honor Guard could no 
longer perform the entire VFW ritual, but could only do what she 
described as the ``four core elements,'' the folding of the flag, the 
presentation of the flag, the rifle salute, and the playing of Taps. 
This removed all of the religious speech and references to God from the 
VFW Burial Ritual. The National Cemetery Director further stated that 
the VFW District 4 Honor Guard members could not provide texts of 
prayer to the family for consideration. She stated that if family 
members wanted a certain prayer read, they would have to submit the 
prayer to the cemetery in writing and cemetery officials would then 
give the prayer to the VFW District 4 Honor Guard to read.
    In March 2011, the National Cemetery Director issued a policy 
entitled ``Houston National Cemetery Honor Guard Guidelines.'' Among 
other things, this policy stated that funeral military honors should 
consist only of the core elements: the folding of the flag, the 
presentation of the flag, the playing of Taps, and the rifle salute. It 
further stated that additions to these core elements can only be made 
at the request of the deceased's survivors. The policy also stated that 
if the family has a member of the clergy provide a religious service, 
then the honor guard team is not allowed to include religious elements, 
such as readings from scripture or prayer. It also stated that 
volunteer honor guards shall not provide the texts of any recitations 
to the deceased's survivors for consideration.
    On the same day the policy was issued, the National Cemetery 
Director held training in the chapel for the VFW District 4 Honor 
Guard, which performs the Burial Ritual during the funerals. I noticed 
that the chapel was filled with boxes and appeared like it was being 
used for storage. During the training, Junior Vice Commander of the 
Honor Guard, Nobleton Jones asked if he could recite the following 
while handing the shell casings to the family:

       On behalf of the United States of America, a grateful nation, 
and the Veterans of Foreign Wars, I present you with these shell 
casings from the shots that were fired to honor our departed comrade. 
We ask that God grant you and your family grace, mercy, and peace.

    The National Cemetery Director stated ``no.'' Junior Vice Commander 
Jones then asked if he was allowed to hand the shell casings to the 
family. The National Cemetery Director said ``no'' unless the family 
specifically asked for the shell casings. The National Cemetery 
Director further stated that Mr. Jones was not allowed to have any 
direct contact with the family.
    A few weeks later, the National Cemetery Director met with VFW 
District 4 line officers in her office. During the course of the 
meeting, the National Cemetery Director instructed the VFW District 4 
line officers that that the VFW District 4 Honor Guard could not 
perform the entire ritual, unless specifically requested by the family 
in writing. The National Cemetery Director also stated that if the 
family wanted a VFW Honor Guard member to read any special prayer 
during the service, that the family would have to submit the text of 
the prayer to her, and then she would provide that prayer to the VFW 
Honor Guard. One of the VFW District 4 line officers, recognizing that 
these conditions are not included in the honor guard guidelines, 
requested to see this policy in writing. The National Cemetery Director 
agreed to provide these policies to us in writing, but never produced a 
copy of these policies.
    These oral and written policies implemented in 2011 were not only 
unprecedented, but they substantially interfered with the private 
funeral services of our deceased veterans. What is spoken during a 
private funeral service is a very private and personal decision that 
the government has no right to interfere with. The families of the 
deceased veterans have been thankful and touched by the VFW Burial 
Ritual. It is a great honor for a veteran to have the VFW Burial Ritual 
performed, and the government has no business removing the religious 
portions of this nearly 100-year old burial ritual.

                                 <F-dash>
                Prepared Statement of Kathryn A. Condon
Introduction
    Mr. Chairman, Ranking Member McNerney and distinguished members of 
the Subcommittee, thank you for the opportunity to provide the 
Department of the Army's views on pending legislation.
    Arlington National Cemetery is the preeminent national military 
cemetery, a place on the world stage where hundreds-of-thousands of 
American military service members lie in silent repose. At Arlington we 
uphold appearance and operational standards that are second to none and 
that are befitting the acts of bravery and sacrifice committed by those 
who rest into eternity within these hallowed grounds. It is a distinct 
honor to appear here before you and to testify as to the Army's 
position on H.R. 2355, ``The Hallowed Grounds Act'' and H.R. 5735, 
which encourages erecting ``The Tomb of Remembrance.''
    In testifying before you this afternoon, I have the opportunity to 
reinforce the ideals we have worked hard to implement and strengthen at 
Arlington.
                               H.R. 2355
    H.R. 2355 would amend Title 38, United States Code, to exclude 
individuals who have been convicted of committing certain sex offenses 
from receiving certain burial-related benefits and funeral honors which 
are otherwise available to certain veterans, members of the Armed 
Forces, and related individuals, and for other purposes.
    Arlington National Cemetery's primary mission is to honor the 
service of our nation's Veterans. The Army fully supports the intent of 
the proposed legislation to keep the most heinous of sex offenders from 
receiving the honor of interment or memorialization at Arlington 
National Cemetery. The Army also defers to the Department of Veterans 
Affairs on the applicability and implementation of the proposed 
legislation within the 131 National Cemeteries as those cemeteries are 
operated by that Department.
    The Army cannot support H.R. 2355 as drafted. Specifically, the 
bill only precludes convicted tier III sex offenders from burial or 
memorialization at Arlington National Cemetery. There is no provision 
in the bill to prevent the interment or memorialization of a person 
found by an appropriate federal authority to have committed a tier III 
sex offense, but not yet convicted.
    The Army looks forward to the opportunity to work with the 
Committee in an effort to resolve our concerns.
                               H.R. 5735
    H.R. 5735 would provide for the establishment of a Tomb of 
Remembrance at Arlington National Cemetery for interment of cremated 
fragments of the remains of members of the Armed Forces killed in 
Afghanistan, Iraq, or a subsequent conflict when the fragments are 
unidentifiable by use of DNA testing or other means because of the 
condition of the fragments, are unclaimed, or are identified and 
authorized by the person designated to direct disposition of the 
remains for interment in such memorial.
    The Army supports passage of H.R. 5735. One of the most dignified 
ways to affect the final disposition of unidentifiable remains is to 
release them into an ossuary, a receptacle for burying human remains. 
Arlington is the natural place to preserve the remains and memories of 
our unknown service members, using funds from the Office of the 
Secretary of Defense to erect an ossuary. We would execute these duties 
with the same dignity, honor, respect and compassion that we exhibit 
every day with all services conducted at Arlington.
    As the capable staff at Arlington National Cemetery is well versed 
in the complexities of burials, we recommend H.R. 5735 be amended to 
allow the determination of burial eligibilities into the Tomb of 
Remembrance to be left with the Department of Defense, rather than 
articulated specifically in the legislation.
                               CONCLUSION
    The Army fully supports the intent of H.R. 2355, however, passage 
as currently drafted would fail to give the Department the full range 
of options required to appropriately implement the intent of the 
legislation, and we would appreciate the opportunity to confer with the 
Committee.
    Passage of H.R. 5735 would appropriately extend Arlington National 
Cemetery's role in the proper disposition of service members' remains 
in a way that presently is not practiced.
    On behalf of Arlington National Cemetery and the Department of the 
Army, I would like to express our appreciation for the support that 
Congress has provided over the years.

                                 <F-dash>
                  Prepared Statement of Thomas Murphy
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to present the views of the Department of Veterans Affairs 
(VA) on several bills of interest to Veterans and VA. Accompanying me 
today is Richard Hipolit, Assistant General Counsel. VA does not yet 
have cleared views on H.R. 2720 or H.R. 5881, the ``Access to Veterans 
Benefits Improvement Act.'' VA will forward views and estimated costs 
on these bills as soon as they are available.
                               H.R. 2355
    Section 2411 of title 38, United States Code, prohibits the 
interment of the remains of certain persons in a cemetery in the 
National Cemetery Administration or Arlington National Cemetery. 
Section 2411 also prohibits honoring of the memory of those persons in 
a memorial area in those cemeteries. These prohibitions apply to 
persons who have been finally convicted of a Federal capital crime, 
persons who have been finally convicted of a state capital crime, and 
persons who have been found, in administrative proceedings, to have 
committed a Federal or state capital crime but not to have been 
convicted by reason of unavailability for trial due to death or flight 
to avoid prosecution.
    Section 2(a) of H.R. 2355, the ``Hallowed Grounds Act,'' would add 
to section 2411 another category of persons subject to those 
prohibitions. Under this amendment, a person ``who is a tier III sex 
offender for purposes of the Sex Offender Registration and Notification 
Act'' could not be interred or honored in a national cemetery. Tier III 
is the most serious category of sex offenders in the Sex Offender 
Registration and Notification Act. Although the caption of section 2(a) 
refers to a bar to receiving certain funeral honors, section 2411 does 
not pertain to the provision of funeral honors as such, as that term is 
used to refer to ceremonial activities that accompany the interment of 
remains. Under section 2(b) of the bill, these provisions would apply 
to interments and memorializations that occur on or after the date of 
enactment. VA defers to the Department of the Army on the applicability 
of the proposed amendment to burial in Arlington National Cemetery, 
which is operated by that Department, and defers to the Department of 
Defense as to any effect on the provision of funeral honors, which the 
Department of Defense provides to eligible Veterans.
    VA supports the goal of keeping the most heinous sex offenders from 
receiving the honor of interment or memorialization in VA cemeteries. 
VA has concerns about some practical issues that implementation of H.R. 
2355, as currently drafted, would raise. VA would like to confer with 
the Committee, the Department of Justice (DOJ), and with VA's Veterans 
Service Organization partners following the hearing regarding the 
sensitive issues that it raises. VA would like to further investigate 
specific concerns with DOJ about the accuracy and reliability of 
information currently contained in State databases and whether those 
databases contain the information VA needs to make eligibility 
determinations and ensure consistent application for similar offenses 
across the Nation. In addition to the current accuracy of the 
databases, VA is also concerned by the fact that when sex offenders 
die, States are not required to maintain their records. This could give 
rise to circumstances that could necessitate labor-intensive searches 
and review in the implementation of the prohibitions and could reduce 
VA's ability to provide timely decisions on burial requests. VA will 
work closely with the Committee, DOJ, and other partners to attempt to 
resolve these questions.
                               H.R. 2996
    Section 1117 of title 38, United States Code, authorizes VA to pay 
compensation to Persian Gulf Veterans with a qualifying chronic 
disability that became manifest during service on active duty in the 
Armed Forces in the Southwest Asia theater of operations during the 
Persian Gulf War or during a presumptive period prescribed by VA, as 
authorized by section 1117(b). Under current regulations, that 
presumptive period will end December 31, 2016. Section 2(a) of H.R. 
2996, the ``Gulf War Syndrome `Presumptive Illness' Extension Act of 
2011,'' would prohibit the presumptive period prescribed by VA from 
ending earlier than December 31, 2018. Section 1117(f) defines the term 
``Persian Gulf veteran'' for purposes of section 1117 as ``a veteran 
who served on active duty in the Armed Forces in the Southwest Asia 
theater of operations during the Persian Gulf War.'' Section 2(b)(1) of 
the bill would require VA to treat as a Persian Gulf Veteran eligible 
for compensation authorized by section 1117 any ``veteran who served on 
active duty in the Armed Forces during Operation Enduring Freedom, 
Operation Iraqi Freedom, or Operation New Dawn in the Southwest Asia 
theater of operations, Afghanistan, or other location that supported 
such an operation, as determined by the Secretary.''
    Section 1118(a) of title 38, United States Code, authorizes 
presumptions of service connection prescribed by VA regulations for 
certain illnesses found to have a positive association with exposure to 
a biological, chemical or other toxic agent; environmental or wartime 
hazard, or preventive medicine or vaccine known or presumed to be 
associated with service in the Armed Forces in the Southwest Asia 
theater of operations during the Persian Gulf War. Section 1118(a)(3) 
requires VA to presume that a Veteran who served on active duty in the 
Southwest Asia theater of operations during the Persian Gulf War and 
has a pertinent illness to have been exposed to the agent, hazard, or 
medicine or vaccine associated with the illness in the prescribed 
regulations unless conclusive evidence establishes that the Veteran was 
not exposed to the agent, hazard, or medicine or vaccine. Section 
2(b)(2) of the bill would require VA to treat as ``a veteran who served 
on active duty in the Armed Forces in the Southwest Asia theater of 
operations during the Persian Gulf War'' a ``veteran who served on 
active duty in the Armed Forces during Operation Enduring Freedom, 
Operation Iraqi Freedom, or Operation New Dawn in the Southwest Asia 
theater of operations, Afghanistan, or other location that supported 
such an operation, as determined by the Secretary.''
    VA does not object to prohibiting the end of the section 1117 
presumptive period before December 31, 2018, but does not support 
extending the definition of ``Persian Gulf veteran'' to include service 
in Afghanistan or other location that supported such operations. The 
term ``Persian Gulf veteran'' as used in section 1117 was initially 
associated with Veterans who served during Operation Desert Shield and 
Operation Desert Storm in 1990-1991. Section 1117 was based on complex 
of chronic symptoms that developed among those Veterans, and 38 U.S.C. 
Sec.  1118 addresses environmental hazards associated with service in 
that theater of operations. The National Academy of Sciences' Institute 
of Medicine, whose studies VA uses to determine which disabilities are 
associated with such service, has considered several hazards associated 
with that service, but those hazards are generally not associated with 
service in Afghanistan or in other locations supporting operations 
there. Consequently, VA does not support expanding the scope of 
sections 1117 and 1118 to include service in Afghanistan or in other 
support locations.
    VA did not have sufficient time to accurately estimate costs for 
H.R. 2996 and will submit that information when it is available.
                               H.R. 4299
    S. 4299, the ``Quality Housing for Veterans Act,'' would amend 38 
U.S.C. Sec.  2102A(e) to extend through December 31, 2014, VA's 
authority to make Temporary Residence Adaptation grants to severely 
disabled Veterans who reside temporarily with family members. 
Currently, this authority will expire on December 31, 2012.
    VA strongly supports the extension of this specially adapted 
housing authority. VA's legislative proposal submitted to Congress on 
May 19, 2011, included a proposal to extend this authority for ten 
years.
    No benefit or administrative costs would result from enactment of 
H.R. 4299.
                               H.R. 5735
    H.R. 5735 would require the Secretary of Defense to establish in 
Arlington National Cemetery a ``Tomb of Remembrance'' for the interment 
of the cremated fragments of the remains of certain members of the 
Armed Forces who were killed in Operation Enduring Freedom in 
Afghanistan, Operation Iraqi Freedom or Operation New Dawn in Iraq, or 
any war or contingency operation designated after the date of 
enactment. The bill would require the Secretary of Defense to transfer 
the funds necessary to cover the costs to be incurred in establishing 
the Tomb of Remembrance from the account of the Office of the Secretary 
of Defense to the Account of the Secretary of the Army used to fund the 
operation and maintenance of Arlington National Cemetery.
    Because H.R. 5735 would not affect the operations of or programs 
administered by VA, VA defers to the Department of Defense and the 
Department of the Army as to the merits of the bill. Nevertheless, 
because VA now provides the headstones and markers used at Arlington 
National Cemetery for individual gravesites and columbaria niches and 
the markers placed in memorial sections of the cemetery, VA could incur 
a cost to provide a marker for placement on the Tomb of Remembrance. 
However, VA cannot estimate the potential cost until a final design is 
determined.
                               H.R. 5880
    H.R. 5880, the ``Disability Examination Access Improvement Act,'' 
would extend for five years VA's authority to provide compensation and 
pension examinations by contract examiners. Under current law, this 
authority will expire on December 31, 2012.
    VA strongly supports the extension of this authority, which is 
essential for VA's ability to continue to provide prompt and high-
quality medical disability examinations. If this authority is allowed 
to expire, VA will not be able to provide contracted disability 
examinations, and VA's priority goal to eliminate the disability claims 
backlog will be adversely affected. Extending the authority for another 
five years would enable VA to effectively leverage discretionary 
appropriations as part of our response to increasing demands for 
medical disability examinations. Contracting for examinations is 
essential to VA's objective of ensuring timely adjudication of 
disability compensation claims and allows the Veterans Health 
Administration to better focus its resources on providing needed heath 
care to Veterans.
    No benefit or administrative costs would result from enactment of 
this bill. The Administration's Fiscal Year 2013 budget request 
included this proposal.
    This concludes my statement, Mr. Chairman. I would be happy to 
entertain any questions you or the other Members of the Subcommittee 
may have.

                                 <F-dash>
                        Statement For The Record

                          Hon. Ted Poe (TX-02)
    Chairman Runyan, Ranking Member McNerney and other Members of the 
Subcommittee, thank you for the opportunity to speak on behalf of HR 
2720.
    On June 28th of last year, constituents of mine came to meet with 
me about a big problem at the National Cemetery in Houston. The 
National Cemetery in Houston is the second-largest in the nation and 
the place where four Medal of Honor winners were laid to rest. These 
constituents were members of the VFW, American Legion, and the Houston 
branch of the National Memorial Ladies who had been serving veterans 
and their families as they laid their loved ones to rest. They said the 
Director of the Cemetery was not letting them exercise their First 
Amendment rights. They claimed the VA was censoring free speech and 
preventing the free exercise of religion at the National Cemetery in 
Houston. They said the chapel at the cemetery was closed. The Bible, 
the cross, and the Star of David were removed, and the chapel became a 
storage shed. They also said the Director of the cemetery, who was not 
a veteran, censored prayers and prohibited the religious ceremony 
during burial of veterans.
    The Director defended herself by saying she was simply enforcing VA 
regulations that all speech be ``inclusive.'' That meant this was not 
just an isolated incident, but a problem at the very highest levels and 
one that could be repeated unless a stop was put to it. The VFW sued 
the VA, and the VA naturally denied the whole thing. Recently, a 
Federal judge approved and agreed to an order requiring the chapel to 
be reopened, the Bible, the cross, the Star of David to be returned, 
and said that the VA must not interfere with free speech or the free 
exercise of religion at burials. Since then, the VA refused to fire the 
Director, instead choosing to transfer her back to Washington DC.
    I am a cosponsor of HR 2720 because if passed, it would make sure 
travesties like the one I just described do not happen again. The bill 
is clear that the VA cannot limit the freedom of speech of our 
veterans, must provide veterans a place where they can worship, make 
sure that VSOs like the ones that came to me are allowed to serve 
veterans, and require that all cemetery directors are veterans.
    It is ironic that Americans who have gone to war and fought for the 
principles of the Constitution, come home to face government hostility 
and the denial of their First Amendment rights. To deny anyone of their 
right to free speech or freedom of religion is unacceptable, but to 
deny our veterans, those who fought for those very freedoms we enjoy 
today, is inexcusable. The fact that this was done at funeral services, 
when families were saying goodbye to loved ones, makes it even worse. 
The First Amendment is sacred, funerals are sacred and when our 
veterans are buried, that soil becomes sacred. It is the constitutional 
duty of the federal government to protect speech and religion, not 
prohibit it. I urge this subcommittee to support HR 2720. That's just 
the way it is.

                                 <all>

</pre></body></html>
